<html>
<title> - COMPLIANCE WITH ALL-TERRAIN VEHICLE (ATV) STANDARDS</title>
<body><pre>[Senate Hearing 109-1151]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1151
 
                            COMPLIANCE WITH 
                  ALL-TERRAIN VEHICLE (ATV) STANDARDS

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
71-178                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                    GEORGE ALLEN, Virginia, Chairman
TED STEVENS, Alaska                  MARK PRYOR, Arkansas, Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JIM DeMINT, South Carolina           BARBARA BOXER, California
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 6, 2006.....................................     1
Statement of Senator Allen.......................................     1
Statement of Senator Pryor.......................................     3

                               Witnesses

Aitken, Mary, Associate Professor, Department of Pediatrics, 
  University of Arkansas for Medical Sciences....................    44
    Prepared statement...........................................    46
Buche, Tim, President, Specialty Vehicle Institute of America 
  (SVIA).........................................................    22
    Prepared statement...........................................    24
Halbert, Susan W., Senior Vice President, National 4-H Council...    50
    Prepared statement...........................................    53
Leland, Elizabeth W., Project Manager, ATV Safety Review Team, 
  U.S. Consumer Product Safety Commission........................     4
    Briefing Package--ATV Safety Review (May 2006)...............     4
    Prepared statement...........................................    19
Weintraub, Rachel, Director of Product Safety/Senior Counsel, 
  Consumer Federation of America (CFA)...........................    32
    Prepared statement...........................................    34
Williams, Brett, General Manager, Coleman PowerSports............    40
    Prepared statement...........................................    42

                                Appendix

Heiden, Ph.D., Edward J., President, Heiden Associates, prepared 
  statement......................................................    73


                            COMPLIANCE WITH 
                  ALL-TERRAIN VEHICLE (ATV) STANDARDS

                              ----------                              


                         TUESDAY, JUNE 6, 2006

                               U.S. Senate,
 Subcommittee on Consumer Affairs, Product Safety, 
                                     and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. George Allen, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good morning. I call to order this hearing 
of the Senate Subcommittee on Consumer Affairs, Product Safety, 
and Insurance.
    Today, we're going to examine the issue of compliance with 
all-terrain vehicle standards, evaluating current ATV 
standards, safety practices, and the historical development of 
initiatives meant to improve the safety for all of those 
enjoying and utilizing these types of vehicles, which are 
increasingly popular for adults, as well as for kids.
    I want to thank you, our Ranking Member of this Committee, 
Senator Pryor, for helping promote greater awareness of the 
pertinent issues relating to this area of product safety. I 
also thank our Chairman, Senator Stevens, who has an interest 
in this matter and may also be attending this hearing.
    For our witnesses and those viewing as spectators, so to 
speak, we're likely to have a vote around 10:20 in the morning. 
Senator Pryor and I usually try to work a tag-team approach, 
that one goes and votes while the other chairs the hearing, so 
that'll make it easier for the witnesses to continue and not 
have it interrupted with 15 minutes of recess, so to speak.
    I thank all the witnesses who are here, for your assistance 
to the staff on this subcommittee.
    The witnesses are going to have a diversity of views. And 
that's typical of when you have a hearing and an issue that 
deals with public safety. The topic, though, is one that we 
care about, because many children are riding these vehicles. 
Everyone wants to be responsible, and that's going to be the 
key watchword for me, is individual or personal responsibility, 
as well as parental responsibility. We want to make sure that 
people have responsible, knowledgeable riding habits and 
prevent some of these products, especially those that are 
potentially unsafe products, from entering the stream of 
commerce in the first place. The participation of the witnesses 
here today will help shed some light on the ATV safety issue, 
in general, as well as assisting us and your government 
generally in the review of market compliance with certain 
safety obligations. And I appreciate all the witnesses for your 
time in preparing for this hearing.
    As Virginia and Arkansas and other states all have 
constituents that use ATVs for enjoyment, some use it for work 
and their jobs, some use it for some general transportation, 
even some use it for competitive racing. Anything with a motor 
on it can be raced. We understand that, don't we? We understand 
that. That's just part of human nature, particularly in 
Virginia and Arkansas.
    [Laughter.]
    Senator Allen. However, we're also interested in promoting 
awareness of the most prudent practices for safety and 
responsibly distributing and using these vehicles.
    We also hope to examine industry compliance with consensus 
standards that have been developed over the years, actions 
plans--we want to look at action plans for implementing these 
standards by the industry and whether all companies 
distributing ATVs in this country are complying with the 
relevant safety limitations on business activity.
    We will also observe whether any one area of compliance may 
be falling short in ensuring the safety of these vehicles. In 
particular, there are new entrant vehicles being imported into 
the United States which are not bound by the legacy agreements 
followed by North American distributors. While it's important 
to allow the free market to operate, consumers should be aware 
of any companies whose products, wherever they're produced, 
fail to conform to minimum consensus standards followed by the 
industry. History shows that every year, in addition to the 
hours of operation without incident, which are most of the time 
that somebody's on an ATV--they're enjoying it, they're having 
the exhilarating experience, they're having fun, they may be 
working, they may be hunting, they may be racing--however, 
there are injuries, there are tragedies--many tragedies 
involving ATVs. Now, whether these accidents stem from misuse, 
lack of supervision, or mechanical defects, it's important for 
us to examine if Federal involvement could assist in preventing 
such accidents. The speed of the vehicle, as we'll hear from 
our witnesses from CPSC today, can also play a significant 
factor in deaths and injuries suffered by children as--the 
faster the vehicle may move, the greater the opportunity to 
lose control, especially if you're on uneven terrain, you're 
out in the woods or out in the country somewhere. And it's 
especially so if a child is either inexperienced--especially 
inexperienced operating an ATV. This is just simply the law of 
physics at stake here. The faster you're going on uneven 
terrain, the more likely you're going to lose control.
    Now, much of the industry has attempted to educate 
potential riders of the safety risks associated with ATVs. 
While riding an ATV may be a lot of fun, at a certain level, 
risk is inherent in any product that runs by a motor and has 
the ability to travel over rough and bumpy terrain. That's just 
common sense. Now, we--as parents and as adults, we need to be 
responsible and attentive in ensuring that our children have 
adequate knowledge, training, protective gear, and are properly 
fitted to an appropriate youth-sized vehicle. That means 
sometimes saying, ``No, you can't drive this. You're too small. 
You're not going to be able to control this particular motor 
vehicle that goes too fast and is too big for you to handle.'' 
Instead, we need to make sure that if our kids are on one of 
these ATVs, they can safely control it, and also that the ATV 
is in compliance with applicable standards.
    We should follow our own example, as well. Misuse is not 
just by kids and children. Everyone should understand and 
assume the potential risk involved with any activity, and plan 
accordingly, so as to avoid any unintended injury.
    Now, on this point, we hope to gain knowledge of the proper 
balance between enjoyment, utility, and safety when it comes to 
the use, design, and construction and maintenance--in fact, 
even the distribution--of ATVs here in the United States. For 
this reason, the review of ATV safety is timely and will 
hopefully lead to a reduction of injuries and deaths simply by 
promoting greater awareness of responsible and safe riding 
habits. We hope that our witnesses will offer reasonable 
suggestions and possible solutions toward improving ATV safety. 
I'm not going to be one who, though, wants to outlaw fun. 
People ought to be able to have fun in their life, and some 
things are more risky, but they ought to be aware and 
responsible.
    And we look forward to hearing from each of our witnesses 
on the prudence of Federal involvement in addressing ATV 
safety, as well as ways, beyond this hearing, for improving 
consumer awareness of ATV safety measures. All of you are to be 
commended for your participation and consideration of all 
suggestions on how to make operating ATVs a safer activity.
    With that, Senator Pryor, would you like to make any 
comments before I introduce our witness?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Yes, thank you, Mr. Chairman. And, again, I 
want to thank you for holding this hearing. It's obviously a 
very important issue. It touches on safety and touches on 
safety for our children.
    And I want to thank the panelists, like the Chairman just 
did, for being here and rearranging your schedules. You have a 
lot of expertise and a lot of things that you can offer, so I 
want to thank you all for being here. Like in Virginia, in 
Arkansas we have a lot of people around our state that use 
ATVs, some use them for recreation, some use them for work, 
some use them for farming, et cetera. These can be work 
vehicles and they can be hunting vehicles. They can have an 
impact on economic livelihood. And sometimes, like the Chairman 
said, it's just to get out in the woods and have fun. And all 
of that is OK. But because they are so widely used, we have to 
understand that there are some safety concerns that we should 
have with using these vehicles. And since 1985, there have been 
over 3,200 people in this country who have died of ATV-related 
activities, and 35 percent of those are under the age of 16. 
There again, you see a disproportionate number of young people, 
and that's something that I hope that we can explore today. The 
safety of our children should never be ignored. That's why I'm 
glad to see that the Chairman and this Committee are looking 
into this.
    And I do notice that the Consumer Product Safety Commission 
has recently issued a rulemaking. I'd like to hear from you on 
that, Ms. Leland, and, understand where that's headed and what 
you think might happen with the rule. And, lastly, I want to 
thank Mary Aitken, who came up here from Little Rock, with the 
University of Arkansas for Medical Sciences. She has a lot of 
expertise in working with people, especially children, who have 
suffered these type of injuries. And I know she had to 
rearrange her schedule to be here.
    So, I look forward to hearing from all the witnesses today, 
and all the testimony. And, again, Mr. Chairman, I just want to 
thank you for your leadership on this issue.
    Senator Allen. Thank you, Senator Pryor. And it's, as 
usual, a pleasure to work with you on issues of shared concern.
    Before we listen to the testimony of our witnesses, I want 
to introduce our first panelist that we have with us, and 
that's Ms. Elizabeth Leland, the Project Manager for the ATV 
Safety Review Team at the Consumer Product Safety Commission. 
She has a great deal of technical knowledge of the issues 
concerning ATV safety, and has been integral in the 
Commission's recent recommendations regarding future agency 
action.
    Thank you for agreeing to testify and bringing your 
knowledge and wisdom, as well as timetables, to our 
Subcommittee meeting here this morning.

 STATEMENT OF ELIZABETH W. LELAND, PROJECT MANAGER, ATV SAFETY 
              REVIEW TEAM, U.S. CONSUMER PRODUCT 
                       SAFETY COMMISSION

    Ms. Leland. Good morning, and thank you for this 
opportunity to speak today on the work of the U.S. Consumer 
Product Safety Commission in addressing safety issues related 
to all-terrain vehicles, or ATVs. My name is Elizabeth Leland, 
and I am the Project Manager for the ATV Safety Review Team.
    The Consumer Product Safety Commission, or CPSC, is a small 
bipartisan agency charged with protecting the public from 
unreasonable risks of serious injury or death from more than 
15,000 types of consumer products. ATV safety has been a 
subject of ongoing concern and activity at CPSC. Most recently, 
CPSC staff presented to the Commissioners a briefing paper 
outlining a number of recommendations to address the risk of 
injury and death associated with this product. I ask the 
Chairman's permission to submit the staff's recommendations to 
the Committee for the record.
    Senator Allen. Without objection, so ordered.
    [The information referred to follows:]

             Briefing Package--ATV Safety Review (May 2006)
Executive Summary
    On June 8, 2005, Chairman Hal Stratton delivered a memorandum to 
the staff asking the staff to review all ATV safety actions and make 
recommendations on a number of issues. The memo directed the staff to 
consider whether: (1) The current ATV voluntary standards are adequate 
in light of trends in ATV-related deaths and injuries; (2) the current 
ATV voluntary standards or other standards pertaining to ATVs should be 
adopted as mandatory standards by the Commission; and (3) other 
actions, including rulemaking, should be taken to enhance ATV safety.
    In October 2005, the Commission issued an advance notice of 
proposed rulemaking (ANPR) to initiate a regulatory proceeding for ATVs 
under the authority of the Consumer Product Safety Act (CPSA), and the 
Federal Hazardous Substances Act (FHSA). The ANPR was issued as part of 
the comprehensive review of regulatory and non-regulatory options for 
addressing the risk of injury and death associated with ATVs, and it 
invited written comments from the public regarding the risk of injury 
associated with ATVs and ways in which these risks might be addressed.
    Based on its evaluation of the regulatory alternatives and the 
comments that were submitted in response to the ANPR, the CPSC staff 
recommends issuing a notice of proposed rulemaking (NPR) requiring:

  <bullet> adult (single-person and tandem) ATVs to meet specific 
        mechanical performance requirements;

  <bullet> youth ATVs to meet specific mechanical performance and 
        design requirements and to be categorized by speed limitation 
        alone rather than by speed limitation and engine size;

  <bullet> specific safety warnings to be provided to the purchaser 
        through hang tags, labels, a safety video, and the owner's 
        instruction manual;

  <bullet> a means for reporting safety-related complaints to the 
        manufacturer be provided to the purchaser;

  <bullet> a disclosure statement warning against the use of adult ATVs 
        by children and describing the possible consequences of 
        children riding adult ATVs be provided to and signed by 
        purchasers of all adult ATVs;

  <bullet> an acknowledgement-of-age statement be provided to and 
        signed by purchasers of children's ATVs;

  <bullet> a certificate offering free training to each member of the 
        purchaser's immediate family for which the ATV is age-
        appropriate be provided to all purchasers of ATVs; and

  <bullet> three-wheeled ATVs to be banned.

    In addition to these regulatory actions, the staff also recommends 
that the Commission implement a series of non-regulatory activities to 
enhance ATV safety. These would include continuing to work with 
industry in voluntary standards activities, launching an ATV safety 
website including an ATV data resource ``bank'' with information on 
state legislative and regulatory activity, and implementing an 
additional two-phase information and education effort.
                                 ______
                                 
          U.S. Consumer Product Safety Commission--Memorandum

1. Introduction
    In a memorandum dated June 8, 2005, Hal Stratton, the Chairman of 
the U.S. Consumer Product Safety Commission (CPSC) directed the CPSC 
staff to review current all-terrain vehicle (ATV)-related voluntary 
safety standards and to provide recommendations to the Commission as to 
whether rulemaking should be used to make those standards mandatory. In 
addition, the staff was directed to review various ATV safety-related 
proposals and to provide recommendations about any other actions the 
Commission should take to ``appropriately enhance the safety of ATV 
operation and performance in the United States.''
    This was followed in October 2005 with the Commission's issuance of 
an advance notice of proposed rulemaking (ANPR) that called for 
critical information and practical solutions to improving ATV 
safety.\1\ All interested stakeholders were encouraged to provide the 
Commission with ``meaningful data, comments, and suggestions'' 
concerning ways to reduce the deaths and injuries associated with the 
use of ATVs. By the closing date of the comment period, December 13, 
2005, 165 comments were received, with one of those comments being 
signed by about 1,500 interested individuals.
---------------------------------------------------------------------------
    \1\ Consumer Product Safety Commission, ``All Terrain Vehicles: 
Advance Notice of Proposed Rulemaking: Request for Comments and 
Information,'' 70 Federal Register 60031-60036 (October 14, 2005).
---------------------------------------------------------------------------
    This briefing package presents proposals for Commission 
consideration; these proposals are based on the staff's review of the 
voluntary standards, the ATV safety-related proposals mentioned above, 
and the comments that were received in response to the ANPR.

2. Background

A. CPSC's Involvement With ATVs: History and Current Activities
    CPSC has had a long and extensive history with ATVs, punctuated by 
legal, regulatory, and voluntary actions. In 1985, the Commission 
issued an ANPR to consider several regulatory options to address ATV-
related deaths and injuries. In 1987, the Commission filed a lawsuit 
under Section 12 of the Consumer Product Safety Act (CPSA) to declare 
ATVs an imminently hazardous consumer product [15 U.S.C. 
Sec. 2061(b)(l)]. The lawsuit was settled in 1988 by consent decrees 
between the Commission and the ATV distributors who were active in the 
domestic market (American Honda Motor Company, Inc.; American Suzuki 
Motor Corporation; Polaris Industries, L.P.; Yamaha Motor Corporation, 
USA; and Kawasaki Motors Corporation); the consent decrees were to be 
effective for 10 years.
    Under the consent decrees, the distributors agreed to take several 
actions ranging from stopping the distribution of three-wheeled ATVs 
and developing a performance standard for four-wheeled ATVs to 
providing safety information to consumers through various media, 
including labeling on the product itself. With respect to the use of 
ATVs by children, the distributors agreed to represent that ATVs with 
engine sizes between 70 and 90 cubic centimeters (cc) should be used by 
those age 12 and older and that ATVs with engine sizes larger than 90cc 
should be used only by those age 16 years and older. In addition, the 
companies agreed to use their best efforts to assure that ATVs would 
not be purchased by or for the use of anyone who did not meet the age 
restrictions.
    While the consent decrees were in effect, the distributors entered 
into agreements with the Commission and the U.S. Department of Justice 
to monitor their dealers' compliance with the age recommendations; they 
further agreed to terminate the franchises of dealers who repeatedly 
failed to provide information about the age recommendations to 
prospective purchasers. The Commission compliance staff also began 
conducting a dealer monitoring program.
    In 1990, the voluntary standard for Four Wheel All-Terrain 
Vehicles--Equipment, Configuration, and Performance Requirements, ANSI/
SVIA-1-1990, was published. The Commission withdrew its ATV ANPR in 
1991, thus ending the rulemaking proceeding begun in 1985. The 
Commission stated that a product standard that would adequately reduce 
injuries and deaths from ATVs was not feasible at the time and that a 
ban of all ATVs was not appropriate due to the extensive use of ATVs 
for non-recreational purposes, their significant recreational value, 
and the lack of any close substitutes.
    The Consumer Federation of America (CFA) and the U.S. Public 
Interest Research Group (USPIRG), believing that the Commission should 
have pursued a ban on the sale of adult ATVs for use by children under 
16, challenged the Commission's termination of its rulemaking 
proceeding in a 1993 lawsuit. In the lawsuit, CFA and USPIRG argued 
that the Commission acted arbitrarily and capriciously when it withdrew 
the ANPR. The United States Court of Appeals for the District of 
Columbia Circuit upheld the Commission's action.
    In 1998, the consent decrees expired, and the Commission entered 
into Voluntary Action Plans (also known as Letters of Undertaking or 
LOUs) with individual ATV distributors who had been subject to the 
consent decrees and with three other ATV distributors (Cannondale 
Corporation, Arctic Cat, Inc., and Bombardier Recreational Products, 
Inc.) who had entered the market after the consent decrees had been 
established. (Cannondale no longer makes ATVs.) The LOUs are agreements 
that encompass many of the provisions of the consent decrees, including 
the age recommendations. These action plans continue in effect today. 
Additionally, the Commission staff and industry continue to monitor 
separately the actions of dealers in providing information about the 
age recommendations.
    In 2001, the voluntary standard was revised to add several 
provisions to enhance and clarify the standard. In 2002, the CFA and 
eight other groups asked the Commission to take four actions to address 
hazards presented by ATVs. The CPSC Office of the General Counsel (OGC) 
docketed only the portion of their request that asked for a rule 
banning the sale of adult-size four-wheeled ATVs sold for the use of 
children under 16 years of age. The Commission solicited comments on 
the petition through issuance of a Federal Register notice in October 
2002. In 2003, the Commission held a public field hearing in West 
Virginia and the Chairman held two public meetings, one in Alaska and 
one in New Mexico, to hear the comments of interested parties; these 
included ATV riders, state and local government officials, consumer 
organizations, medical professionals, and manufacturers, distributors, 
and retail dealers of ATVs.
    In early 2005, the CPSC staff submitted a briefing package to the 
Commission recommending that the CFA petition be denied.\2\ The 
recommendation to deny was based primarily on four factors: the sales 
ban requested by the petitioners would primarily address how ATVs are 
sold, rather than how they would be used after they are purchased by 
consumers; the CPSC lacks the ability to regulate or enforce how 
consumers use products after purchase; while the Commission can affect 
to some degree how ATVs are sold, it cannot control the behavior of 
consumers or prevent adults from allowing children to ride adult-size 
ATVs; and no data are available to show that a ban of the sale of 
adult-size ATVs for use by children under the age of 16 years would be 
more effective in preventing such use than the age recommendations 
already in place under the LOUs. On October 6, 2005, the Commission 
voted unanimously to defer action on the petition.
---------------------------------------------------------------------------
    \2\ U.S. Consumer Product Safety Commission staff, ``Briefing 
Package: Petition No. CP-02-4/HP-02-1, Request to Ban All-Terrain 
Vehicles Sold for Use by Children under 16 Years Old,'' February 2005.
---------------------------------------------------------------------------
B. ATV-Related Injury and Death Data
    In September 2005, the CPSC Directorate for Epidemiology completed 
the 2004 Annual Report of ATV Deaths and Injuries. This report, showed 
that:

  <bullet> In 2003, there were an estimated 740 deaths associated with 
        ATVs.\3\ In 2001, the most recent year for which death data 
        collection is complete, 26 percent of the reported deaths were 
        of children under 16 years old.
---------------------------------------------------------------------------
    \3\ Death data collection for 2002 onward is incomplete.

  <bullet> The estimated risk of death was 1.1 deaths per 10,000 4-
        wheeled ATVs in use in 2003.\4\
---------------------------------------------------------------------------
    \4\ See footnote 3.

  <bullet> The estimated number of ATV-related emergency-room-treated 
        injuries for all ages in 2004 was 136,100, an increase of 
---------------------------------------------------------------------------
        10,600 from 2003. This increase was statistically significant.

  <bullet> Children under 16 years of age accounted for 44,700, or 33 
        percent, of the total estimated number of injuries in 2004.

  <bullet> There were about 188 emergency-room-treated injuries per 
        10,000 four-wheel ATVs in use in 2004.

C. Characteristics of the Current Market for ATVs
    A detailed description of the ATV market was provided in the 
staff's February 2005 briefing package.\5\ The characteristics of the 
current ATV market that are particularly relevant to the focus of this 
briefing package are:
---------------------------------------------------------------------------
    \5\ U.S. Consumer Product Safety Commission staff, op. cit., Tab C, 
p. 55.

  <bullet> ATV sales reached an estimated 921,000 units in 2005 and 
        preliminary data indicate that sales will continue to increase 
        in 2006. While the annual rates of increase have leveled off to 
        less than 5 percent since 2002 (after much larger rates of 
        increase in the late 1990s and early 2000s) annual sales 
---------------------------------------------------------------------------
        volumes remain at record levels by historical standards.

  <bullet> Imports, primarily from China and Taiwan, account for an 
        estimated 10 percent share of the U.S. market. It is 
        anticipated that the lower-cost imports from China and Taiwan 
        will continue to gain influence in the market.

  <bullet> The number of firms supplying ATVs to the U.S. market 
        continues to grow. In 2006, staff identified 80 importers of 
        ATVs sold in the U.S. Most of these importers also import and 
        sell scooters, motorcycles, and other wheeled recreational 
        products.

  <bullet> Imported ATVs can be purchased on the Internet and from mass 
        merchandisers such as Pep Boys, Wal-Mart, and others. This is a 
        change from the traditional method of selling ATVs through 
        established dealers and franchises.

3. Issues That Need To Be Addressed by a Mandatory Standard
    The October 2005 ANPR initiated a regulatory proceeding and was the 
first formal step in the review of regulatory and/or non-regulatory 
options to address the hazards associated with the use of ATVs. Based 
on the staff's evaluation of regulatory alternatives and the comments 
that were submitted in response to the ANPR, the CPSC staff believes 
that the following issues need to be addressed by a mandatory standard 
to ensure a minimum level of safety associated with the use of ATVs:

  <bullet> ATVs sold in the domestic market, including those sold over 
        the Internet and through importers, should conform to accepted 
        uniform mechanical requirements.

  <bullet> ATV users should have information sufficient to enable them 
        to use the vehicle safely. This information should be provided 
        in hang tags, owner's manuals, warning labels, and an ATV 
        safety video.

  <bullet> Potential ATV purchasers, as well as ATV users, should be 
        warned about the serious possible consequences of allowing 
        children to use adult ATVs.

  <bullet> Each ATV purchaser and members of their immediate family for 
        whom the ATV is appropriate should be given an opportunity to 
        participate in free hands-on ATV training.

  <bullet> The guidelines for youth ATVs should be redefined, so that 
        children under the age of 16 can ride and be trained on ATVs 
        which are more likely to fit them physically and which conform 
        to their developmental capabilities.

  <bullet> Three-wheeled ATVs should be formally banned.

4. Regulatory Activity: Notice of Proposed Rulemaking (NPR)
    To address the issues listed above, the CPSC staff asks that the 
Commission consider issuing a notice of proposed rulemaking (NPR) that 
would mandate safety requirements for ATVs. The staff's draft proposed 
rule would require that:

  <bullet> adult (single-person and tandem) ATVs meet specific 
        mechanical performance requirements;

  <bullet> youth ATVs meet specific mechanical performance and design 
        requirements and be categorized by speed limitation alone 
        rather than by speed limitation and engine size;

  <bullet> specific safety warnings be provided to the purchaser 
        through hang tags, labels, a safety video, and the owner's 
        manual;

  <bullet> a means for reporting safety-related complaints to the 
        manufacturer be provided to the purchaser;

  <bullet> a disclosure statement warning against the use of adult ATVs 
        by children and describing the possible consequences of 
        children riding adult ATVs be provided to and signed by 
        purchasers of all adult ATVs;

  <bullet> a statement of appropriate ages for youth ATVs be provided 
        to and signed by purchasers of children's ATVs;

  <bullet> a certificate offering free training be provided to all 
        purchasers of ATVs and each member of the purchaser's immediate 
        family for which the ATV is age-appropriate; and

  <bullet> three-wheeled ATVs be banned.

    These requirements are set forth in the staff's draft proposed 
rule. The rule consists of Requirements for Adult All-Terrain Vehicles 
(this includes requirements for both single-person and tandem ATVs); 
Requirements for Youth All-Terrain Vehicles; and Ban of Three-Wheeled 
All-Terrain Vehicles.

5. Requirements for Adult, Tandem, and Youth ATVs
    The staff's draft proposed rule incorporates many of the mechanical 
requirements from the current voluntary standard for single-person ATVs 
\6\ and draft provisions for two-person tandem ATVs.\7\ The specific 
requirements and rationales are described below and discussed further 
in a memorandum from the Directorate for Engineering Sciences.
---------------------------------------------------------------------------
    \6\ American National Standards Institute, Inc., American National 
Standard for Four Wheel All-Terrain Vehicles--Equipment, Configuration, 
and Performance Requirements, ANSI/SVIA-1-2001, c. 2001.
    \7\ The draft provisions of two-person tandem ATVs were provided to 
Chairman Stratton in a letter dated May 19, 2006, from Thomas S. Yager, 
Vice President, Safety Programs, Specialty Vehicle Institute of 
America.
---------------------------------------------------------------------------
A. Four-Wheeled Single-Person Adult ATVs
    The staff's draft proposed rule for four-wheeled adult single-
person ATVs includes performance requirements for service brakes, 
parking brake; mechanical suspension; engine stop switch; controls, 
indicators, and gearing; electric start interlock; means for 
conspicuity; handlebars; operator foot environment; lighting equipment; 
spark arrester; tire marking; security; vehicle identification number; 
and pitch stability. As shown in Table 1, each of these requirements is 
intended to reduce the risk of injury and death associated with the use 
of four-wheeled adult single-person ATVs.

  Table 1--Mechanical Requirements for Four-Wheeled Adult Single-Person
                                  ATVs
------------------------------------------------------------------------
          ATV Equipment                Safety Intent of Requirement
------------------------------------------------------------------------
Service Brake                     Ensure ability to stop vehicle
Parking Brake                     Prevent rolling of an unattended ATV
Mechanical Suspension             Improve pitch response and handling of
                                   vehicle
Engine Stop Switch                Ensure ability to shut off engine in
                                   emergency
Controls, Indicators, Gearing     Ensure ability to drive and control
                                   the vehicle
Electric Start Interlock          Prevent unintended movement when
                                   engine is started by electric
                                   cranking
Means for Conspicuity             Provide conspicuity during daylight
                                   hours
Handlebars                        Minimize risk of injury from contact
Operator Foot Environment         Reduce possibility of inadvertent
                                   contact between operator boot and
                                   ground in front of rear tire or
                                   between boot and tire itself
Lighting Equipment                Provide nighttime visibility and
                                   conspicuity
Spark Arrester                    Reduce fire potential
Tire Marking                      Ensure proper tire inflation for use
                                   on non-paved surfaces
Security                          Prevent unauthorized access and use
Vehicle Identification Number     Provide a means for identification and
                                   notification of the owner and
                                   manufacturer
Pitch Stability                   Reduce propensity to tip rearward or
                                   forward
------------------------------------------------------------------------

B. Four-Wheeled Two-Person Tandem ATVs
    Tandem ATVs are designed to carry one driver and one passenger; the 
driver and passenger are seated in tandem, i.e., one behind the other. 
Tandem ATV manufacturers recommend that the passenger be at least 12 
years old.
    Under the staff's draft proposed rule, tandem ATVs would be 
required to meet the mechanical performance requirements shown in Table 
1, with some additions and variations to account for the presence of a 
passenger. The additions and variations would include: pitch stability 
requirement test conditions, mechanical suspension requirements 
(minimum travel distance is greater), lighting equipment (depending on 
the width of the ATV, two headlamps and two tail lamps might be 
required), passenger environment (backrest, location of the seat, 
restraint, and handholds), and operator and passenger foot environment 
requirements.

C. Four-Wheeled Youth ATVs
    The staff's draft proposed rule for four-wheeled youth ATVs 
includes equipment and performance requirements for service brakes; 
parking brake; mechanical suspension; engine stop switch; controls and 
indicators; electric start interlock; handlebars; operator foot 
environment; lighting equipment; spark arrester; tire marking; 
security; vehicle identification number; and pitch stability. The 
intended safety effect of those requirements is the same as that for 
adult single-person ATVs, shown above in Table 1.
    In addition, the staff's draft proposed rule for youth ATVs 
includes design requirements for service brakes; engine stop switch; 
throttle control, and handlebars and special requirements for other 
equipment. These special requirements include: required automatic 
transmission (no manual transmission); no projecting headlamp; required 
stop lamp; required speed limiting device for pre-teen and teen models; 
and required flag pole bracket. These special requirements and their 
safety intent are displayed in Table 2.

         Table 2--Special Mechanical Requirements for Youth ATVs
------------------------------------------------------------------------
           ATV Equipment                 Safety Intent of Requirement
------------------------------------------------------------------------
Automatic Transmission               Reduce complexity of driving, match
                                      requirements with skills
Lighting:
    No projecting headlamp and no    Discourage nighttime driving
     forward-facing light
    Stop lamp required               Improve conspicuity during braking
                                      to help reduce rear-end collisions
Speed Limiting Device on teen and    Allow children to develop skills
 pre-teen models                      over time while limiting maximum
                                      speed to that which they are
                                      capable of handling
Flag Pole Bracket                    Provide means to have flag for
                                      conspicuity
Brakes, Engine Stop Switch,          Design requirements will
 Throttle Control                     standardize location and method of
                                      operation
------------------------------------------------------------------------

    The current voluntary standard allows youth ATVs with a manual 
transmission, while the staff's draft proposed rule would disallow 
this. Due to the many cognitive skills required for safe ATV driving, 
CPSC staff believes that it is best to allow children to master driving 
skills before learning to coordinate gear shifting with the many other 
skills involved when operating an ATV.
    As described in a memorandum from the Division of Human Factors, 
the staff believes that riding ATVs at night is a significant risk 
factor for children and should be discouraged. Because headlamps on 
youth ATVs may encourage nighttime and unsupervised riding in 
challenging conditions, the staff believes that the prohibition of 
headlamps in the voluntary standard should be carried over into the 
staff's draft proposed rule. In order to lessen the likelihood of rear-
end collisions, however, the draft proposed rule is requiring a stop 
lamp on youth ATVs.
    The staff's draft proposed rule includes a new categorization of 
the age guidelines for four-wheeled youth ATVs. Based on an analysis by 
CPSC's Division of Human Factors, speed, not engine size, is a more 
appropriate criterion for determining which ATVs should be recommended 
for children under the age of 16. Thus, the staff's draft proposed rule 
would base youth ATV age categories on speed limitation, rather than 
speed limitation and engine size. Under the staff's draft proposed 
rule, all references to engine size as a category marker would be 
eliminated. Provided a manufacturer commits to the speed limitations of 
the staff's draft proposed rule, the staff would not oppose and would 
recommend a modification of the LOUs to delete the engine size 
limitations.
    CPSC staff believes that limiting maximum speed is the most 
critical safety factor for youth ATV models. By eliminating the engine 
size restriction, manufacturers will be able to produce a variety of 
ATV models that meet speed restrictions but are more appropriately 
sized to account for the wide variation in physical dimensions of young 
people. By having the option of riding better-fitting ATVs that are not 
performance limited by undersized engines, staff believes that more 
youth will ride age-appropriate and speed restricted ATVs rather than 
gravitating toward adult ATV models. Staff also believes that having 
more engine power available to the youth rider could provide a safety 
cushion under certain circumstances such as climbing hills. Staff has 
no information to indicate that other performance characteristics 
associated with larger engine sizes, such as increased torque, 
acceleration, or weight, would have a potential negative safety effect 
on youth riders.
    The staff's draft proposed rule would limit the maximum speeds of 
ATVs intended for children under the age of 16 years. As shown in Table 
3 below, Teen ATVs, intended for children ages 12 and above, would have 
a maximum unrestricted speed of 30 miles per hour (mph) and a device 
that could limit the maximum speed to 15 mph. Pre-teen ATVs, intended 
for children ages 9 and above, would have a maximum unrestricted speed 
of 15 mph and a device that could limit the maximum speed to 10 mph. 
The Junior ATV, intended for children ages 6 and above, would have an 
unrestricted speed of 10 mph or less, with no required speed limiting 
device.

       Table 3--Age and Speed Categories: Four-Wheeled Youth ATVs
------------------------------------------------------------------------
                      Age                             Speed Limitation
     Category       (years)   Max Speed Capability  (with Speed Limiter)
------------------------------------------------------------------------
Junior                   6+  10 mph or less         None
Pre-teen                 9+  15 mph                 10 mph
Teen                    12+  30 mph                 15 mph
------------------------------------------------------------------------

D. Discussion: Mechanical Requirements
    As noted above and in a memorandum from the Directorate for 
Economic Analysis, ATVs imported by new entrants into the U.S. market 
have increased in recent years, and this trend is likely to continue. 
The ATVs sold by these companies are available to consumers through the 
Internet, mass marketers, and importers. They are being marketed by 
companies that have not been a part of the consent decrees or Voluntary 
Action Plan agreements with the Commission. As indicated in a 
memorandum from the Directorate for Engineering Sciences, available 
evidence suggests that ATVs made by these companies do not meet some of 
the mechanical requirements of the current ANSI/SVIA-1-2001 voluntary 
standard. Mandating the mechanical requirements of the staff's draft 
proposed rule would therefore help ensure that these ATVs meet basic 
safety standards.
    In addition, as noted in the preliminary regulatory analysis from 
the Directorate for Economic Analysis, the existence of a mandatory 
standard will enhance CPSC's ability to enforce mechanical safety 
requirements at a time when many new manufacturers are entering the 
market. At the present time, conformance to the mechanical safety 
requirements of ANSI/SVIA-1-2001 is voluntary. As new firms enter the 
market, the presence of a mandatory standard that can be more easily 
enforced will make it more likely that new entrants will comply with 
mechanical safety requirements.
    Since the ATV manufacturers that have negotiated LOUs with CPSC are 
believed to be substantially in conformance with the requirements of 
the voluntary mechanical standard, mandating these mechanical 
requirements will have, at most, a modest impact on injury and death 
risk. These firms account for about 90 percent of the ATVs now being 
sold in the U.S. market. However, because these manufacturers with the 
largest share of the market are in substantial compliance with the 
voluntary standard, the additional cost that would be incurred by 
manufacturers to meet the mechanical requirements of the proposed rule 
likely will be low. In fact, the costs for many manufacturers may be 
limited to the cost of adding stop lamps to youth ATVs. The cost of 
adding a stop lamp would amount to a few dollars or more, especially in 
the case of youth ATVs which are not currently equipped with any wiring 
for lighting. Most adult ATVs are thought to be already equipped with a 
stop lamp.
    With respect to youth ATVs, restricting ATV use by engine size 
likely discourages consumers from purchasing appropriate ATVs for some 
young riders. The frame size of youth ATVs as defined currently might 
not comfortably fit larger children. Some children of ages 12 through 
15 are larger than some adults; these adolescents and their parents may 
prefer that they ride a larger ATV that better fits them physically. 
Additionally, if the engine of the youth ATV lacks sufficient power for 
acceleration or hill climbing, some children may resist using the youth 
model and their parents may prefer that their children ride an adult 
ATV.
    Eliminating engine size as a criterion for categorizing youth ATVs 
may, for several reasons, enhance safety by providing children with an 
appropriate alternative to riding an adult ATV. It would allow ATV 
manufacturers to introduce a wider variety of youth models, including 
models with larger, more-physically-appropriate frames. Parents of 
young riders would have an easier time finding a suitably-sized ATV for 
their children and likely would be more willing to accept ATVs with the 
recommended speed restrictions; in addition, parents might be more 
willing to purchase youth models because they could be used for a 
longer period of time without the need for replacement because their 
children outgrew them. Moreover, acceptance and use of ATVs with the 
age-recommended speed restrictions could reduce the number of ATV-
related injuries and deaths.
    Increasing the availability of age-appropriate ATVs could also 
increase safety by increasing the proportion of child ATV drivers who 
receive formal ATV safety training. Currently, there are training 
programs that will not allow a child ATV driver to be trained unless he 
or she is on a youth ATV with a 90cc or less-sized engine. If modifying 
the age recommendations for ATVs leads manufacturers to introduce more 
ATVs with the recommended speed restrictions for young riders, and, as 
a result, more children begin riding youth AWs, it will be possible for 
more young riders to receive formal safety training.
    The speed limitations for ATVs intended for children should not 
impose substantial additional costs on manufacturers because they are 
similar to those already in the ANSI/SVIA voluntary standard. Moreover, 
the speed limitations in the staff's draft proposed rule are less 
restrictive than the requirements for youth ATVs specified in the LOUs, 
since they do not include the engine size limitations. Consequently, 
the staff believes that this provision of the staff's draft proposed 
rule increases the potential for safety in the form of reduced injuries 
and deaths, without imposing additional costs and burdens on 
manufacturers.

6. Information Requirements

A. Labels, Hang Tags, Owner's Manuals, and Safety Video
    The staff's draft proposed rule includes several requirements for 
safety warnings and safety information to be provided to consumers. 
These would be provided on warning labels and hang tags and in owner's 
manuals and safety videos. As discussed in the memorandum from the 
Division of Human Factors, hazard communications, such as warning 
labels, hang tags, safety videos, and owner's manuals, rely on 
persuading consumers to alter their behavior to actively avoid a hazard 
and, if understood and capable of being followed, can enable consumers 
to make better and more informed decisions about how to use the product 
safely.
    The warning information on hang tags and labels will advise 
consumers of the age recommendations for ATVs and warn that it is 
unsafe to allow children to operate ATVs intended for adults or older 
children and to carry passengers on a single-person ATV. Additional 
safety messages about ATV operation would be required in owners' 
manuals and in the safety video.
    As noted in the report from the Directorate for Economic Analysis, 
the ATV manufacturers with the greatest share of the market are thought 
to be already substantially conforming to this requirement through the 
LOUs. The warning requirements of the staff's draft proposed rule 
should not impose any new costs on these manufacturers. For the 
manufacturers that are not now in conformance, the cost of coming into 
conformance will be minimal on a per unit basis. Even for manufacturers 
with a very low sales volume, the cost of designing, printing, and 
attaching a label or a hang tag or adding pages in an owner's manual 
will be probably no more than a few dollars per vehicle.
    The major manufacturers already are providing the safety video, and 
the draft proposed standard will have no impact on their costs. For 
those manufacturers who currently are not providing a safety video to 
their consumers, the costs could be higher. The cost of duplicating a 
video or DVD is no more than a few dollars. However, the cost of 
producing a safety video could be several thousand dollars. For a 
manufacturer or distributor with a low sales volume, this could be a 
more significant cost. The cost or impact could be lower if a third 
party video could be licensed or shared by many small manufacturers or 
distributors.
    The benefit of this provision is that it will ensure that all 
consumers receive consistent basic safety and hazard information 
regarding ATV use and operation. Although the benefit cannot be 
quantified, it is possible, as discussed in the report from the 
Directorate for Economic Analysis, that even a small reduction in the 
number of ATV-related injuries to children as a result of fewer 
children riding adult ATVs would result in benefits being larger than 
costs.
    As noted above, the staff's draft proposed rule requires that each 
manufacturer provide consumers with a means of relaying safety-related 
complaints and concerns to the manufacturer or importer. Manufacturers 
must make available for this purpose a domestic telephone number and 
mailing address, website or e-mail address. This contact information 
must be contained in the owner's manual. Owner's manuals will also be 
required to provide consumers with the instructions for reporting 
safety-related information to CPSC.
    This requirement could provide manufacturers with an early alert if 
there is a potential hazard or defect with an ATV. This could allow 
manufacturers to take preemptive actions to minimize the risk of injury 
that might result. The cost of providing a means to report safety-
related problems would be small. Virtually all manufacturers or 
distributors that sell ATVs in the U.S. already have domestic telephone 
numbers, addresses and Internet sites. Moreover, many manufacturers and 
distributors already include this information in the owner's manual.

B. Risk Disclosure Form
    The staff's draft proposed rule would require that ATV dealers 
provide purchasers of adult ATVs with a written statement that: (1) 
clearly states that adult ATVs are not intended for the use of children 
under the age of 16; and (2) gives the consumer specific information 
about the possible injury consequences of allowing children to ride 
adult ATVs. A proposed disclosure statement was developed by the 
Division of Human Factors.
    This requirement is a direct response to the high risk of injury of 
children riding adult ATVs and to the comments of many parents, 
including some whose child died while driving an adult ATV, that they 
had never been warned about the risk.
    The disclosure statement would be provided to purchasers prior to 
completion of the sale. Consumers would be required to sign the 
statement to acknowledge that they had been warned about the risks of 
allowing children to drive adult ATVs. Dealers would be required to 
keep the signed disclosure statement on file for at least 5 years after 
the purchase so that compliance with the disclosure statement 
requirement could be monitored and demonstrated. Similar disclosure 
forms would be provided to purchasers of youth ATVs; these disclosure 
forms would indicate the age of the child for which the youth model was 
designed.
    According to the Directorate for Economic Analysis, the benefits of 
requiring a disclosure statement would be twofold: first, it would help 
consumers make a more informed choice when they purchase an ATV; and, 
second, as discussed in the memorandum from the Division of Human 
Factors, signing the adult ATV disclosure form may prevent some adult 
purchasers from allowing children to ride adult ATVs. Similar benefits 
may result from the disclosure forms for youth ATVs.
    Generally, when ATVs are sold, there is already some amount of 
paperwork generated, including purchase contracts and financing 
agreements. Therefore, the marginal costs of an additional form would 
be minimal. Moreover, under the LOUs, manufacturers already require 
that their dealers inform consumers about the age recommendations for 
ATVs and monitor dealer compliance with that requirement. It is 
possible, therefore, that the direct enforcement mechanism provided by 
this disclosure statement would be no more costly than the current 
methods of monitoring compliance with the LOUs. Consequently, if this 
requirement would lead to even a small reduction in the number of 
children who ride and are injured on adult ATVs, it is likely that the 
benefits of the provision would exceed its costs.

7. Offer-of-Training Requirement
    The staff's draft proposed rule would require manufacturers and 
distributors of ATVs to provide to every purchaser of an ATV a training 
certificate that would entitle the purchaser and members of the 
purchaser's immediate family for whom the ATV is age-appropriate to 
attend a free hands-on training course; the training course would have 
to be designed to satisfy the requirements of the staff's draft 
proposed rule. Manufacturers and distributors would be required to 
maintain a written record that the certificate was provided.
    The staff's draft proposed rule would require that certain topics 
be included in the course content. The course would teach the student 
how to handle a variety of circumstances encountered when driving and 
would familiarize the rider with safety behavior and messages. 
Classroom, field, and trail activities would be included.
    According to the Division of Human Factors, ATV training is 
important because operating an ATV seems deceptively easy; steering 
controls are similar to a bicycle, and the throttle is generally simply 
lever-operated with the thumb. ATVs, however, are high-speed motorized 
vehicles that require repeated practice to drive proficiently. 
Operating an ATV is somewhat comparable to operating other complex 
high-speed motorized vehicles and requires repeated practice to 
decrease the risk of injury. Formal training may act as a surrogate for 
experience because it exposes new ATV drivers to situations they will 
encounter while riding off-road and teaches them the proper driving 
behavior to navigate those situations.
    ATV manufacturers that account for about 90 percent of the U.S. 
market already offer free training to purchasers of their ATVs and 
members of their immediate families; purchasers of ATVs made by other 
manufacturers or importers can take the course, but are required to pay 
a fee.\8\ So, the primary impact of this requirement will be to extend 
the free training offer to people who purchase ATVs from manufacturers 
or importers that do not now offer free training. These manufacturers 
account for about 10 percent of total domestic ATV sales.
---------------------------------------------------------------------------
    \8\ As noted in the report from the Directorate for Economic 
Analysis, some manufacturers also offer additional incentives to 
encourage first-time buyers to take ATV safety training. Some 
manufacturers give first-time purchasers an additional $100 if they 
complete the training; while others offer free training to other 
members of the purchaser's family.
---------------------------------------------------------------------------
    As described in the report from the Directorate for Economic 
Analysis, the requirement that manufacturers offer free training is in 
effect a requirement that they subsidize ATV safety training. The 
purpose of a subsidy is to lower the cost of a product, e.g., ATV 
training, so that individuals will be encouraged to purchase the 
product or, in this case, to take training. A subsidy can be an 
appropriate policy when it is believed that consumers will not purchase 
the socially optimal quantity of a good without some intervention. A 
consumer might not purchase the optimum quantity of a good for a 
variety of reasons; for example, a consumer might underestimate the 
value of the good to herself or himself.
    In the case of ATV safety training, it is likely that many 
consumers underestimate the benefits of training. According to the 
Division of Human Factors, ATVs can appear ``deceptively easy'' to 
operate but in fact require ``repeated practice to drive safely.'' Even 
at low speeds, ATV drivers need to have ``situational awareness 
necessary to negotiate hazards on unpaved terrain'' and make ``quick 
judgments'' with regards to steering, speed, braking, weight shifting, 
and terrain suitability. Consumers who underestimate the difficulty of 
riding ATVs may conclude that the cost of the training, including the 
cost in terms of time and travel, will exceed the benefits.
    The cost to the manufacturer of offering free training depends upon 
a number of factors, such as the length of the course, the number of 
trainers, and the number of enrollees. If the training were similar to 
that provided currently by the ATV Safety Institute to children and 
adults, the value of a training certificate entitling the holder to a 
four-to-five hour training course might be $75 to $125. Thus, the value 
of the training subsidy might be $75 to $125 per trainee.
    The cost to the ATV purchaser who has a training certificate would 
be the time and cost involved in finding an available time and training 
site and then arranging for transportation to the training. In 
addition, there would be a cost associated with the possible 
transportation of an ATV to the training site, and, for parents, the 
transportation of a child to the site. In addition, for all who take 
the training, there is the cost involved in spending several hours in 
training rather than in an alternate activity.
    The benefits of training to new ATV drivers could be substantial. 
The Directorate for Epidemiology estimates, based on the results of the 
2001 ATV injury and exposure surveys, that formal training may reduce 
the risk of injury by about half. Based on this information, the 
Division of Human Factors' finding that formal training can act as a 
surrogate for experience, and the results of a recent ATV risk analysis 
that found a strong inverse relationship between driving experience and 
the risk of hospital emergency department-treated injury,\9\ the 
Directorate for Economic Analysis estimates that the benefits of 
training to new riders could be about $770 per rider. The estimated 
cost, in terms of time spent getting to and from and taking the course, 
would be about $295. Consequently, the net benefits of training per 
consumer could be about $475.
---------------------------------------------------------------------------
    \9\ Gregory B. Rodgers and Prowpit Adler, ``Risk Factors for All-
Terrain Vehicle Injuries: A National Case-Control Study,'' American 
Journal of Epidemiology, Vol. 153, No. 11 (2001).
---------------------------------------------------------------------------
    Based on a 2004 Rider Training Summary from SVIA, about 35 percent 
of first-time ATV purchasers who were offered this training by member 
firms actually took advantage of it. Only 7 percent of all purchasers 
took any type of organized formal training, including dealer, SVIA, 
local, and 4-H training courses. The Directorate for Economic Analysis 
estimates that this requirement would likely increase the number of 
riders trained annually by about 6,000 to 7,000; these riders would 
primarily be those who would purchase ATVs from companies who do not 
currently offer training. If the benefits of the training are $770 per 
trainee and the cost of the training is $295, this could result in a 
net benefit of about $3.3 million annually.

8. Ban: Three-Wheeled ATVs
    Under the consent decrees, the major ATV manufacturers agreed to 
stop the sale of new three-wheeled ATVs, which had been shown to be 
less stable and more risky than four-wheeled ATVs. Until recently, no 
new three-wheeled ATVs are known to have been marketed in the United 
States since the late 1980s. However, the CPSC Office of Compliance has 
found evidence that there are three-wheeled vehicles that meet the 
definition of an ATV and that are being advertised and marketed as all-
terrain vehicles for sale in the United States. The ban on the sale of 
three-wheeled ATVs contained in the staff's draft proposed rule would 
formalize the implicit ban that has been in place for almost 20 years. 
Formalizing the ban will likely not reduce ATV-related injuries from 
their present levels, but it will help ensure that three-wheeled ATVs 
will not be reintroduced into the U.S. market.
    As described in the regulatory analysis in the report, the 
justification for a ban on the sale of three-wheeled ATVs is based on 
the substantially higher expected injury costs associated with the use 
of three-wheeled ATVs, relative to four-wheeled ATVs, and the 
likelihood that these higher costs outweigh any additional utility 
three-wheeled ATVs would arguably provide to their owners.
    The real costs of ATVs include the expected injury costs associated 
with their use as well as their purchase price. According to a recent 
multivariate analysis of the risks associated with ATVs, the risk of 
injury on a three-wheeled ATV was about three times the risk on a 
similar four-wheeled model.\10\ Using this estimate of relative risk, 
the present value of the higher expected injury costs associated with 
the use of a three-wheeled ATV would (at a 3 percent discount rate) 
amount to about $23,700 over its expected useful life.
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    The injury cost differential between the three-wheeled ATV and the 
four-wheeled ATV would be offset somewhat by the lower estimated price 
of a three-wheeled ATV. Assuming that three-wheeled ATVs cost about 
$300 less than their four-wheeled counterparts, the total cost of a 
three-wheeled ATV (including both the injury cost and the costs of 
purchasing the ATV) might amount to about $23,400 more than the costs 
of a similar four-wheeled ATV (over its useful life.)
    A ban of three-wheeled ATVs would be beneficial (on average) if the 
average extra valuation (utility or use value) that individuals put on 
a three-wheeled ATV is less than about $23,400 over the useful life of 
the product. Consequently, if the utility from a four-wheeled ATV is 
not substantially different from the utility from a three-wheeled ATV, 
the ban would be justified. Although the utility that individuals 
receive from using ATVs cannot be quantified, available evidence 
described in the report suggests that for most individuals, the utility 
differential between three-wheeled and four-wheeled vehicles is 
minimal. Therefore, a ban of new three-wheeled ATVs appears to be 
justified.

9. Non-Regulatory Activities
    The CPSC staff believes that the staff should continue to work with 
industry to improve aspects of the voluntary standard for ATVs, provide 
data resources for state and local legislators, and conduct an ATV 
safety information and education effort.

A. Voluntary Standards Activities
    Many of the elements of the voluntary standard are incorporated 
into the staff's draft proposed rule. CPSC staff does not intend, by 
that action, to suggest that there is no need for voluntary standard 
activities to continue.
    CPSC staff believes that the voluntary standards process can play 
an important role in dealing with any unanticipated mechanical issues 
or new safety technology that may arise in the future. CPSC staff 
believes that there are some technical issues that would benefit from 
further testing and study. This work, however, will require time and 
the coordinated application of both CPSC and private-sector resources. 
CPSC staff believes that the most effective way to carry this out is 
through close, ongoing interaction with standards committees that are 
addressing ATVs in that regard.

B. Development of a Data Resource for Those Interested in State 
        Legislation
    CPSC staff believes that the states have a critical role to play in 
reducing ATV deaths and injuries. To be of assistance in efforts by the 
states or local government to pursue legislation or other safety 
actions, CPSC staff suggests that the Commission develop an online 
state data resource ``bank.'' This ``bank'' would include information 
on ATV-related activities in each of the states, death data by state, 
and other pertinent state-related information.

C. Safety Information and Education, Including the Launch of a 
        Dedicated Website
    CPSC staff believes that information and education are critical to 
any effort to reduce the deaths and injuries associated with the use of 
ATVs. With that in mind, the staff is recommending that the Commission 
consider a coordinated media and information effort. The proposed 
activities are described in a memorandum from the Office of Information 
and Public Affairs; part I would commence if the Commission votes to 
approve the NPR and would educate the public about recent developments 
in ATV safety. The following elements would be included in this plan:

  <bullet> a national press conference.

  <bullet> satellite media tows (a speaker at one location conducts 
        interviews nationwide via satellite).

  <bullet> partnership and outreach through the CPSC Neighborhood 
        Safety Network.

    Part II would consist of the establishment of an ATV Safety 
Information and Education Working Group, whose purpose would be to 
coordinate and enhance voluntary, ongoing safety education efforts for 
ATV riders and purchasers. The Working Group would include 
representatives from the public- and private-sectors, who would 
consider the most effective and up-to-date strategies to influence 
safety behavior regarding ATV use and, where appropriate, encourage a 
coordinated effort to promote those strategies. CPSC staff believes 
that a coordinated approach to ATV safety information and education is 
the most efficient way to use resources, eliminate duplicative efforts, 
and to help ensure that a consistent message is being presented to the 
ATV user.
    In addition, the staff has developed a proposed ATV safety website 
for the Commission's consideration. Information to access that 
(restricted access) website has been provided to the Commissioners so 
that they can review the format and content. The site includes the 
state data resource bank outlined above. The staff recommends that the 
Commission approve launch of the site as a public-access ATV safety 
resource.

10. Additional Staff Comments

A. Encouraging the Use of Protective Gear
    CPSC staff continues to strongly encourage the use of helmets and 
other protective gear by ATV riders. In addition, CPSC staff encourages 
ATV retailers to co-merchandise ATV safety gear, particularly helmets, 
alongside ATVs. Staff knows of one ATV manufacturer that offers 
vouchers to ATV purchasers toward the purchase of a helmet and another 
that displays protective gear nearby ATVs; CPSC staff applauds this 
type of action and encourages similar co-merchandising on the part of 
all manufacturers.

B. Insurance Discounts for Training
    In early 2006, CPSC Office of Compliance staff attempted to contact 
nine major insurance companies who reportedly provide insurance to ATV 
owners. Information provided by seven of the nine companies which 
responded to the staff's inquiry show that at least 345,000 ATV owners 
have some type of ATV insurance, including bodily injury, personal 
damage, collision, and coverage for a guest passenger (including a 
guest passenger on a single-person ATV). Premiums are about $200 
annually, and three of the responding insurance companies offer some 
type of premium discount, ranging from five to 10 percent, for 
participation in ATV training.

11. Summary
    The CPSC staff believes that a comprehensive effort by the 
Commission to address the deaths and injuries associated with ATV use 
is warranted. This effort needs to include regulatory and non-
regulatory activities. The CPSC staff is proposing that the Commission 
consider issuing a notice of proposed rulemaking (NPR) which would 
mandate mechanical, labeling, safety information, and training 
requirements for four-wheeled single-person adult ATVs, four-wheeled 
two-person tandem ATVs, and four-wheeled youth ATVs; the NPR also would 
mandate a ban on three-wheeled ATVs intended for adults and children. 
The CPSC staff is proposing that the Commission also consider 
implementing non-regulatory activities including continued voluntary 
standards activities, an ``ATV Safety'' website including ongoing 
development of a data resource for state legislators and local 
government officials, and a safety information and education effort.

12. Options Available to the Commission

A. Approve All of the Staff's Recommendations
    If the Commission determines that available information indicates 
that regulatory and nonregulatory approaches should be used to address 
the deaths and injuries associated with the use of ATVs, it could 
approve all of the staff's recommendations and approve the draft notice 
of proposed rulemaking (NPR) for publication in the Federal Register 
under authority of the Consumer Product Safety Act (CPSA) and the 
Federal Hazardous Substances Act (FHSA), approve launch of the website, 
and direct the staff to pursue the other activities mentioned in this 
briefing package.

B. Approve Some, But Not All, of the Staff's Recommendations
    If the Commission determines that available information does not 
warrant the use of all of the activities described in this briefing 
package, it could direct the staff to implement those activities which 
the Commission believes should be used to address the deaths and 
injuries associated with the use of ATVs.

C. Defer Making a Decision on the Staff's Recommendations
    If the Commission believes that there is insufficient information 
to make a decision about the staff recommendation, it could defer its 
decision and direct the staff to gather the additional information.

D. Do Not Implement Any of the Staff's Recommendations
    If the Commission concludes that the available information does not 
support proceeding with rulemaking or with implementing the non-
regulatory activities, it could direct the staff to terminate 
rulemaking and to not proceed with implementing any of the non-
regulatory activities.

13. Staff Recommendation
    The CPSC staff recommends that the Commission approve all of the 
staff's recommendations put forth in this briefing package.

    Ms. Leland. As early as 1985, the Commission stated its 
safety concerns regarding ATVs in an advance notice of proposed 
rulemaking, and in 1987, CPSC filed a lawsuit against the major 
ATV distributors. That lawsuit was settled by consent decrees 
in which the distributors agreed to take a number of actions to 
increase ATV safety. When those consent decrees expired, in 
1998, the Commission entered into Voluntary Action Plans with 
the companies.
    Since that time, much has changed with regard to ATVs. 
Sales have increased dramatically. U.S. retail sales of ATVs by 
major distributors have increased from an estimated 293,000 
sold in 1995 to an estimated 921,000 sold in 2005. We estimate 
that since 1997 the number of ATV drivers has increased by 36 
percent, from 12 million to over 16 million operators.
    Looking at this explosive growth, it is not surprising that 
we are also seeing increases in deaths and injuries reported 
from ATV use. Based on studies conducted in 1997 and 2001, the 
estimated number of ATV-related injuries treated in emergency 
rooms rose from 53,000 to 110,000. Additionally, the number of 
imports from new entrants to the ATV market has increased 
markedly in recent years. A recent trade report estimated that 
over 100 Chinese manufacturers export ATVs worldwide.
    These new imports are generally, and significantly, less 
expensive, and, unlike the major distributors that have 
traditionally marketed ATVs through established dealers, many 
of these new entrants market their products through U.S. 
importer wholesalers or offer ATVs for sale directly to 
consumers. Hundreds of websites offer these ATVs for sale.
    In 2003, the Commission and CPSC Chairman Hal Stratton held 
a series of regional field hearings that included: one in New 
Mexico covering six western states, one in West Virginia, with 
representation from seven states, and one in Alaska, to hear 
directly from those who have personal and professional 
knowledge of ATVs. Subsequently, Chairman Stratton directed the 
staff to initiate a comprehensive review of all ATV safety 
actions.
    Based on its evaluation of regulatory alternatives and 
public comments, the CPSC staff briefing paper presented to the 
Commissioners last week recommends issuing a notice of proposed 
rulemaking that would establish mandatory requirements 
including that adult, youth, and tandem ATVs meet specific 
mechanical performance requirements; that specific safety 
warnings be provided to the purchaser of any ATV; that a 
disclosure statement warning against the use of adult ATVs by 
children, and describing the possible consequences of children 
riding adult ATVs, be provided to, and signed by, purchasers of 
all adult ATVs at the time of purchase; that a certificate 
offering free training be provided to all purchasers; and that 
3-wheeled ATVs be banned.
    In 2003, there were an estimated 740 deaths associated with 
ATVs. CPSC staff is recommending to the Commission that they 
approve the staff's draft proposed mandatory standard as a 
significant step forward in improving the safety of ATVs for 
the children and adults who ride them.
    Thank you, again, for calling attention to this important 
safety issue. I look forward to answering your questions.
    [The prepared statement of Ms. Leland follows:]

Prepared Statement of Elizabeth W. Leland, Project Manager, ATV Safety 
          Review Team, U.S. Consumer Product Safety Commission

    Good morning, and thank you for this opportunity to speak to the 
Subcommittee today on the work of the U.S. Consumer Product Safety 
Commission in addressing safety issues related to all-terrain vehicles, 
or ATVs. My name is Elizabeth Leland, and I am the Project Manager for 
the ATV Safety Review Team.
    The Consumer Product Safety Commission, or CPSC, is a small, 
bipartisan and independent agency charged with protecting the public 
from unreasonable risks of serious injury or death from more than 
15,000 types of consumer products under the agency's jurisdiction. 
Since its inception, CPSC has delivered critical safety benefits to 
America's families and contributed significantly to the reduction in 
the national rate of deaths and injuries related to hazardous consumer 
products. At CPSC we are proud of our safety mission and we are proud 
of our record of achievement in reducing consumer product hazards to 
American families over the years.
    ATV safety is a subject of ongoing concern and activity at CPSC. 
Most recently, CPSC staff presented to the Commissioners a briefing 
paper outlining a number of recommendations including a recommendation 
to issue a formal notice of proposed rulemaking, or NPR, to address the 
risk of injury and death associated with this product. I will discuss 
these recommendations later in my statement, and I ask the Chairman's 
permission to submit the staff briefing paper and draft NPR to the 
Committee for the record.
    Since this product has been one of activity and concern to CPSC for 
over twenty years, I would like to start by giving the Senators a brief 
background of the agency's previous work on ATV safety. As early as 
1985, the Commission stated its safety concerns regarding ATVs in an 
advance notice of proposed rulemaking which outlined options that the 
Commission was considering to address ATV-related hazards. In 1987, 
CPSC filed a lawsuit against five companies that were the major ATV 
distributors at that time.
    In 1988 that lawsuit was settled with the companies by Consent 
Decrees that stayed in effect for 10 years. In those Consent Decrees, 
the distributors agreed to halt the distribution of three-wheel ATVs; 
to provide warning labels, point-of-purchase safety materials, and 
improved owners' manuals; to offer rider training; to conduct a 
nationwide public awareness campaign; and to attempt to devise a 
voluntary performance standard. When the Consent Decrees expired in 
1998, the Commission entered into voluntary ``Action Plans'', or 
Letters of Undertaking, with the five companies that had been parties 
to the Consent Decree and three others that had since entered the 
market. In those Letters of Undertaking, or LOUs, the companies agreed 
to continue many of the actions that the Consent Decrees had required.
    Since that time almost 10 years ago when those LOUs were signed 
with the companies, much has changed with regard to ATVs. Sales have 
increased dramatically. U.S. retail sales of ATVs by major distributors 
have increased from an estimated 293,000 ATVs sold in 1995 to an 
estimated 921,000 ATVs sold in 2005.
    CPSC staff estimates that since 1997, the number of ATV drivers has 
increased by 36 percent, from 12 million to over 16 million operators. 
During that same time period, the number of ATVs has increased by 40 
percent, from 4 million to 5.6 million, and the number of driving hours 
has risen by 50 percent.
    Looking at this extraordinary growth, it is not surprising that we 
are also seeing increases in deaths and injuries reported from ATV use. 
Based on injury and exposure studies conducted in 1997 and again in 
2001, the estimated number of ATV-related injuries treated in hospital 
emergency rooms rose during that 4 year period alone from 53,000 to 
110,000.
    Additionally, the number of ATV imports from new entrants to the 
market has increased markedly in recent years. CPSC staff has 
identified over 80 importers of ATVs. A recent trade report estimated 
that 100 to 150 Chinese manufacturers and an estimated 22 Taiwanese 
firms exported ATVs worldwide in 2005. We estimate that almost 100,000 
ATVs were imported to the U.S. in 2004.
    These new imports are generally less expensive. CPSC's 2004 market 
study noted that the median suggested retail price for ATVs sold by 
major distributors was $5,150. As a subgroup, the median price for 
their youth ATVs was about $2,300. In contrast, a recent staff Internet 
search of new ATVs with brand names other than those of traditional 
distributors found that the average retail price of their larger ATVs 
was only $1,340 while their youth ATVs had an average price of only 
about $630.
    The major distributors have traditionally marketed ATVs through 
established dealers and franchises, but many of these new entrants 
market their products through U.S. importer/wholesalers who in turn may 
market to retail stores. Others offer ATVs for sale directly to 
consumers through import brokers who transship imported units to 
retailers, often without ever taking physical control of the products. 
A recent CPSC surveillance effort reported that there were literally 
hundreds of websites offering these ATVs for sale.
    Clearly, the ATV market has grown significantly and changed 
substantially over the past 10 years. In 2003, the Commission and CPSC 
Chairman Hal Stratton held a series of regional field hearings that 
included one in New Mexico covering six western states, one in West 
Virginia with representation from seven states, and one in Alaska, to 
hear directly from distributors, law enforcement and medical personnel, 
consumers, state and local government officials and others who had 
personal and professional knowledge of ATVs and related safety issues.
    Subsequently, Chairman Stratton directed the staff to initiate a 
comprehensive review of all ATV safety actions and make recommendations 
to the Commission on a number of issues. The directive specifically 
requested a review of the adequacy or inadequacy of current voluntary 
standards and LOUs, and also an exhaustive study of other ATV safety-
related proposals including pre-sale training and certification 
requirements, enhanced warning labels, formal notification of safety 
rules by dealers to buyers, the addition of a youth ATV model, and 
written notification of child injury data at the point-of-sale.
    In October of 2005, the Commission issued an advance notice of 
proposed rulemaking, or ANPR, to initiate a regulatory proceeding under 
its authority granted by the Consumer Product Safety Act and the 
Federal Hazardous Substances Act. The ANPR was issued as part of 
staff's comprehensive review of regulatory and non-regulatory options 
for addressing the risks associated with ATVs.
    Based on its evaluation of regulatory alternatives and the public 
comments that were submitted in response to the ANPR, the CPSC staff 
briefing paper presented to the Commission last week recommends issuing 
a notice of proposed rulemaking that would establish the following 
mandatory requirements:

  <bullet> that adult, youth and tandem ATVs meet specific mechanical 
        performance requirements;

  <bullet> that specific safety warnings be provided to the purchaser 
        of any ATV through hang tags, labels, a safety video, and the 
        owner's instruction manual;

  <bullet> that a means for reporting safety-related complaints to the 
        manufacturer be provided to the purchaser;

  <bullet> that a disclosure statement warning against the use of adult 
        ATVs by children and describing the possible consequences of 
        children riding adult ATVs be provided to and signed by 
        purchasers of all adult ATVs at the time of purchase;

  <bullet> that an acknowledgement-of-age statement be provided to and 
        signed by purchasers of children's ATVs;

  <bullet> that a certificate offering free training to each member of 
        a purchaser's immediate family for which the ATV is age-
        appropriate be provided to all purchasers; and

  <bullet> that three-wheeled ATVs be banned.

    In addition to these mandatory requirements, the staff also 
recommends that the Commission implement a series of non-regulatory 
activities to enhance ATV safety including an ATV data bank with 
information on legislative and regulatory activity by the states and a 
two-phase information and education drive that would also launch a 
website dedicated solely to ATV safety.
    In 2003 there were an estimated 740 deaths associated with ATVs. In 
2001, the most recent year for which death data collection is complete, 
26 percent of reported deaths were of children under 16 years old. 
Based on these numbers, the non-fatal injury numbers I mentioned 
earlier, and an evaluation of regulatory alternatives, CPSC staff is 
recommending to the Commission that they approve the staff's draft 
proposed mandatory standards as a significant step forward in improving 
the safety of ATVs for the children and adults who ride them.
    Thank you again for calling attention to this important safety 
issue. I look forward to answering your questions.

    Senator Allen. Ms. Leland, thank you for your testimony and 
the work that you have done.
    I understand that this is a proposed draft rule. You cannot 
issue a final rule until you determine--the CPSC determines 
that the existing voluntary standard will not adequately reduce 
the risk of injury from ATVs, or that there will probably not 
be substantial compliance with a voluntary standard. Are the 
established ATV manufacturers that are members of what is 
called the Specialty Vehicle Institute of America, the SVIA--
are they complying with the current voluntary standard?
    Ms. Leland. Yes. Our information is that they are complying 
with the voluntary standard.
    Senator Allen. Now, that's for the SVIA members.
    Ms. Leland. Yes, that's correct.
    Senator Allen. Right. Now, are there any ATV manufacturers 
that are not complying with this voluntary standard?
    Ms. Leland. Evidence available to us indicates that there 
are new entrants coming into the United States from overseas, 
primarily China and Taiwan. And our evidence shows that many of 
those are not meeting the requirements of the voluntary 
standard.
    Senator Allen. How do you see getting them--or getting 
all--regardless of whether they're manufactured in the U.S., 
Canada, Japan, Taiwan, China, wherever they may be 
manufactured--how do you see getting them into compliance?
    Ms. Leland. The staff believes that it is necessary to have 
a mandatory standard that would have requirements for those 
companies to meet, not only mechanical requirements, but also 
other issues, such as labeling and training, and items and 
specific information at the point-of-purchase.
    Senator Allen. Have--these ATVs coming in from China that 
are not in compliance, have they provided any action plans on 
safety, training, or other mechanical safety design standard 
compliance? In other words, are they doing anything? Are they 
offering, in any way, to come into compliance with what all the 
rest--the SVIA manufacturers are complying with?
    Ms. Leland. I am not aware that that is happening on a 
large scale. Our Compliance Office does try to keep track of 
what is coming into the country through Internet surveillance, 
through any means that we have, and we have tried to contact 
some of those. Currently, there are upwards of 80 foreign 
importers and distributors of ATVs in the United States, plus 
additional companies offering to sell ATVs via the Internet and 
other retail outlets. These companies have not provided and 
have not offered to provide to the Commission any action plans 
on safety, training, or compliance with mechanical 
requirements. Compliance staff approaches firms on a case-by-
case basis requesting corrective actions, if appropriate, even 
where the firm does not have an agreement with the Commission. 
CPSC staff has encountered firms that would not change their 
actions because they had not agreed to any provisions with the 
Commission.
    Senator Allen. Right. But you have tried to----
    Ms. Leland. My understanding is that we do contact 
companies that are bringing these ATVs into the country.
    Senator Allen. Well, then what can you do, as a practical 
matter? Even if you contact them, let's say they do not comply, 
for whatever reason--what can anybody actually do to have them 
comply with the standards that the rest of the industry agrees 
to--and complies with?
    Ms. Leland. That's precisely why staff is recommending that 
the mandatory standard, the notice of proposed rulemaking, be 
issued by the Commission, because staff feels that is the way 
that we will be able to enforce having uniform mechanical 
requirements for the vehicles, having uniform labeling 
practices, safety practices, training practices.
    Senator Allen. So, in other words, if--the way things stand 
right now, if a company refuses, neglects, in any way doesn't--
simply does not comply, you have no enforcement--there's no 
enforcement mechanism, whether it's through your agency or 
otherwise, for those companies to actually comply with our 
standards.
    Ms. Leland. Our Office of Compliance would be better 
prepared to address that. My understanding is that it is 
difficult, with a voluntary standard, to really go after a 
company----
    Senator Allen. Enforce it.
    Ms. Leland.--and so with the mandatory standard, it would 
strengthen our enforcement mechanisms.
    Senator Allen. And let me ask you one final question. Since 
most motor vehicle laws are primarily determined by the states, 
on everything from speed limits to helmet laws, seatbelt laws, 
and the like, as well as age, how does the CPSC work with the 
states in promoting and enforcing ATV safety? Does state 
enforcement of ATV safety traditionally differ from Federal 
enforcement?
    Ms. Leland. We believe the states have a critical role to 
play, and one of the recommendations staff is making is to 
develop--to launch a dedicated Website devoted to ATV safety, 
and that website will have resources--a resource bank, if you 
will--for state legislators to use in developing and enacting 
legislation.
    Senator Allen. Do various states have different laws on ATV 
use?
    Ms. Leland. Yes. There is a wide variety across the 
country. Some states do not have laws. Some do. Some address 
helmets, some address age issues, some have different ages. So, 
there is not a great deal of uniformity----
    Senator Allen. Well----
    Ms. Leland.--among the states.
    Senator Allen.--we do have 50 different States and they all 
have legislatures, and they all can act.
    Ms. Leland. That's right.
    Senator Allen. Thank you.
    What has happened to Senator Pryor? He went to vote? OK. 
Well, I don't have any further questions. Senator Pryor has 
gone to vote. He may have some questions for you, Ms. Leland.
    What we might do is go to the second panel of witnesses. 
Ms. Leland, if--just to keep things somehow moving here, in the 
way that the Senate operates, if you could stand by, and then 
we can--I can introduce the witnesses, and maybe that by the 
time I'm finished introducing the witnesses, Senator Pryor will 
be back, but if you just could stand in the batter's box----
    Ms. Leland. Sure.
    Senator Allen.--and be ready for some further questions 
from Senator Pryor--thank you, Ms. Leland.
    Senator Allen. Can we have the men and women of the second 
panel please come forward, I'd like to introduce you all. If 
you want to sit in the order in which you'll be presented, 
it'll first be Mr. Buche, then Ms. Weintraub, Mr. Williams, Dr. 
Aitken, and then Ms. Halbert.
    We'll now hear from our second panel.
    First, Mr. Tim Buche is the President of the Specialty 
Vehicle Institute of America. Mr. Buche has flown in from 
California--so, it's still early for you--to testify in regard 
to the ATV industry's compliance with recognized standards, as 
well as to provide an overview of the current market for ATVs 
in the United States. We're pleased you've agreed to discuss 
safety matters directly affecting your industry, and we thank 
you for testifying.
    Next, we'll hear from Ms. Rachel Weintraub, who is the 
Director of Product Safety and Senior Counsel at the Consumer 
Federation of America. Ms. Weintraub has testified on this 
issue previously and has devoted a great deal of time toward 
examining the ATV safety issue. I know that you've become an 
outspoken, well-recognized advocate for children's safety, 
particularly concerning the operation of ATVs. We appreciate 
your insight into this issue--that all parents can benefit, 
really, from your education, but, more importantly, further 
education, and we thank you for your commitment and for 
testifying this morning.
    Following Ms. Weintraub, we'll hear from Brett Williams, 
the General Manager for Coleman PowerSports. That's the largest 
ATV dealer in the Commonwealth of Virginia. Mr. Williams will 
be able to discuss what's really important here, and that is 
the point-of-purchase requirements for dealers, and 
precautionary steps taken by dealerships and industry, toward 
educating and protecting consumers who purchase ATVs. And we 
thank you for agreeing to testify this morning, Mr. Williams.
    Next will be Dr. Mary Aitken, Associate Professor in the 
Department of Pediatrics of the University of Arkansas for 
Medical Sciences. Dr. Aitken is representing the views of the 
American Academy of Pediatrics this morning. We hope to make 
use of your expertise and real-life experiences in caring for 
children to understand whether prudent steps exist toward 
improving ATV safety. And we appreciate your time. And I know 
Senator Pryor is the one, in particular, who asked you to be 
here, and we look forward to your desires and ideas on how we 
can better inform the people of this country on this issue. And 
finally, we will hear from Susan Halbert, Senior Vice President 
of the National 4-H Council. Ms. Halbert has worked on the 
issue of ATV safety for many years, and therefore, is a great 
source of institutional experience and knowledge regarding the 
progression of ATV safety initiatives. The 4-H has developed a 
strong ATV safety program, and Ms. Halbert will be able to 
speak on the success of similar programs in helping to educate 
children on proper riding habits. Thank you for coming today, 
Ms. Halbert, and offering your perspective on this important--
very important issue.
    So, we're going to start with you, Mr. Buche. You can 
begin, and we thank you.

              STATEMENT OF TIM BUCHE, PRESIDENT, 
         SPECIALTY VEHICLE INSTITUTE OF AMERICA (SVIA)

    Mr. Buche. Good morning, Mr. Chairman, Senator Pryor, and 
honorable members of the Subcommittee. I am Tim Buche, 
President of the Specialty Vehicle Institute of America, or 
SVIA.
    The SVIA is a not-for-profit trade association formed in 
1983, sponsored by Arctic Cat, BRP, Bush Hog, Honda, John 
Deere, Kawasaki, Patriot, Polaris, Suzuki, Tomberlin, and 
Yamaha. SVIA promotes the safe and responsible use of all-
terrain vehicles and serves as a resource for ATV research, 
statistics, and vehicle standards. I welcome the opportunity to 
speak before the Subcommittee on behalf of SVIA.
    We are very concerned about the influx of these new 
entrants to the ATV market whose products do not meet industry 
safety standards. In 1985, the SVIA was accredited by the 
American National Standards Institute, or ANSI, to develop a 
voluntary standard for the equipment, configuration, and 
performance requirements of 4-wheel ATVs. The ANSI 
administrative processes and procedures for standards 
development are rigorous, extensive, transparent, and subject 
to audit. This year, SVIA, on another matter, engaged Marchica 
& Deppa, an engineering consulting company specializing in 
consumer product safety, to conduct testing on four 
representative new entrant ATVs for compliance with the ANSI 
standard, and delivery of safety information, the offer of 
training, and product support programs to consumers. The two 
principals of the company, Nick Marchica and Roy Deppa, have 
more than 55 years combined experience at CPSC. A copy of the 
report is offered, and I ask that it be accepted to the record 
for the hearing.
    Senator Allen. Any of your testimony or--if you did want to 
summarize, your full testimony will be put in part of the 
record. And, yes, of course, that document will be included as 
part of the record of this hearing.
    Mr. Buche. Very good, thank you.
    The four ATVs tested were manufactured in China and are 
being marketed and sold in the U.S. for use by children under 
16. Among the report findings, all four new entrant ATVs failed 
to comply with critical provisions of the ANSI standard. All 
four failed to offer safety program elements that are part of 
the action plans that the sponsoring SVIA member companies have 
long agreed to with the CPSC. Three of the four new entrant 
ATVs had flaws that may constitute substantial product hazards 
requiring immediate recalls under the Consumer Product Safety 
Act. The two smallest ATVs, which are being marketed and sold 
for use by young children, were deemed too potentially 
dangerous for a youth test-rider to operate. Marchica & Deppa 
found numerous new entrant ATVs being marketed over the 
Internet, all to children. Three of the four new entrant ATVs 
tested were found on websites, purchased over the phone, and 
delivered directly to the home of the one of the experts. These 
vehicles were delivered with potentially dangerous errors in 
set-up and adjustment. In addition, during testing, nuts and 
bolts fell off one of the ATVs. The one ATV that was purchased 
from a major auto retailer--auto parts retailer--was delivered 
with no safety information at all. These safety problems are 
serious and representative of the hazards created by 
noncompliant new entrant ATV products. We estimate that the new 
entrant ATVs accounted for about 20 percent of the unit sales 
in the U.S., or around 165,000 units, in 2004, and that number 
is growing, and growing dramatically. The problem of 
noncompliant ATVs needs to be addressed immediately for the 
safety of the American consumer.
    The recently released CPSC draft proposal would address 
this problem through a rulemaking to establish safety rules 
based on the ANSI standard, but this could take years to 
finalize. I urge the Subcommittee to consider taking immediate 
legislative action to require all companies selling ATVs in the 
United States to comply with these important standards and 
safety practices.
    Trade research indicates that there may be 200 or more 
companies distributing ATVs in the U.S. market. SVIA has been 
able to contact 62 known new entrants and invite them to 
participate in its safety programs. We've provided copies of 
the ANSI standard and a welcome to participate in our programs. 
Five have accepted. Others have not.
    ATV rider safety is a top priority of SVIA. In addition to 
producing safety standards, we promote enforceable state 
legislation, rider training and education, and of course, 
parental supervision and responsibility. SVIA supports state 
legislation that prohibits the use of adult-sized ATVs by 
children under 16 and other key warned-against behaviors. CPSC 
data show that 92 percent of ATV-related fatalities involve at 
least one of these warned-against behaviors, and many involve 
two or more. To provide rider training and education, SVIA 
currently has over 900 active training sites in the United 
States.
    Finally, parents literally hold the key to a child's 
safety. Adult supervision is essential for all riders under age 
16. If you control the key, you control the use. We urge the 
Committee to give top priority to fixing the new entrant ATV 
problem through Federal legislation. The SVIA will continue to 
do its part by promoting rider training and education, and 
advocating state legislation regulating use and active parental 
supervision. These steps are keys to improving ATV safety for 
children and adults.
    Thank you for the opportunity to appear today, and I 
welcome your questions.
    [The prepared statement of Mr. Buche follows:]

              Prepared Statement of Tim Buche, President, 
             Specialty Vehicle Institute of America (SVIA)

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Tim Buche, President of the Specialty Vehicle Institute of America, or 
SVIA.
    The SVIA is a not-for-profit trade association formed in 1983 and 
sponsored by Arctic Cat, Bombardier, Bush Hog, Honda, Deere, Kawasaki, 
Patriot, Polaris, Suzuki, Tomberlin and Yamaha. SVIA promotes the safe 
and responsible use of all-terrain vehicles and serves as a resource 
for ATV research, statistics, and vehicle standards.
    I welcome the opportunity to speak before the Subcommittee on 
behalf of the SVIA companies. A major concern of the SVIA is the influx 
of new entrants to the U.S. ATV market whose products do not meet 
industry standards and are sold to customers who receive no offer of 
formal safety training.
    I will address this topic in detail in a moment, but first I would 
like to provide some background.
    In 1985 SVIA was accredited by the American National Standards 
Institute, or ANSI, to proceed with the development of a voluntary 
standard for the equipment, configuration and performance requirements 
of 4-wheel ATVs.
    The ANSI administrative procedures for standards development are 
rigorous, extensive, transparent, and subject to audit.
    The SVIA, as an accredited standards developer using the ANSI 
canvass method, assumed responsibility on behalf of the ATV industry 
for managing the standards development process to assure that the final 
product was acceptable to a consensus of interested parties and in full 
compliance with ANSI guidelines.
    As I mentioned previously, for some time there have been a number 
of new entrants to the U.S. whose products do not meet the industry 
standard and are sold to customers who receive no offer of formal 
safety training. The SVIA considers these irresponsible sales 
practices.
    This year SVIA engaged Marchica & Deppa, LLC, an engineering 
consulting company specializing in consumer product safety, to conduct 
testing on four representative new entrant ATVs for compliance with the 
ANSI standard and delivery of safety information, training and product 
support programs to consumers. The two principals of the company have 
more than 55 years' combined experience at CPSC. Roy Deppa was 
previously Director of the Division of Mechanical Engineering and 
Associate Director for the Office of Compliance. He also worked as 
Chief Engineer of the original CPSC ATV Task Force in 1986. Nick 
Marchica was Chairman of the original ATV Task Force and subsequently 
served as Associate Executive Director for Engineering Sciences, 
Assistant Executive Director of the Office of Compliance, and most 
recently as Special Assistant to Commissioner Nancy Nord.
    The four ATVs they tested were manufactured in China and are all 
youth-size or small-size ATVs that are being marketed and sold for use 
by children under 16. Marchica & Deppa reported their test results and 
conclusions for each of the four new entrant ATVs. A copy of the report 
is being submitted for the hearing record. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    The report found that all four new entrant ATVs failed to comply 
with the ANSI standard and that none met the safety program 
requirements that the sponsoring SVIA member companies have agreed to 
for many years under their Action Plans with CPSC. These failures were 
significant, and include violations of critical ANSI standard 
provisions such as maximum speed limitations for youth models, brake 
and parking brake performance, and mechanical suspension. Marchica and 
Deppa found that three of the four new entrant ATVs contained features, 
such as lack of front brakes, no or inadequate suspension systems, and 
starting in gear, that, in their expert opinion, may constitute 
substantial product hazards, requiring immediate recalls under Section 
15 of the Consumer Product Safety Act. And the two smallest-size ATVs, 
which are being marketed and sold for use by young children, were 
deemed ``too potentially dangerous'' for a youth test-rider to operate 
because of poor brakes and excessive high speed.
    In addition, Marchica & Deppa found numerous new entrant ATVs being 
marketed to children over the Internet. Three of the four new entrant 
ATVs tested were found on websites, purchased over the telephone, and 
delivered directly to the home of one of the experts. These vehicles 
were delivered without having been properly set up and adjusted, and 
had major problems such as tires that were flat or severely overly 
inflated, broken switches, and parts that were loose or dismantled. 
During the testing, nuts, bolts, and grommets fell off one of the ATVs 
while it was being operated.
    The one ATV that was purchased from a store was delivered with no 
safety information. In fact, the store salesperson only instructed that 
if a passenger rode on the child-size ATV--which is designed for a 
single operator--the passenger should loop a shutoff lanyard (which is 
supposed to be used by parents for training purposes) around the wrist 
of the passenger so that if he or she falls off, the engine will stop 
and the vehicle will not run over the passenger. In addition, the 
website for this ATV's distributor directs purchasers to another 
website on safety; but, the ``safety'' website does not exist on the 
Internet.
    The safety problems found by Marchica & Deppa are serious and 
representative of the hazards created by these new entrant ATV 
products. Recent industry estimates indicate that new entrant ATVs now 
account for approximately 20 percent of new sales in the U.S.--that's 
20 percent of the new product market and growing. Action needs to be 
taken now to address the rapidly escalating number of new entrant ATVs 
that do not comply with the ANSI standards or provide U.S. consumers 
with adequate safety instruction, warnings, and training.
    The recently released CPSC Staff Briefing Package contains an 
initial draft proposal to address this problem by proceeding with 
rulemaking to establish a mandatory ATV safety standard, based on the 
ANSI standard. But this draft proposal could take years to finalize. 
This is a situation that needs to be addressed immediately, both for 
the safety of American consumers and the good of the ATV industry 
generally. I urge the Subcommittee to consider taking immediate 
legislative action to elevate all companies selling ATVs in the United 
States to these standards and practices demonstrated by SVIA member 
companies.
    The SVIA continues to extend a welcome to all new entrants into the 
ATV market in the United States to participate in its programs--key 
elements of which are aimed at deterring the use of adult-sized ATVs by 
children under age 16--generally by marketing ANSI-compliant products 
and providing appropriate safety information and training opportunities 
to consumers, comparable to those provided under the Action Plans.
    Although certain new entrants have accepted the invitation, most 
have not.
    ATV rider safety is the top priority of the SVIA companies and 
their dealers. In addition to the new entrant issue I addressed 
previously, the SVIA believes the most effective way to reduce ATV-
related injuries is through a three-pronged approach that includes: 
enforceable state legislation, rider training and education, and 
parental supervision and responsibility.
    State legislatures have an important role to play. Because the 
states have the authority to regulate--directly--the use of ATVs, SVIA 
supports state legislation that prohibits the use of adult-sized ATVs 
by children under 16, carrying passengers on ATVs designed for one 
rider, operating without an approved helmet and eye protection, and 
operation on public roads.
    The second part of this approach is rider training and education, 
which I briefly described previously.
    The third component of our approach is parental or adult 
supervision--and I'll add responsibility--for all riders under the age 
of 16. Parents literally hold the key to a child's safety. Every ATV 
has an ignition key, and the person who controls the key, controls the 
use.
    Parental supervision is not only a key element for a child's 
safety, it is imperative. Children under the age of 16 must be 
supervised at all times when riding a youth-sized ATV.
    SVIA formed the ATV Safety Institute (ASI) division in 1988 to 
implement an expanded national program of ATV safety and awareness that 
SVIA initiated in 1983.
    ASI's primary goal is to foster and promote the safe and 
responsible use of all-terrain vehicles in the United States, thereby 
reducing crashes and injuries that may result from improper use. ASI's 
programs are designed to inspire rider awareness that promotes a 
commitment to safety and respect for the environment.
    ASI is the recognized leader in ATV safety. We improve the safety 
of riders through the delivery of hands-on training and the publication 
of educational materials for the ATV community.
    More and more Americans are choosing to operate ATVs. Besides 
recreational use, ATVs are also used in agriculture, a wide variety of 
industries, and the Armed Forces and municipalities.
    Along with increased use there has been an increase in ATV related 
injuries and fatalities. Sadly, most of these incidents could have been 
prevented. Consumer Product Safety Commission (CPSC) data show that 92 
percent of ATV-related fatalities involved at least one or more warned-
against behavior on the part of the rider.
    To improve rider safety and communicate responsible use messages, 
ASI offers the ATV RiderCourse<SUP>SM</SUP> nationwide.
    The ASI RiderCourse is free for purchasers of new ATVs and it is 
available to others for a reasonable fee. This includes purchasers of 
used ATVs, purchasers of non-member products, and prospective riders. 
The enrollment and training process is the same except that the ATV 
rider initiates contact with ASI. This is easily accomplished through 
the ASI Website, or toll-free telephone number. The cost for training 
is $125 for adults and $75 for riders under age 16. Approximately 25 
percent the annual training is completed by paying students.
    Once training is completed, purchasers of new SVIA member company 
ATVs are eligible for an incentive, typically $100 cash or equivalent 
merchandise certificate. And through the ``Try Before You Buy'' 
program, paid students get all their training fees plus offered 
incentives if they take paid training and then buy a new ATV from an 
SVIA member company.
    A major component of the ATV RiderCourse is what we call The Golden 
Rules. These rules are reinforced beginning at the dealer, throughout 
the training experience, and extended through educational materials. In 
summary The Golden Rules are:

  <bullet> Take an approved training course.
  <bullet> Ride an ATV that's right for your age.
  <bullet> Supervise kids under 16.
  <bullet> Wear the right safety gear, especially a helmet.
  <bullet> Rider only, no passengers on single rider ATVs.
  <bullet> Ride only on designated trails and always ride responsibly.

    The class is conducted completely outdoors and has a maximum size 
of eight students for one instructor. The main themes in the ATV 
RiderCourse are safety and responsible use.
    Students practice basic safety techniques with hands-on exercises 
covering starting and stopping, turning--both gradual and quick--
negotiating hills, emergency stopping and swerving, and riding over 
obstacles. Particular emphasis is placed on the safety implications 
relating to each lesson.
    The course also covers protective gear, environmental 
responsibility and state and local laws. Participants receive an ATV 
RiderCourse Handbook, which reinforces the safety information and 
riding techniques covered during the ATV RiderCourse. Students keep the 
handbook as a reference as they continue to practice the skills taught 
in the ATV RiderCourse.
    Individuals 6 years of age and older may take the class once a 
parent or guardian has determined that the youngster is appropriate to 
ride youth-sized ATVs. We help parents make the decision as to whether 
ATVing is appropriate for their child through the use of a publication 
called ``Parents, Youngsters and All-Terrain Vehicles.''
    This booklet includes a readiness checklist that covers visual 
perception/motor skills development, physical development, social/
emotional development, and reasoning and decision-making ability. Only 
after the parent has determined that ATV riding is the right activity 
for their child, we will train the child with participation from the 
parent.
    In youth classes instruction is targeted as much at the parent as 
it is to the child. Riders younger than 16 are restricted to ATVs of 
the appropriate size recommended for the rider's age. There are special 
teaching provisions for students younger than 16, and parents are 
encouraged to attend as well. Students younger than 12 participate in 
separate classes, and a parent must be present during the entire 
course.
    The ATV RiderCourse is only conducted by licensed ATV Safety 
Institute Instructors. Each licensed Instructor completes a four-day 
Instructor preparation program and must successfully complete a skills 
assessment, knowledge test and student teaching experience. SVIA offers 
its licensed Instructors ongoing professional development as a means to 
continually enhance the delivery of instruction.
    As delivery of the ATV RiderCourse has been enhanced, so too has 
the administration of the program. As computer and telephony technology 
improved, ASI began development of a centralized enrollment system in 
an effort to provide more timely enrollment and training to purchasers. 
The latest innovation to improve access to training is online 
enrollment through the ASI website. This system allows students to 
enroll 24 hours per day, 7 days a week. We are experiencing increased 
use of this process and expect that its use will continue to grow.
    Today, ATV Training is accomplished through a national network of:

  <bullet> Over 900 Active Training Sites.

  <bullet> Over 2,500 Active ASI licensed Instructors.

  <bullet> And 53 Active ASI licensed Chief Instructors.

    Over 45,000 ATV RiderCourse students have been trained each year 
since 2002. Total students trained since 1989 in the ATV RiderCourse is 
661,729.
    CPSC data show that first-time purchasers without prior riding 
experience benefit most from ATV training.
    Whether a new rider or an experienced one, the feedback ASI 
receives from ATV RiderCourse participants is overwhelmingly positive. 
Our goal is to encourage all riders, especially inexperienced riders, 
to complete training. We accomplish this through continual program 
improvement and expanded access.
    ASI is committed to increasing public awareness of ATV safety 
programs. ASI has developed a nationwide public awareness campaign to 
promote the safe and responsible use of ATVs. Activities include a 
collection of 21 public service announcements for print and web 
applications addressing the ``Golden Rules.''
    In addition to PSAs, SVIA makes available publications and videos 
that communicate key safety messages and are useful tools for riders 
and parents. These include the Tips and Practice Guide for All-Terrain 
Vehicle Riders, the Parents, Youngsters and All-Terrain Vehicles 
Booklet, and the Ride Safe, Ride Smart video. Through Video Placement 
Worldwide, an international service company specializing in placing 
sponsored educational materials in our Nation's classrooms; we have 
distributed 3,500 copies of this video, which has been viewed by over 
2.8 million people.
    In addition to printed material, SVIA uses electronic media as 
well, including a toll-free ATV Hotline, an ``ATV Rally'' interactive 
CD-ROM that was distributed to 1.7 million children, and a School ATV 
Safety and Awareness Campaign. In this campaign an e-mail to principals 
across the country asking them to impress upon their students and their 
parents the importance of all-terrain vehicle safety. A letter 
accompanied the e-mail to parents and guardians, as well as a flyer 
``What is an ATV?''. We received numerous positive responses, and 
facilitated requests to translate the letter to parents and guardians 
into Spanish, and to provide a complete supply of the letter and the 
flyer for all of their students to take home. The e-mail was sent to 
over 40,000 principals across the country and has a potential outreach 
to 5.8 million teachers, parents and students.
    The www.ATVSafety.org website provides visitors with information 
about the ATV RiderCourse, Enrollment Express, safety tips, and 
publications for parents.
    Another opportunity for improved safety that SVIA supports is 
managed recreation opportunities. An example is the Hatfield-McCoy 
Trail system in West Virginia. This system is managed for family 
recreation utilizing a well designed and maintained trail system with 
enforced rules for riding. This area provides an excellent experience 
for users, keeps riders out of inappropriate areas and has an excellent 
safety record.
    And finally, ASI participates in both enthusiast and non-enthusiast 
events to promote the safe and responsible use of ATVs. In 2005, we 
participated in over 60 events in 26 states.
    No other industry has undertaken an initiative as comprehensive and 
far-reaching as the members of the SVIA. SVIA believes it is crucial 
that all new entrants to the U.S. ATV market, including non-SVIA 
members, offer appropriate safety information and programs.
    Safety messages are also prominently displayed via on-product 
labels, hangtags, safety videos and in ATV safety alerts provided to 
prospective purchasers. In addition, ATV dealers are prohibited from 
selling adult-sized ATVs for use by children under 16.
    The SVIA companies share the Subcommittee's strong interest in 
compliance with ATV safety standards. We urge this Committee to give 
top priority to fixing the new ATV entrant problem through Federal 
legislation. The SVIA and its member companies will continue to do 
their part by promoting rider training and education, state legislation 
regulating ATV use, and active parental supervision. These steps are 
the keys to improving ATV safety for children and adults.
    Thank you. 

    Senator Allen. Thank you, Mr. Buche.
    What we're going to do is now interrupt the second panel. 
If Ms. Leland can come forward--what we did is----
    Senator Allen.--and Mr. Buche--I've introduced all the 
members on the second panel, and Mr. Buche is the first----
    Senator Pryor. Right.
    Senator Allen.--witness, and Ms. Leland stayed here ready 
to answer----
    Senator Pryor. Thank you.
    Senator Allen.--your questions. Well, then I'm going to 
turn the gavel over to Senator Pryor----
    Senator Pryor. Thank you.
    Senator Allen.--and I'm going to go vote. And then, once 
you're through with Ms. Leland, then Ms. Weintraub----
    Senator Pryor. Thank you.
    Senator Allen.--we'll pick up.
    Senator Pryor. [presiding] Thank you. Thank you, Mr. 
Chairman.
    I'm sorry for the interruption there. I had to race over 
and vote. I know the Chairman will be back in just a few 
moments.
    Ms. Leland, I know that you are in the process of a 
rulemaking, right? Do you see the old compliance agreement and 
some of these Voluntary Action Letters as adequate? In other 
words, do you see the rule just following that track pretty 
well or do you think that there will be some differences?
    Ms. Leland. There are some differences in the staff's draft 
proposed rule that we have presented to the Commissioners. 
Staff proposes to revise the age guidelines so that youth will 
have more models available to them which will physically fit 
them, which will make them lean toward buying and using youth 
models. It will also open up accessibility to training for 
youths. So, that is a difference.
    There are some mechanical requirements that are different 
than in the current voluntary standard, including requiring 
automatic transmission on youth models, prohibiting headlamps, 
but requiring stoplamps. Staff is also recommending, as part of 
the rule, that dealers offer certificates of training to each 
purchaser's immediate family for whom the ATV is age 
appropriate. And also, staff recommends that the dealers be 
required to inform--with a piece of paper--inform the 
purchasers of adult ATVs about the risks of children riding 
adult ATVs. And the purchasers would be required to sign those, 
and the dealers would need to keep those on record for at least 
5 years.
    Senator Pryor. OK. Let me back up there just for a second. 
You mentioned headlamps. You're going to prohibit headlamps?
    Ms. Leland. Yes.
    Senator Pryor. Why is that?
    Ms. Leland. Our Human Factors staff has done some research, 
and we feel that youth should not be encouraged to ride at 
night. And so, we feel it is necessary to prohibit those.
    Senator Pryor. Do you have statistics that a 
disproportionate percentage of accidents happen at night?
    Ms. Leland. Our Human Factors staff has looked at research, 
in terms of lighting and conspicuity. In an analysis of 184 
deaths of children that occurred in 1999-2000, CPSC staff found 
that nine involved children on youth ATVs; one of those 
occurred after dark. Other than that analysis, CPSC staff has 
not conducted a formal additional search of the data to 
determine whether a disproportionate percentage of incidents 
happen at night.
    Ms. Leland. I don't think many children have been riding at 
night, because there have not been the headlamps.
    Senator Pryor. OK. And I assume, from what you're saying, 
that you believe that youth-sized ATVs can be safe. I know that 
no vehicle is completely 100 percent safe, but they can be safe 
for children. In other words, I guess I can see an argument 
that there shouldn't be any youth-size at all, because it's not 
so much a matter of the size of the vehicle, it's the operator 
of the vehicle. Do you have a comment on that?
    Ms. Leland. We have data to show that the risk of injury 
for youth on a youth-appropriate ATV is half that of a youth on 
an adult ATV. We feel that with proper supervision, with all of 
the warnings, with the training, that youth can ride youth 
ATVs.
    Senator Pryor. OK. Now, as I understand it, the numbers of 
accidents and injuries on ATVs have increased. And to some 
extent, this is probably because the number of sales have 
increased. But, as I understand it, the CPSC is saying that 
it's not just about the number of ATVs that are out there. 
There's also something else going on. Is it a fact that ATVs 
are getting bigger and more powerful? Is it a fact that you 
have some of these imports that are coming in to this country 
that don't meet safety standards? What's going on in this 
industry?
    Ms. Leland. We did studies in 1997 and 2001, and those 
studies did show that there is something more than sales--the 
increase in sales--to account for the increase in injuries. And 
I think what you say, in terms of models coming in that don't 
meet the standard, in terms of youth riding adult ATVs, that 
all of that plays a part.
    Senator Pryor. And as I understand it, some would like to 
see a ban on ATV usage below a certain age--say, age 16--they 
would just like to see an absolute ban on that. The CPSC 
apparently does not agree with that suggestion. And could you 
tell us why?
    Ms. Leland. The staff is recommending that certain parts of 
our proposed rule will address the issue of alerting the 
parents to the risks of children riding ATVs. Staff feels that 
our change in age guidelines would allow children to have 
accessibility to training. They would be riding age-appropriate 
and fit-appropriate ATVs. And, with the disclosure statement, 
parents would have all of that information. Staff feels that we 
have enforceable solutions to the problems of children riding 
adult ATVs.
    Senator Pryor. OK. It also seems to me that when I look at 
these two models here on the floor in the Committee room today, 
clearly one has a number of safety features that the other 
doesn't. It's intuitive to me that the one without the safety 
features would be more prone to accidents and injuries. But my 
question for you is, do the statistics bear that out?
    Ms. Leland. The new entrants are new on the market, and so 
there is not a track record for those. We do have incidents on 
the new foreign-entrants ATVs. We do not know at this time if 
the number of incidents occurring on ATVs made by the new 
foreign-entrants are disproportionate to the share of the 
market held by these companies. These new entrants introduced 
their models into the U.S. market in 2000, and by 2005, 
approximately 10 percent of ATV sales in the United States were 
ATVs that were produced by these new entrants. Because of the 
large number of ATVs already in use, the proportion of all ATVs 
currently in use that were produced by these new entrants is 
probably substantially less than 10 percent. These new-entrant 
products have been primarily youth ATVs; the majority of our 
youth incidents occur with youth driving and riding on adult 
ATVs.
    Senator Pryor. My understanding is that some of these new 
imports vary in terms of the number of safety features they 
have or don't have. It just depends on the manufacturer, and 
that changes a lot from model to model. But, as I understand 
it, some have said that some of these new imports, a few models 
of them, at least, are--the safety issues are so severe that 
maybe they should be recalled. Does the CPSC have the power to 
recall those right now?
    Ms. Leland. I believe that we do.
    Senator Pryor. And are you in the process of doing that, or 
is that underway, or----
    Ms. Leland. Our Office of Compliance keeps track of what is 
coming into the market through various methods. And to the 
extent that we can contact those companies and be in touch with 
them and develop a recall plan, we can do that. One of the 
reasons the CPSC staff would recommend mandating the standard 
is that we would have more enforceability. We would be able to 
work with Customs officials when these products are coming into 
the market.
    Senator Pryor. OK. Do the statistics show that there was a 
fairly pronounced increase in ATV-related deaths right after 
the consent decree expired. Is that true?
    Ms. Leland. Yes.
    Senator Pryor. And even though the manufacturers still 
continue to, on a voluntary basis, more or less meet all the 
terms of the consent decree--do you have an explanation of why 
you saw an increase in deaths after that consent decree 
expired?
    Ms. Leland. There are a lot of factors that go into riding 
ATVs. Many of the incidents involve the use--the way people use 
them, not following safety recommendations. That could play a 
part of it. As the sales were going up, people were coming into 
the market, buying the ATVs. I had mentioned that many of the 
youth cannot get training, because they're buying the adult 
ATVs. So, there are a lot of factors involved----
    Senator Pryor. Right.
    Ms. Leland.--in that.
    Senator Pryor. OK. And as part of your rulemaking, are you 
looking at helmets as a possible requirement?
    Ms. Leland. The staff proposed rule does not include 
requirements for helmets. We continue to encourage users to 
wear protective gear, including helmets, and helmets that meet 
the DOT or the Snell standard. Traditionally, CPSC has not--as 
in the case of bicycles, CPSC has not required that helmets be 
available at purchase. So, at this point, the staff is 
recommending that people continue to wear them. We do mention 
them in the labels and in the warnings that are mandated. There 
is information there, telling consumers about the necessity of 
wearing a helmet. We do encourage companies to co-merchandise 
helmets with the ATV. We have heard of some companies that do 
that. We have heard of companies that offer vouchers so that 
people can use that toward the purchase of a helmet. So, we----
    Senator Pryor. OK.
    Ms. Leland.--recommend those types of activities.
    Senator Pryor. And the last question I have is--I see these 
two models here on the floor today, and you have one that's 
from a traditional manufacturer, and the other one is one of 
these newer imports. One thing I've noticed in Arkansas is that 
a lot of these imports are sold at nontraditional outlets. I 
think you talked about direct marketing through the Internet, 
et cetera. But I see them--some of them, at least--being sold 
in tire stores and auto-parts places--places that are not truly 
dealers. And I do have a concern that when people are 
purchasing these vehicles at these dealers, they're going for 
the cheapest model. People are getting what they pay for. 
They're getting a model that really doesn't meet the standards 
that we've customarily had in our marketplace. So, do you have 
any comment on that?
    Ms. Leland. That is our concern. In fact, we have seen ATVs 
for sale directly on the website that can be shipped directly 
to your home. We do not believe that those come with any type 
of safety information, no offers of training. So, that is our 
concern, as well. And our concern is that the numbers of these 
vehicles being sold through these nontraditional means may 
increase. That is why, actually, as part of our proposed rule, 
we would require that there be a domestic contact, an address, 
telephone number, some way that the American consumer would be 
able to contact the company.
    Senator Pryor. And you mention dealer requirements, as 
well, which would cover just any retailer; it doesn't have to 
be truly an auto dealer--I mean, a motorcycle or ATV dealer, 
per se, correct?
    Ms. Leland. That's correct. And that would also affect 
website sales.
    Senator Pryor. Mr. Chairman, that's all I have, and I think 
we're ready for Ms. Weintraub.
    Thank you.
    Senator Allen [presiding]. Great, thank you. That actually 
folded in well.
    Ms. Leland, thank you so much for coming and testifying and 
holding over a little bit. Thank you.
    Ms. Weintraub, I'd now like to hear from you.

                 STATEMENT OF RACHEL WEINTRAUB,

           DIRECTOR OF PRODUCT SAFETY/SENIOR COUNSEL,

              CONSUMER FEDERATION OF AMERICA (CFA)

    Ms. Weintraub. Thank you, Chairman Allen and Ranking Member 
Pryor. Thank you for the opportunity to speak today and for 
holding this very important hearing.
    My name is Rachel Weintraub. I am the Director of Product 
Safety and Senior Counsel at Consumer Federation of America.
    CFA is a nonprofit association of 300 consumer groups, with 
a combined membership of more than 50 million people. CFA was 
founded in 1968 to advance the consumers' interests through 
advocacy and education.
    CFA has been deeply concerned about the safety of ATVs for 
many years. CFA believes that the current ATV safety standards 
are failing to protect consumers. We respectfully disagree with 
CPSC staff's recommendations, and believe that CPSC, Congress, 
and states should play a much more active role in preventing 
ATV deaths and injuries.
    According to the latest data from CPSC, ATV deaths and 
injuries affected at least 136,100 people, in terms of having 
injuries serious enough to require them to go to emergency 
rooms. The estimated number of ATV-related fatalities increased 
from 621 in 2002 to 740 in 2003. Children under 16 suffered 31 
percent of all injuries in 2004 and 28 percent of all 
fatalities.
    Numbers alone, though, can be cold and sterile. ATVs affect 
real people, our neighbors, our children, our friends. This 
past weekend alone, there were reports of 18 deaths across the 
country. I just want to give you one real-life example. And, 
unfortunately, there are many, many to choose from.
    On May 6, 2002, 10-year-old Kyle Rabe went ATV-riding with 
his friend Zach in a grassy field in rural Oregon. Kyle was a 
cautious rider, and he took the time to put on all the 
appropriate safety gear. On his way home, Kyle hit a rut in his 
path, lost control of the ATV, it rolled on its side, pinning 
Kyle to the ground by the small of his back. He was unable to 
breathe. CPR was administered 15 minutes after the crash, but 
it was too late. His father remembers tasting the cookies and 
milk on his breath that he had just had for a snack. Kyle had 
been riding for over a year and a half without an incident. 
Despite Kyle's experience, when the 500-pound ATV landed on top 
of him, he was too small to escape.
    The current approach to ATV safety, the industry's self-
regulating approach, is truly not working. Not only has self-
regulation by the ATV industry led to larger and faster ATVs 
and more children being killed and injured, these increases 
have frequently been by statistically significant margins, and 
the Commission has routinely noted this in annual reports of 
ATV deaths and injuries. Importantly, they've also noted that 
they are not explained solely by rising ATV sales or usage.
    The failure of the current approach compels the enforcement 
of a mandatory standard focused, in part, on banning the sale 
of adult-sized ATVs for use by children. Important evidence 
that the current voluntary system is failing is based, in part, 
on CFA's analysis of CPSC data, which found less than 4 percent 
of injured ATV drivers receive formal safety training; more 
than 40 percent of injured drivers in 2001 stated that their 
ATV did not have warning labels, or they didn't know if they 
did at the time of the incident, while, across the board, the 
vast majority did, at that time, and still do; and nearly 90 
percent of children under 16 years of age were injured while 
riding adult-sized ATVs.
    Our society suffers not only because ATVs cost the lives of 
almost 750 people each year in the United States. These deaths, 
and the over 135,000 ATV injuries incurred each year, also cost 
society considerable amounts of money. An analysis of ATV 
deaths in West Virginia alone from 1999 to 2003 found that ATVs 
have cost $3.4 million in the state. And this takes into 
account medical costs, the costs of work lost, and the costs of 
quality-of-life. Taking into account the same factors for the 
entire country, it cost the United States $8.9 billion between 
1999 and 2003.
    CFA analyzed all ATV recalls conducted by CPSC, those that 
were indicated on CPSC's website. We found some disturbing 
trends that CPSC staff, in their briefing package, failed to 
address. For example, we found that 77 percent of all recalls 
were due to a mechanical failure--36 percent of all ATV recalls 
involved a suspension failure, while 18 percent of all recalls 
were due to drive-train failures. Together these two system 
failures make up 52 percent, over half, of ATV recalls. We also 
found that 62 percent of all ATVs were recalled due to the 
potential for the operator to lose control of the ATV. CFA is 
unaware of any other category of recalled products which could, 
in such large percentages, lead to such life-threatening 
hazards.
    CFA is profoundly disappointed with the recommendations 
contained in the CPSC staff's briefing package. Significantly, 
the staff fails to recommend that the Commission take strong 
actions to truly protect children from ATV deaths and injuries. 
To name just a few of our concerns, CPSC staff's recommendation 
to weaken the definition of youth-sized ATVs by removing the 
engine-size component is incredibly problematic. There has been 
no evidence presented that such a change will save lives, nor 
any indication from the injury data. Further, we have no 
confidence that the speed governors will not be easily removed 
or modified to decrease or eliminate their utility. The 
training portion of the staff's recommendation does not appear 
to be substantially different from the status quo, fails to 
ensure the substantive quality of the training, and doesn't do 
enough to ensure that training will be made geographically 
available to everyone who needs it. The ban on 3-wheel ATVs 
should be accompanied by a recall of all 3-wheel ATVs currently 
on the market.
    And, finally, the briefing package, as well as this 
hearing, contains numerous references to the problem of 
imported ATVs. While it is clear that large ATV manufacturers 
fear the rising percentage of less expensive ATVs as an 
economic threat, there has been no evidence that we've seen put 
forth other than the recent study disclosed just a few days 
ago, certainly not in the briefing package, that indicates that 
these ATVs pose an added threat to health and safety. In 
contrast, CFA found that in 2005 alone, 94 percent of all of 
the ATVs that were recalled, were recalled by major ATV 
manufacturers. We're concerned that this import issue is 
shifting the focus from other very, very serious concerns with 
ATVs. We will look at the data as it emerges, but there are 
problems with the rest of the 80 or 90 percent of the market 
involving the major ATV manufacturers and the ATVs they 
produce.
    While CPSC can, and, in our opinion, should, ban the sale 
of adult-sized ATVs for use by children under 16, we urge CPSC 
and industry to join us as we work on State efforts to set 
licensing and rider training requirements, prohibit riders from 
carrying passengers, and require ATV riders to wear helmets and 
other protective equipment. Since CPSC staff has failed to 
recommend that the Commission issue a regulation banning the 
sale of adult-sized ATVs for use by children, we urge the 
introduction of legislation that would make the knowing sale of 
an adult-sized ATV for use by children a violation of the 
Consumer Product Safety Act. We also suggest that the Committee 
request GAO studies analyzing CPSC compliance efforts on the 
ATV voluntary action plans, actual costs to society of ATV 
deaths and injuries, and analysis of enforcement mechanisms to 
ensure compliance with existing state laws and the potential 
for enforcement of a Federal law.
    Each and every year, more and more people, especially 
children, get killed or injured as they ride ATVs. The current 
approach, the voluntary approach, has allowed these deaths and 
injuries to not only continue, but also to increase. These 
deaths and injuries cost society billions of dollars and 
devastate families forever. CFA urges this Committee to 
introduce legislation that would actually protect children from 
the well-documented hazards of riding adult-sized ATVs.
    Thank you.
    [The prepared statement of Ms. Weintraub follows:]

  Prepared Statement of Rachel Weintraub, Director of Product Safety/
          Senior Counsel, Consumer Federation of America (CFA)

I. Introduction
    Chairman Allen, Ranking Member Pryor, and members of the 
Subcommittee, thank you for the opportunity to speak today and for 
holding this meeting. My name is Rachel Weintraub; I am Director of 
Product Safety and Senior Counsel at Consumer Federation of America 
(CFA). CFA is a nonprofit organization association of 300 consumer 
groups, with a combined membership of more than 50 million people. CFA 
was founded in 1968 to advance the consumers' interest through advocacy 
and education.
    Consumer Federation of America has been deeply concerned about the 
safety of ATVs for many years. In fact, we have been involved in ATV 
safety issues since the 1980s when three-wheel ATVs dominated the 
market. We opposed the consent decree between CPSC and ATV 
manufacturers in 1988 because we felt that it did not adequately 
protect consumers. We petitioned CPSC in the 1990s and again in 2002, 
and legally challenged CPSC's abandonment of their ATV rulemaking in 
the 1990s. The Commission deferred action on our most recent petition, 
CP-02-4/HP-02-1,\1\ which requests that the U.S. Consumer Product 
Safety Commission ban the sale of adult-size four-wheel all-terrain 
vehicles ``ATVs'' sold for use by children under sixteen years of age. 
We have testified before the Commission on two occasions in support of 
our petition.\2\ The CPSC briefing package that has just been released 
makes recommendations to the CPSC Chairman and Commissioners about how 
they should proceed on this issue. While CFA has enormous respect for 
CPSC staff, we respectfully disagree with their recommendations and 
believe that CPSC should play a much more active role in preventing ATV 
deaths and injuries.
---------------------------------------------------------------------------
    \1\ Consumer Federation of America filed the petition on August 20, 
2002, along with the American Academy of Pediatrics, American College 
of Emergency Physicians, Bluewater Network, Danny Foundation for Crib & 
Child Product Safety; Kids in Danger, National Association of 
Orthopaedic Nurses and the U.S. Public Interest Research Group.
    \2\ CFA testified in the June 5, 2003 field hearing in West 
Virginia and in the March 2005 hearing on CPSC staff's briefing 
package.
---------------------------------------------------------------------------
II. ATV Death and Injury Data
    According to the latest data from CPSC on ATV deaths and injuries, 
released in October 2005,\3\ at least 136,100 people have suffered ATV 
injuries that were serious enough to require emergency room treatment 
in 2004. This is an increase of almost 8 percent, from 125,500 in 2003. 
Children under 16 suffered 31 percent of all injuries in 2004, or 
44,700 injuries, up from 38,600 injuries in 2003, 37,100 injuries in 
2002 and 34,300 in 2001. This age group received more serious injuries 
than any other. The estimated number of ATV-related fatalities 
increased from 621 in 2002 to 740 in 2003, according to the latest data 
from CPSC. In 2004, ATVs killed at least 130 children younger than 16, 
accounting for 28 percent of all fatalities. Between 1985 and 2004, 
children under 16 accounted for 31 percent of all injuries and 31 
percent of all deaths.
---------------------------------------------------------------------------
    \3\ U.S. Consumer Product Safety Commission, 2004 Annual Report on 
All-Terrain Vehicle (ATV)-Related Deaths and Injuries, October 2005, 
available on the web at http://www.cpsc.gov/library/foia/foia05/brief/
atv2004.pdf.
---------------------------------------------------------------------------
    Numbers alone can be cold and sterile. I want to talk about some of 
the children who make up these statistics.
    On May 6, 2002, 10-year-old Kyle Rabe went riding with his friend 
Zach in a grassy field in rural Oregon. Kyle was a cautious rider and 
he took the time to put on riding boots, gloves, layered clothing, and 
a full-face, approved helmet. On his way home, Kyle took a shortcut 
down a gentle slope, hit a rut in his path, and lost control of the 
ATV, sending it careening to the left and throwing Kyle down the hill. 
The ATV rolled on its side, pinning Kyle to the ground by the small of 
his back. Kyle was unable to breathe despite being uninjured. CPR was 
administered 15 minutes after the crash but it was too late. Kyle had 
been riding for over a year and a half without an accident. Despite 
Kyle's experience, when the 500-pound ATV landed on top of him, he was 
too small to escape.
    James Anderson was just 14 years old when he died on August 8, 
2004. On a vacation in New Hampshire with a group of friends, a 
supervising parent allowed James to ride a 700-pound 500cc ATV that 
could travel highway speeds. James crashed that ATV into a tree on a 
backwoods trail, killing him instantly. Before that weekend, James had 
never ridden anything but a bicycle.
    Bryan ``B.J.'' Smith was a confident young man who dreamed of being 
a football star. One Monday, he and his cousin decided to show off for 
a few neighborhood friends on a newly purchased ATV. B.J. was driving 
the ATV at a very high speed when a dog ran out and clipped one of the 
front wheels, spinning the ATV and throwing B.J. 25 feet. B.J. remained 
in a coma for 3 weeks at the hospital, enduring multiple brain 
surgeries, infections, and seizures. It took four and a half months in 
the hospital and two stints in rehab facilities for B.J. to return 
home. B.J. was lucky to survive his accident but will never be able to 
play football again.

III. Failure of the Current Voluntary Approach
    CFA's recommended policy solution is premised on the fact that the 
current approach to ATV safety--the industry's self-regulating 
approach--is not working. Not only has self-regulation by the ATV 
industry led to larger and faster ATVs and more children being killed 
and injured, but each year the number of deaths and injuries climb. 
These increases have frequently been by statistically significant 
margins and the Commission has routinely noted in annual reports of ATV 
deaths and injuries that these increases cannot be explained solely by 
rising ATV sales or usage. We believe that the failure of the current 
approach compels CPSC, Congress and state governments to be involved, 
in part, through the enforcement of a mandatory standard.
    A court-approved consent decree between ATV manufacturers and the 
U.S. Consumer Product Safety Commission, which forced the industry to 
end production of highly dangerous three-wheel ATVs, expired in 1998. 
Since that time, some manufacturers have been operating under 
voluntary, unenforceable ``action plans.'' These action plans rely on 
fine print in ads, warning labels, and recommendations enforced at the 
discretion of manufacturers. This voluntary approach is failing to curb 
the rising tide of ATV death and injuries and CPSC staff's 
recommendations do nothing more than continue this failed approach.
    In 2003, CPSC issued the latest in a long line of studies 
documenting the dramatic increase in ATV injuries and deaths.\4\ In 
assessing trends between 1997 and 2001, the Commission provides 
compelling evidence that the industry is failing to protect consumers. 
CPSC concludes that:
---------------------------------------------------------------------------
    \4\ Levenson, Mark S., U.S. Consumer Product Safety Commission, 
``All Terrain Vehicle 2001 Injury and Exposure Studies,'' January 2003.

  <bullet> ATV-related injuries requiring emergency room treatment more 
        than doubled, rising by 108 percent from 52,800 to 110,100, 
        while the number of ATVs in use increased by less than 40 
---------------------------------------------------------------------------
        percent;

  <bullet> Injuries suffered by children under 16 increased 66 percent 
        to more than 34,000 in 2001. The proportion of these children 
        among the driving population grew by 13 percent;

  <bullet> Injuries caused by bigger and more powerful ATVs, defined by 
        the Commission as machines with engines bigger than 400cc, shot 
        up 567 percent, from 3,662 to 24,437, while the number of these 
        machines grew by less than half as much;

  <bullet> Less than 4 percent of injured ATV drivers received formal 
        safety training from a dealer, salesperson or organized 
        training program. This proportion is unchanged since 1997;

  <bullet> More than 40 percent of drivers injured in 2001 stated that 
        their ATV did not have warning labels or they did not know if 
        it did at the time of their accident; and

  <bullet> Nearly 90 percent of children under 16 years-of-age were 
        injured while riding adult-size ATVs, in spite of the 
        industry's voluntary policy not to sell these machines for use 
        by children. This proportion is also unchanged since 1997.

IV. Cost to Society
    Our society suffers not only because ATVs cost the lives of almost 
750 people each year in the United States. These deaths and the over 
135,000 ATV injuries incurred each year also cost society considerable 
amounts of money. An analysis of ATV deaths in West Virginia alone from 
1999 to 2003 found that ATVs have cost $3.4 million, taking into 
account medical costs, the costs of workloss and cost of quality-of-
life.\5\ Taking into account the same cost factors, estimated ATV 
deaths in the United States from 1999 to 2003 have cost $8.9 billion. 
These figures do not consider the cost of ATV injuries and do not take 
into account the costs of medivac transport, for example, that many 
jurisdictions have to pay for when an ATV crash in a rural area occurs 
far from a hospital trauma center. Tragically, these vast costs compel 
government action. With appropriate Federal and state regulations, 
lives as well as billions of dollars could be saved.
---------------------------------------------------------------------------
    \5\ Helmkamp, Jim, Ph.D., MS, FACE Director, West Virginia 
University Injury Control Research Center, Research Professor, 
Department of Community Medicine West Virginia University conducted a 
Human Capital approach study incorporating medical, work loss and 
quality of life components to estimate the cost of reported ATV-related 
fatalities. This approach is based upon the 2002 National Highway 
Administration report, ``The Economic Impact of Motor Vehicle Crashes, 
2000'' (Report DOT HS 809-446). The assumption was made that ATVs are 
motor vehicles, and in the absence of a specific model for ATV-related 
fatalities, the NHTSA model is used for ATV crashes.
---------------------------------------------------------------------------
V. Recall Analysis--Problems Illustrated
    CFA analyzed \6\ all ATV recalls conducted by CPSC that are cited 
on CPSC's website.\7\ Our initial goal was to determine whether there 
were any pervasive hazards appearing among recalled ATVs. Specifically, 
we encourage CPSC to propose safety standards that could solve the most 
pervasive problems appearing in recalls.
---------------------------------------------------------------------------
    \6\ CFA was assisted in this effort by an engineer who works for 
Consumers' Union, publisher of Consumer Reports Magazine. This engineer 
helped to categorize the failure type, system failure and type of 
hazard.
    \7\ http://www.cpsc.gov/cgi-bin/recalldb/prodpr.asp.
---------------------------------------------------------------------------
    CPSC conducted 48 recalls of ATVs involving a total of 1,206,400 
units from June 2000 to November 2005. From January to November 2005, 
there were 17 ATV recalls involving 80,910 units. The ATVs recalled in 
2005 alone make up 35 percent of the number of ATV recalls and 7 
percent of the total number of units recalled. 94 percent (45 out of 
48) of all ATV recalls were conducted due to the potential for serious 
bodily injury or death.
    Failure Type: We categorized ATV recalls by type of failure to 
capture the type of system failure upon which the recall was 
predicated:

  <bullet> 77 percent of all recalls were due to a mechanical failure.
  <bullet> 13 percent of all recalls were due to a fuel or fire risk.
  <bullet> 8 percent of all recalls were due to an electrical failure.
  <bullet> 2 percent of all recalls were due to a labeling error.

    System Failure: We sought to characterize ATVs by a more specific, 
system-wide failure type:

  <bullet> 36 percent of all ATV recalls involve a suspension failure.
  <bullet> 18 percent of all ATV recalls involve a drive train failure.
  <bullet> 16 percent of all ATV recalls involve a brake failure.
  <bullet> 11 percent of all ATV recalls involve a fuel leak.
  <bullet> 9 percent of all ATV recalls involve a throttle failure.
  <bullet> 7 percent of all ATV recalls involve wheel failures.
  <bullet> 4 percent of all ATV recalls involve a computer failure.
  <bullet> 2 percent of all ATV recalls involve an electrical or wiring 
        failure.
  <bullet> 2 percent of all ATV recalls involve an oil leak.
  <bullet> 2 percent of all ATV recalls involve a missing label.

    We believe that failures in the suspension category are 
particularly important for CPSC to consider as it moves forward with an 
ANPR on ATVs. CPSC should seek to determine why 34 percent of all 
recalls were due to suspension failures and why 18 percent of all 
recalls were due to drive train failures. Together, these two system 
failures make up 52 percent--over half--of all ATV recalls. We urge 
CPSC to use its institutional expertise to determine why these 
suspension and drive train failures occurred in ATVs manufactured by 
numerous companies and what types of performance or design standards 
could be instituted to prevent these types of failures in the future. 
We are concerned that the CPSC staff's briefing package does not 
adequately take this information into account.
    Hazards posed by recalled ATVs: We sought to categorize ATV recalls 
by the type of hazard posed by the ATV. We found:

  <bullet> 62 percent of all ATVs were recalled due to the potential 
        for the operator to lose control of the ATV.

  <bullet> 19 percent of all ATVs were recalled due to the potential 
        for fire.

  <bullet> 15 percent of all ATVs were recalled due to the potential 
        for a failure of the ATV to stop.

  <bullet> 2 percent of all ATVs were recalled for a failure to comply 
        with labeling requirements.

  <bullet> 2 percent of all ATVs were recalled due to the potential for 
        a flying projectile to hit an ATV operator or bystander.

    The hazard posed by a large majority of recalled ATVs is severe, 
leading to the potential for a loss of control, serious injury or 
death. The seriousness of the potential hazard should compel CPSC to 
look critically at the pervasive causes for ATV recalls and to 
seriously consider solutions that will solve some of these problems. 
CFA is unaware of any other category of recalled products which could, 
in such large percentages, lead to such life threatening hazards

VI. Weakness of CPSC Briefing Package
    CFA is profoundly disappointed with the recommendations contained 
in the CPSC staff's briefing package. Significantly, the staff fails to 
recommend that the Commission take strong actions to truly protect 
children from ATV deaths and injuries. Further, the staff's 
recommendation largely keeps in place the same failed voluntary system 
which relies upon the ATV industry to communicate safety information to 
consumers as a way to curb ATV death and injuries.
    CFA is concerned about the following components of the CPSC staff's 
recommendations:

  <bullet> The specific mechanical performance requirements fail to 
        take into account all factors leading to ATV recalls as well as 
        all technological means of increasing safety.

  <bullet> CPSC staff's recommendation to weaken the definition of 
        youth-size ATVs by removing the engine size component is 
        incredibly problematic. There has been no evidence presented 
        that such a change will save lives nor any indication from the 
        injury and death statistics compiled by CPSC that would suggest 
        abandoning this principle. Thus, we see no support for the 
        creation of a new ``transitional'' class of ATVs, which would 
        serve to place children on larger, heavier and more powerful 
        ATVs. Further, we have no confidence that the speed governors 
        will not be easily removed or modified to decrease or eliminate 
        their utility.

  <bullet> The safety warnings, hang tags, etc. will be used to 
        communicate safety information to consumers. This is merely a 
        perpetuation of the same failed components of the ATV Action 
        Plans. This relies upon the premise that consumers are actually 
        aware of the warned-against behaviors as advertised on warning 
        labels of ATVs. Unfortunately, CPSC staff failed to analyze 
        important data which proves that the contrary is true. In 
        looking at CPSC and the ATV industry's survey of people injured 
        on ATVs, CFA analyzed the Injury Special Study Raw Data Files 
        for 1997 and 2001, which were provided as Attachment 2 to 
        CPSC's response to FOIA request from CFA, dated February 11, 
        2003, for 1997 and 2001, and it is clear that only a small 
        percentage of the public is aware of the recommended size 
        limitation for child operation. Only 13 percent of the injured 
        ATV riders who responded to the CPSC's special survey of a 
        representative sample of those injured in ATV accidents, were 
        aware of a warning label about vehicle size for children under 
        12 and only 38 percent were aware of a warning label for 
        children under 16. Thus, the conclusion in the briefing package 
        is vastly incorrect when it assumes that the public is aware of 
        the warning messages and falls short when it recommends the 
        same flawed approach.

         Furthermore, there is no evidence confirming that the presence 
        of a label on a product assures consumer understanding and 
        knowledge about the dangers of that product. However, CPSC 
        staff does not cite a single source which demonstrates that 
        parents fully understand the meaning and ramifications of those 
        labels and then purchase adult-size ATVs for their children 
        anyway. The failure to provide evidence in and of itself 
        undermines staff's position. By extension, it maintains that 
        parents knowingly ignore that fact that their children face 
        significant risk or serious injury and death when riding adult-
        size ATVs. We reject this supposition. In fact, parents from 
        across the country have told us that they did not understand 
        the risks or how dangerous ATVs can be. While the disclosure 
        statement warning consumers about the possible consequences of 
        riding ATVs is better than the status quo it is insufficient, 
        alone, to significantly decrease ATV deaths and injuries.

  <bullet> The ``training'' portion of the staff's recommendation does 
        not appear to be substantially different from the status quo, 
        fails to ensure the substantive quality of the training and 
        doesn't do enough to ensure that training will be made 
        geographically available.

  <bullet> The ban on three-wheel ATVs should be accompanied by a 
        recall of all three-wheel ATVs in the market.

  <bullet> The briefing package contains numerous references to the 
        ``problem of imported ATVs.'' While, it is clear that the large 
        ATV manufacturers fear the rising percentage of less expensive 
        ATVs as an economic threat, there has been no evidence put 
        forth in the briefing package or anywhere else indicating that 
        these ATVs pose an added threat to health and safety. In 
        contrast, CFA has found that:

          -- For ATV recalls listing the country of manufacture, 20 
        were manufactured in the United States, 3 were manufactured in 
        Canada, 3 were manufactured in Japan, 1 was manufactured in 
        Taiwan; and 1 was manufactured in China.

          -- 91.7 percent of ATVs recalled involved ATVs manufactured 
        by major ATV manufacturers who are members of the Specialty 
        Vehicle Institute of America (SVIA).\8\
---------------------------------------------------------------------------
    \8\ Polaris joined SVIA in September of 2005.

          -- In 2005 alone, 94 percent (16 out of 17) of ATVs recalled 
---------------------------------------------------------------------------
        were manufactured by major ATV manufacturers.

    Thus, CFA is concerned that efforts to deal with imported ATVs will 
have a marginal if any benefit to the health and safety of Americans 
riding ATVs.

VII. Benefit of a Federal Rule--Role of CPSC

A. Children Should Not Ride Adult-Size ATVs
    The Commission, as well as the American Academy of Pediatrics 
(AAP), the American Academy of Orthopaedic Surgeons (AAOS) and the ATV 
industry's trade association, the Specialty Vehicle Institute of 
America (SVIA) have long standing policies stating that it is 
inappropriate for children under 16 years old to operate or otherwise 
ride adult-size ATVs. Our petition sought to give CPSC the necessary 
tools to enforce this guideline since no Federal mandatory ATV safety 
laws currently exist now. The Commission and experts in child health 
have concluded that children should not ride adult-size ATVs because 
ATVs are inherently difficult to operate for adults and beyond the 
development capability of children to control. Unfortunately, the 
staff's briefing package does not even consider the substance of our 
petition, but rather dismisses it out of hand.

        According to CPSC, drivers of ATVs must make complex split-
        second decisions: If the ATV hits a bump, the driver has to 
        determine almost instantaneously, the throttle setting, 
        steering angle, and position of his/her body on the ATV. Such 
        information can only be processed so fast and if the occurrence 
        of the circumstances exceeds the ability of the driver to react 
        appropriately, an incident will likely occur.\9\
---------------------------------------------------------------------------
    \9\ U.S. Consumer Product Safety Commission, Briefing Package on 
All-Terrain Vehicles, March 1991, p. 19.

    CPSC has determined that children do not have the physical or 
mental abilities to make these complex, split-second decisions. We are 
not aware of any change in this perspective by CPSC.
    The AAP and AAOS have issued formal policies concluding that ATVs 
are a significant public health risk; that children younger than 16 
should not be allowed to operate ATVs, and that the safe use of ATVs 
requires the same or greater skill, judgment and experience as needed 
to operate an automobile.
    While there seems to be almost universal agreement among experts 
that children should not be riding adult-size ATVs, no mechanisms are 
in place to ensure that this does not happen. Unfortunately, we know 
that children do ride adult-size ATVs and that that too many children 
are getting killed and injured when they drive vehicles that are too 
large for them. For example, over 90 percent of children who were 
injured on ATVs were driving vehicles that are too large. Our petition 
seeks to solve this problem through the issuance of a mandatory 
regulation that would give CPSC enforcement authority over ATV dealers 
who knowingly sell adult-size ATVs for use by children under age 16.

B. CPSC's Role
    Federal regulation barring the sale of certain ATVs for children 
could significantly change legal and other dynamics facing the ATV 
industry, and dealers in particular. When the consent decrees were in 
effect, CPSC reported that compliance was consistently high. Compliance 
dropped dramatically when replaced with a voluntary approach. When the 
legal hammer was removed, dealers appear to have concluded that the 
risks of violating the voluntary standard are outweighed by the 
benefits associated with selling adult-size ATVs in violation of those 
standards. On-going monitoring by manufacturers failed to encourage 
widespread and consistent compliance. With a Federal regulation in 
place and stepped up enforcement by CPSC, we believe the legal dynamics 
would be very similar to those that existed under the consent decrees. 
If dealer compliance rises, then sales of adult-size ATVs for use by 
children would decline. Reduction in such sales would indirectly affect 
use, because a smaller number of adult-size ATVs would be available to 
this age group.

VIII. Role for States in Conjunction With Federal Role
    We recognize that CPSC does not have the authority to take every 
action necessary to solve the full scope of the problems currently 
caused by ATVs. While CPSC can ban the sale of adult-size ATVs for use 
by children under 16, we urge CPSC and industry to support state 
efforts to set licensing and rider training requirements, prohibit 
riders from carrying passengers, and require ATV riders to wear helmets 
and other protective equipment. We also believe that, with the Federal 
and state governments taking strong action and providing more 
information to consumers, parental responsibility will increase as 
well.

IX. Congressional Role
    CFA believes that there is an important role for Congress to play 
in seeking to solve the public health crisis caused by ATVs.

A. Legislation Prohibiting Knowingly Selling an Adult-Size ATV for Use 
        By Children a Violation of the Consumer Product Safety Act
    Since CPSC staff has failed to recommend that the Commission issue 
a regulation banning the sale of adult-size ATVs for use by children, 
we urge the introduction of legislation that would make the knowing 
sale of an adult size ATV for use by children a violation of the 
Consumer Product Safety Act.

B. Request GAO Studies
    We also suggest the request for GAO studies analyzing CPSC 
compliance efforts on the ATV voluntary action plans; actual costs to 
society of ATV deaths and injuries; and an analysis of enforcement 
mechanisms to ensure compliance with existing state laws and the 
potential for enforcement of a Federal law. We believe that these 
studies will fill existing gaps in the current knowledge of what is 
known about ATVs and their consequences.

X. Conclusion
    Each and every year, more and more people, especially children, get 
killed or injured as they ride ATVs. The current voluntary approach to 
safety has allowed these deaths and injuries to not only continue but 
also to increase. Every year, more and more families have to deal with 
the loss of loved ones, caring for a severely injured family member as 
well as the vast costs of medical care all caused by riding ATVs. 
Unfortunately, the staff's briefing package recommends a continuation 
of the current voluntary regime. Thus, CFA is vastly disappointed that 
CPSC staff has not urged a bolder course of action for CPSC. Finally, 
due to the absence of a strong recommendation from CPSC staff, CFA 
urges this Committee to consider requesting studies from GAO to fill in 
gaps in our knowledge about ATVs as well as introducing legislation 
that would actually protect children from the well-documented hazards 
of riding adult-size ATVs.

    Senator Allen. Thank you, Ms. Weintraub, for your 
testimony.
    Now we'd like to hear from Mr. Williams. You may proceed.

     STATEMENT OF BRETT WILLIAMS, GENERAL MANAGER, COLEMAN 
                          PowerSports

    Mr. Williams. Mr. Chairman, members of the Subcommittee, 
I'd like to thank you for the opportunity to come and offer 
some testimony to you today.
    I'm not much of a political animal. My name is Brett 
Williams. I'm the General Manager of Coleman PowerSports. We 
are a large power sports dealer/retailer--motorcycles, 
watercraft, ATVs, of course--with two locations----
    Senator Allen. Bring your microphone even closer.
    Mr. Williams.--one in Falls Church, and one in Woodbridge.
    ATVs have become a major part of our business. My, for lack 
of a better term, ``expertise'' in this area, I guess, is, 
where the rubber meets the road, I've worked at the dealership 
level from 1987 until now, spent some time as a representative 
for a major manufacturer, American Suzuki, and have seen ATVs 
go from the odd things that we sold off-in-the-corner to close 
to 30 percent of our business. Again, we're a major retailer. 
We sell in the hundreds of these a year. The people who are 
buying them are very much, you know, family oriented. They are, 
we call them, ``vacations on trailers,'' where they're buying 
two or three, for the whole family. They're good citizens. They 
obviously care about safety of themselves and children. We care 
about their safety.
    All the ATVs we currently sell are from the major 
manufacturers: BRP, Honda, Kawasaki, Suzuki, Polaris, and 
Yamaha. We've been very satisfied with the quality of the ATVs, 
themselves, and the standards by which they hold us to. There 
are--and it's a severalfold thing. We have highly-paid, highly-
trained guys that build these ATVs, because they do come 
crated, they do come partially assembled. And there are three 
layers of people that are getting to them before the consumer. 
There's a technician that builds them, a master technician that 
does a quality control of them, and then, of course, a service 
manager or service advisor that's going over the unit with the 
customer at time of delivery. So, three layers of people have 
touched this unit from the time it arrived in the crate until 
the time it's given to the consumer.
    There's a billed checklist with safety things, 50 to 75 
points of which we have to check--you know, tighten, as far as 
bolts, and the assembly process, and then what we have to then 
go over with the consumer. My concern with these come on that 
same level. They're often sold to consumers--the off brands--
either directly, as this one was, on the Internet, where it 
arrives to the consumer in a crate, and you're hoping that they 
can put it together, like the dresser you got from IKEA, as 
opposed to something that you're going to put your child on and 
let him ride. We have--we're having trouble with them. There 
are large parts--Pep Boys retailer next to us that was selling 
these, just the month before Christmas. I noticed they've--they 
disappear during the rest of the year, and they show up at Pep 
Boys right around November. And, even us, we probably sell as 
many of these youth-unit ATVs in the 2 weeks before Christmas 
as we do in the 3 months before, as, obviously, these are being 
bought for Christmas presents.
    And as we are reviewing the age requirements, and we have, 
you know, a customer in front of us--and I've had several 
uncomfortable conversations, especially this last year, with 
parents who are angry at my sales people for not selling their 
ten-year-old a 90cc or 110cc ATV, because it's against our 
voluntary agreement. And once we know that that's who it's for, 
we refuse the sale altogether, even if the parent then says, 
``Well, then, it's not for him, it's for me,'' you know, which 
is a common thing to say. This year, the new argument is, 
``Well, the guy at Pep Boys will sell me whatever I want.'' So, 
it became an ongoing issue with us being the bad guy by telling 
them they can't--their child can't operate this vehicle, and it 
shouldn't be operated by their child, and the guy at Pep Boys 
saying it wasn't a problem, if they even talked to anybody over 
there.
    They're operating these things that are being purchased 
without safety gear, without helmets, without training. We not 
only offer training--the certificate's given to them that's 
then done by the ATV Institute--we offer training onsite. We 
have a cone set up, and we get to go through the controls with 
the child, the operator, preferably, how to operate the 
controls, the reverses, the parking brakes, all the little 
safety features. We do teach the parents how to change the 
governor settings so that they can operate how fast or slow the 
ATV will move for the child. There are even some hidden 
governors and hidden restricters that only a parent could get 
to, as far as throttle restrictions and exhaust restriction 
devices.
    My concern here is--we have a lot of philosophical 
differences in what is safe and what's not. And four-wheelers 
are fun. They are a risk behavior. You can control that risk 
with the safety of the unit and the safety of the operator and 
proper supervision, obviously. Parents have to be involved--
adults have to be involved in where and how they're using them.
    I'm concerned, now, with these--because, you're right, 
there are not a lot of studies yet, but I say it borders on 
common sense, that this vehicle does not have proper footwell 
protection, there's no parking brake, there's no guard on the 
chain or drive system. A child can easily run over his own foot 
with it. Some of these come with no front brakes. The controls 
that are being used in the throttles and hands are the same 
that they use on small mopeds and bicycles; they're not meant 
to be operated the way an ATV is. My shop currently--I've got 
15 to 20 of these that we've taken on trade for these vehicles, 
but then don't sell. We scavenge them for parts, or we put them 
into our mechanics lien auctions for people that want to use 
the motors and things like that. We just don't consider them 
safe for use by consumers.
    As, kind of, averse as I can be to Federal regulation, I do 
think that if it's going to be done properly, if we're going to 
make a difference here, that the one legislation that should be 
considered is that all ATVs, domestic and foreign, be held to 
the same product and safety standards, and that all the U.S. 
consumers receive the adequate safety information and free 
hands-on training for new ATVs. And I would add that these are 
delivered by a professional that has been trained in ATVs and 
safety and the operation of it, and not just given to somebody 
to use.
    Thank you for your time, and I welcome any questions.
    [The prepared statement of Mr. Williams follows:]

        Prepared Statement of Brett Williams, General Manager, 
                          Coleman PowerSports

    Mr. Chairman and members of the Subcommittee, I want to thank you 
for the opportunity to appear here this morning. My name is Brett 
Williams. I am the General Manager of Coleman PowerSports. We have two 
Coleman PowerSports stores in Virginia, located in Falls Church and 
Woodbridge, where we employ over 120 persons. Our dealership originally 
opened in 1963 and is part of PowerRide MotorSports, Inc., a network of 
seven dealerships across the United States. Coleman PowerSports handles 
a wide range of motorized products, including all-terrain vehicles 
(ATVs).
    ATVs are a major part of our business at Coleman PowerSports. ATVs 
are terrific products that can be used for a wide range of things. Some 
models are primarily for recreational use; other models can be used for 
all sorts of practical purposes, such as light hauling, transportation 
around family farms or work places, or getting out to favorite trails 
or hunting places.
    We sell a lot of ATVs to customers in the greater Washington 
metropolitan area and beyond. Some customers enjoy ATV outings with 
their entire families. There are local ATV riding clubs that also 
sponsor different riding events. It's a great way for people to get out 
and enjoy the outdoors. Like our customers, the vast majority of ATV 
enthusiasts are responsible citizens who care about their families and 
their rights to participate together in recreational activities.
    As General Manager, I oversee our dealership's sales practices. 
Coleman Motorsports sells several brands of ATVs from the major 
manufacturers, including Bombardier, Honda, Kawasaki, Suzuki, Polaris, 
and Yamaha. We have been very satisfied with the quality of these 
vehicles, which are manufactured in accordance with the ATV industry's 
voluntary product standards. Our customers have also been satisfied 
with the quality of these products--in fact, many of them are repeat 
buyers.
    In addition, the major ATV manufacturers require us to take many 
steps to promote safe and proper use of the vehicles. At Coleman 
PowerSports, we believe that these requirements are part of responsible 
selling practices. We take these practices seriously because we care 
about our customers and want their ATV experiences to be safe and 
enjoyable. All responsible dealers do. For example, all of our sales 
personnel are trained about the minimum age recommendations for the 
different ATV models. We expect all of our sales personnel to follow 
these requirements, and we do not allow adult-size ATVs, which are 
models with engine displacements of 90cc or greater, to be sold for use 
by children under 16. Our dealership agreements with the major ATV 
manufacturers prohibit such sales, and we make every effort at Coleman 
PowerSports to make sure that these requirements are followed.
    We also know that the manufacturers and the CPSC send 
investigators, posing as shoppers, to test whether our dealership is 
following the minimum age recommendations. Our dealership works hard to 
make sure all sales personnel comply with these directives. As General 
Manager, I want to keep it that way.
    Our dealership also promotes the free hands-on training programs 
offered by the major ATV manufacturers. The training program is a great 
way for new customers to gain experience and knowledge of safe riding 
practices. In addition, we provide all new ATV purchasers with a safety 
alert, a safety video, and other instructional materials when they buy 
an ATV. We sell helmets, protective gear, and other riding accessories, 
and encourage new purchasers to make sure they are properly outfitted 
before they start using their ATVs.
    We believe that all of these efforts make a difference. Most of our 
customers enjoy their ATVs year after year without any accident or 
problem. Unfortunately, when we read about ATV-related accidents in the 
newspaper or hear about them from a customer, they almost always 
involve use of the vehicles in ways that are expressly warned against 
in the safety materials and on-product labels. This includes letting 
children under 16 operate adult-size ATVs, carrying passengers, and 
riding without helmets or other protective gear. These activities go to 
the use of the vehicles. We can do our part in educating consumers, but 
once they take an ATV out of the dealer showroom, they assume 
responsibility for how it is used. Parents and adults should always 
supervise children operating ATVs. Of course, adults also need to 
exercise good judgment and follow the warnings and instructions on the 
vehicles when they ride. By demonstrating safe and responsible riding 
practices, parents are the most effective models for teaching their 
kids to ride safe too.
    Most ATV users want to do the right thing, especially parents. 
There's a lot of good safety information available to ATV riders. We 
need to continue to encourage them to pay attention to it. We also 
believe that state ATV safety laws are another potentially effective 
way to promote safe and responsible use of the vehicles. However, we do 
not support the proposed Federal ban on dealer sales of adult-size ATVs 
for use by children under 16. As I previously indicated, the major ATV 
manufacturers already prohibit us from making such sales. The problem 
is not in the dealer showrooms. It is out where the products are being 
used. So if you really want to make a positive difference on ATV 
safety, the focus should be ensuring American consumers have safely-
designed, quality products and are given the appropriate riding 
instructions, warnings, and training to use their ATVs safely and 
responsibly. Passing a Federal law that is targeted against small 
independent businesses, like our dealerships, is nothing more than a 
political gesture that will have no positive real-world effect.
    There is a role, however, for meaningful Federal legislation. Over 
the past several years, there has been a flood of new ATV products, 
mostly from China and Taiwan, that are being sold through 
nontraditional retail outlets, including the Internet and big box 
stores. These products are poorly made, do not comply with the ATV 
industry's voluntary standards, and are being sold with virtually no 
safety, training, or product support. By short-cutting on quality and 
safety, these products are being sold at cheaper prices and steadily 
gaining greater and greater market share, but at unacceptable costs to 
consumers from a safety and reliability standpoint. A number of 
Virginia consumers have brought these noncompliant ATVs to our 
dealership for repair. The units are so poorly made that repair is not 
an option. And we simply cannot assume the risk of even trying to fix 
these vehicles, given their shoddy construction and the obvious safety 
hazards they create. Instead, we tell consumers to dispose of them and 
to only purchase ATVs that comply with the industry's voluntary 
standards and provide the type of safety, training, and product support 
that the major ATV companies offer.
    All manufacturers, distributors, and retailers that sell ATVs in 
the United States should be held to the same standards. The continuing 
flood of these noncompliant ATVs hurts our business, unfairly harms the 
reputation of the entire ATV industry, and--most importantly--
undermines the safety of U.S. consumers. On behalf of all the ATV 
dealers in Virginia and across the country, we ask that this 
Subcommittee consider Federal legislation that provides a level-playing 
field for ATV safety, by ensuring that: (1) all U.S. consumers receive 
adequate safety information and training opportunities; and (2) all ATV 
manufacturers and distributors--domestic and foreign--are held to the 
same product safety and quality standards. That type of Federal law 
would make a positive and immediate difference, and it should be 
enacted as soon as possible to promote the safety of U.S. consumers and 
to end the unfair and unethical practices of these new entrants who are 
damaging the industry and small businesses like our dealership.
    Thank you again for the opportunity to participate in this 
morning's hearing. I welcome your questions.

    Senator Allen. Thank you, Mr. Williams, for your testimony. 
In fact, that's one of--we're going to hear from all the 
witnesses. We hear all these. It's good to hear what the 
differences are in the safety features. And you are aware of 
the point-of-sale, point-of-contact, and I commend you for the 
responsible way that you, at Coleman PowerSports, sell. And 
obviously, you could make more money doing the other way, but 
thank you for your ethical, responsible behavior and your 
testimony.
    Mr. Williams. Thank you, Mr. Chairman.
    Senator Allen. Dr. Aitken?

        STATEMENT OF MARY AITKEN, ASSOCIATE PROFESSOR, 
 DEPARTMENT OF PEDIATRICS, UNIVERSITY OF ARKANSAS FOR MEDICAL 
                            SCIENCES

    Dr. Aitken. Thank you, Mr. Chairman. My name is Dr. Mary 
Aitken, and I appreciate this opportunity to present testimony 
on behalf of the American Academy of Pediatrics.
    The AAP commends you and the entire Subcommittee for 
holding hearings on the safety and regulatory issues involved 
with all-terrain vehicles. For over 20 years, the AAP has been 
calling attention to the grave risks of ATV-riding for 
children, and urging the Federal Government to take more 
aggressive action to curb the deaths and injuries associated 
with ATV crashes.
    ATVs do pose unique dangers to the children who ride or 
operate them. Allow me to share with you just a few of the 
statistics regarding children and ATVs.
    Between 1982 and 2004, over 2,000 children were killed in 
ATV crashes. In 2004 alone, 130 children perished due to 
injuries sustained when riding an ATV. An estimated 44,700 
children were treated in emergency departments for ATV-related 
injuries in 2004, the equivalent of about 900 school buses of 
children. Injuries sustained by children riding adult-sized 
ATVs are often very serious, including brain, spinal cord, 
abdominal, and complicated orthopedic injuries.
    I can speak to the dangers of ATVs from my personal 
clinical experience. I practice at the only tertiary-care 
pediatric hospital in a rural state where ATV use is very 
common. Just this week, sadly, an 11-year-old who was visiting 
Arkansas from California died of severe brain injuries after he 
failed to negotiate a hill and the ATV he was riding flipped. 
This child, who had no ATV experience, was riding alone and 
without a helmet when injured, according to news reports.
    Currently, Arkansas Children's Hospital admits more than 60 
children each year, an average of at least one per week, due to 
significant ATV injuries, and our emergency department treats 
many more. Traumatic brain injuries and severe orthopedic 
injuries are the most frequent injuries we see in children 
ranging from only a few months old, riding as ATV passengers, 
to pre-teen and teen drivers. We recently published a case 
series describing seven patients with severe face and neck 
lacerations who had driven their ATVs through barbed-wire 
fences, including one youth who narrowly survived a near 
decapitation. He will likely experience lifelong disability as 
a result of his injuries. ATV injuries also tend to be 
extremely dirty, and, in some cases, necessitate multiple 
surgeries to clean and repair the damage. Some patients must 
essentially be treated as burn victims and receive skin grafts. 
I know, from my experience both as a clinician and as a 
researcher, that the impact on the children and on their 
families is both profound and long-lasting.
    The primary Federal power regarding off-road vehicles is 
vested in the Consumer Product Safety Commission. Over the past 
two decades, the CPSC has engaged in an uneven and sometimes 
inconsistent pattern of regulation for ATVs. The Academy and 
its partners have engaged in repeated efforts to educate the 
Nation about the hazards of ATVs for children and urge the 
courts and the CPSC to adopt stricter standards. Today, 
however, the only Federal regulation of ATVs consist of consent 
decree provisions under voluntary action plans which are 
unenforceable and carry no penalties for noncompliance.
    In Arkansas, we've been very successful in engaging with 
ATV manufacturers and dealers in our safety efforts, and I'm 
convinced that collaboration between the industry, the public 
health community, and other groups are vitally important to 
solving the problem of ATV injury. My own experience indicates 
that ATV dealers and other industry representatives are 
sincerely concerned, as we all are, about this problem and want 
to see ATVs used as recommended.
    The Voluntary Action Plans require dealers to obtain signed 
acknowledgement from purchasers that they understand the age 
requirements for ATV use. However, CPSC's own undercover 
inspections have revealed uneven compliance with this 
requirement. The 2005 staff briefing package acknowledged that 
compliance with this requirement appears to have declined since 
1998, ``In 1998, compliance was 85 percent, and in the years 
2002 and 2003, 60 percent. However, for 2004, the compliance 
rate was 70 percent.'' This indicates that over those 3 years, 
approximately one-third of dealers failed to comply with these 
requirements. These figures represent an unacceptable failure 
rate and indicate the ineffectiveness of the voluntary plans in 
this regard.
    Like the CPSC, the Senate Commerce Committee has the power 
to reduce ATV-related deaths and injuries amongst our Nation's 
children. If the Federal Government adopted limitations on ATV 
use by children, this would serve as both a powerful message 
and a model for states and localities. The attention and 
publicity generated would educate parents, many of whom are 
unaware of the safety risks for the vehicles. The American 
Academy of Pediatrics has issued specific recommendations for 
all policymakers regarding children and ATVs. First, children 
under 16 should not operate ATVs. An ATV can weigh in excess of 
500 pounds and travel at speeds greater than 60 miles an hour. 
Children do not possess the physical strength, coordination, or 
judgment necessary to pilot these vehicles effectively. When a 
child crashes in one of these large machines, it often rolls 
over on them or traps them beneath it. The result is 
devastating injuries, as I've described.
    A driver's license should be required to operate an ATV. No 
state or local government allows its children to drive cars, 
yet an unlicensed child is permitted to drive an ATV at high 
speeds without a helmet on unpaved surfaces in virtually every 
area. This defies all logic. The safe use of ATVs requires the 
same or greater skill, judgment, or experience as needed to 
drive an automobile. Alcohol use by operators of ATVs should be 
prohibited, with zero tolerance among 16- to 20-year-old 
operators. ATV use should be banned on paved roads. Appropriate 
protective gear should be required to operate an ATV. Carrying 
passengers on an ATV should be prohibited. ATVs should not be 
operated before sunrise or after sunset. And, finally, 
manufacturers should continue to redesign ATVs to improve 
safety.
    Unfortunately, the measures proposed today by the CPSC fail 
to address any of the AAP's policy recommendations adequately. 
As a result, the CPSC proposals cannot be expected to have any 
meaningful impact on ATV injuries or deaths among children. The 
AAP is disappointed by the CPSC document, which represents a 
fundamental lack of leadership and vision for keeping our 
children safe.
    In conclusion, the American Academy of Pediatrics urges you 
to support meaningful restrictions on children riding or 
operating ATVs. Clearly, ATVs pose a significant hazard to the 
children who ride them. This fact is indisputable. The cost to 
society is also high, not only in loss of life and health, and 
but in actual dollars. In March 2005, in the journal 
Pediatrics, we published a study that estimated hospital 
charges alone were in excess of $74 million over a 2-year 
period for pediatric ATV injuries. If no further action occurs 
this year, we can expect over 100 children to die and over 
40,000 to visit emergency rooms again next year due to ATV-
related incidents.
    The present state of affairs has been ineffective in 
keeping our children safe. I hope the Committee will take a 
leadership role in this issue and assure the safety of children 
by supporting the commonsense measures recommended by the 
American Academy of Pediatrics.
    Again, thank you for the opportunity to make this 
testimony, and the AAP looks forward to working with you on 
these safety issues.
    [The prepared statement of Dr. Aitken follows:]

 Prepared Statement of Mary Aitken, Associate Professor, Department of 
        Pediatrics, University of Arkansas for Medical Sciences

    I appreciate this opportunity to testify today before the Senate 
Commerce Subcommittee on Consumer Protection, Product Safety, and 
Insurance regarding all-terrain vehicles (ATVs). My name is Dr. Mary 
Aitken, and I represent the American Academy of Pediatrics, a nonprofit 
professional organization of 60,000 primary care pediatricians, 
pediatric medical sub-specialists, and pediatric surgical specialists 
dedicated to the health, safety, and well-being of infants, children, 
adolescents, and young adults.
    The AAP commends the Subcommittee and you, Chairman Allen, for 
holding this hearing on the safety and regulatory issues involved with 
all-terrain vehicles (ATVs). For over 20 years, the AAP has been 
calling attention to the grave risks of ATV riding for children and 
urging the Federal Government to take more aggressive action to curb 
the deaths and injuries associated with ATV crashes.
    ATVs pose unique dangers to children who ride or operate them.\1\ 
In fact, from the perspective of injury prevention, children riding 
ATVs often represent the perfect recipe for tragedy due to the 
confluence of multiple high-risk factors:
---------------------------------------------------------------------------
    \1\ Committee on Injury and Poison Prevention. All-Terrain Vehicle 
Injury Prevention: Two-, Three-, and Four-Wheeled Unlicensed Motor 
Vehicles. Pediatrics, 2000;105 (6):1352-1354.

  <bullet> Person Factors: Children lack the physical and developmental 
        maturity to operate an off-road vehicle safely, especially in 
---------------------------------------------------------------------------
        terms of judgment.

  <bullet> Environment Factors: Areas where ATVs are used are often 
        difficult to access for rescue crews due to distance and 
        challenging terrain.

  <bullet> ``Agent'' Factors: ATVs allow high rates of speed and 
        completely expose the driver. ATVs have a well-known tendency 
        to roll if not used properly.

All-Terrain Vehicles
    Allow me to share with you the statistics regarding children and 
ATVs:

  <bullet> Between 1982 and 2004, over 2,000 children were killed in 
        ATV crashes. In 2004 alone, 130 children perished due to 
        injuries sustained when riding an ATV.\2\
---------------------------------------------------------------------------
    \2\ Consumer Product Safety Commission, 2004 Annual Report of ATV 
Deaths and Injuries, September 2005, Table 3.

  <bullet> An estimated 44,700 children were treated in emergency 
        departments for ATV-related injuries in 2004--the equivalent of 
        900 schoolbuses full of children. A line of 900 schoolbuses 
        would stretch from the White House to Silver Spring, Maryland. 
        These injuries have increased every year since 1995 and now 
        exceed the near-record injury rates of 1985, when unstable 
        three-wheeled ATVs were still in major production.\3\
---------------------------------------------------------------------------
    \3\ Consumer Product Safety Commission, 2004 Annual Report of ATV 
Deaths and Injuries, September 2005, Table 5.

  <bullet> Injuries sustained by children riding an adult-sized ATV are 
        often very serious, including severe brain, spinal, abdominal, 
        and complicated orthopedic injuries. ATV riding involves almost 
        twice the risk of injury serious enough to require 
        hospitalization than any other activity studied. This is true 
        even for activities generally considered to be high risk, 
        including football (62 percent higher risk for ATV riding), 
        snowboarding (110 percent higher risk for ATV riding) and 
        paintball (320 percent higher risk for ATV riding).\4\
---------------------------------------------------------------------------
    \4\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 158.

  <bullet> Children lack the strength, coordination, and judgment to 
        operate ATVs safely. In a Consumer Product Safety Commission 
        (CPSC) study, the primary causes of children's deaths on an ATV 
        were overturning, collision with a stationary object, and other 
        collisions.\5\ Each of these implies the inability to control 
        the vehicle properly.
---------------------------------------------------------------------------
    \5\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 110.

    I can also speak to the dangers of ATVs from my personal clinical 
experience. I practice at the only tertiary-care pediatric hospital in 
a rural state where ATV use is very common. Just this week, an 11-year-
old child from California, visiting family in Arkansas, died of severe 
brain injuries after he failed to negotiate a hill and the ATV he was 
riding flipped. The child, who had no ATV experience, was riding alone 
and without a helmet when injured, according to news reports. 
Currently, Arkansas Children's Hospital admits more than 60 children 
each year--an average of at least one per week--due to significant ATV 
injuries, and our emergency department treats many more. Traumatic 
brain injuries and severe orthopaedic injuries are the most frequent 
injuries we see, in children ranging from only a few months old riding 
as ATV passengers to pre-teen and teenage drivers. We recently 
published a case series describing 7 patients with severe face and neck 
lacerations due to driving ATVs through barbed wire fences, including 
one youth who narrowly survived a near decapitation who will likely 
experience lifelong disability as a result of his injuries. ATV 
injuries also tend to be extremely dirty, in some cases necessitating 
multiple surgeries to clean and repair the damage. Some patients must 
essentially be treated as burn victims and receive skin grafts. I know 
from my experience as a clinician and an injury prevention researcher 
that the impact on the children and their families is profound and 
long-lasting.
    Mr. Chairman, if an infectious disease caused this level of death 
and disability, the Federal Government would spend millions of dollars 
toward studying, curing and ultimately preventing it. In the case of 
ATVs, however, the government has done virtually nothing over the past 
twenty years.
    The primary Federal regulatory power regarding off-road vehicles is 
vested in the CPSC. Over the past two decades, the CPSC has engaged in 
an uneven and sometimes inconsistent pattern of regulation of ATVs. 
ATVs first began to be widely adopted as both utility and recreational 
vehicles around 1980. Accordingly, ATV deaths rose from 29 in 1982 to 
299 in 1986--an increase of 930 percent in just 4 years. After pressure 
from the American Academy of Pediatrics and other concerned groups, the 
CPSC initiated negotiations with ATV manufacturers that resulted in a 
consent decree in 1987. The consent decree included a number of very 
modest measures:

  <bullet> An end to the sale of unstable three-wheeled ATVs (which 
        manufacturers were already phasing out);

  <bullet> Age recommendations related to engine size in ATV marketing, 
        which dealers would convey to consumers;

  <bullet> Labels to warn purchasers that children under 16 should not 
        ride adult-sized ATVs; and

  <bullet> Free driver training and public awareness campaigns by ATV 
        sellers.

    These measures fell far short of a ban on ATV use by children, 
which the American Academy of Pediatrics and its partners had urged. As 
ATVs grew in popularity in the following years, death and injury rates 
also continued to rise unabated.
    The Academy and its partners engaged in repeated efforts throughout 
the 1990s to educate the Nation about the hazards of ATVs for children 
and to urge the courts and the CPSC to adopt stricter guidelines. 
Despite these initiatives, the consent decree expired without further 
action in 1998. The ATV manufacturers agreed to continue abiding by 
consent decree provisions under Voluntary Action Plans, which were 
unenforceable and carried no penalties for noncompliance.
    In Arkansas, we have been successful in engaging ATV manufacturers 
and dealers in our safety efforts, and I am convinced that 
collaboration among the industry, the public health community, and 
other groups is vitally important to solving the problem of ATV injury. 
My experience indicates that ATV dealers and other industry 
representatives are sincerely concerned about this problem and want to 
see ATVs used as recommended. The Voluntary Action Plans require 
dealers to obtain a signed acknowledgement from purchasers that they 
understand the age recommendations for ATV use. However, CPSC's own 
undercover inspections have revealed variable compliance with this 
requirement. The 2005 staff briefing package acknowledged, moreover, 
that compliance with this requirement appears to have declined since 
1998: ``in 1998, compliance was 85 percent, and in the years 2002 and 
2003, 60 percent. However, for 2004, the compliance rate was 70 
percent.'' \6\ This indicates that over those 3 years, approximately 
one-third of dealers were failing to comply with the requirements. 
These figures represent an unacceptable failure rate and indicate the 
ineffectiveness of the Voluntary Action Plans in this regard.
---------------------------------------------------------------------------
    \6\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 9.
---------------------------------------------------------------------------
    Over the past 5 years (2000-2004), an average of 500 people have 
died each year of ATV-related injuries. An average of over 115,000 per 
year people have been injured during that same time. Of these, an 
average of 131 deaths and over 37,000 injuries each year have been 
among children under the age of 16. Thirty-one percent of all ATV 
deaths now occur among children under the age of 16.\7\
---------------------------------------------------------------------------
    \7\ Consumer Product Safety Commission, 2004 Annual Report of ATV 
Deaths and Injuries, September 2005, Tables 3 and 5.
---------------------------------------------------------------------------
    Despite the alarming increases in ATV deaths and injuries, 
government regulation continues to be all but absent. For the past 
several years, regulation has consisted almost exclusively of 
voluntary, unenforceable measures. Recently, the Academy's Committee on 
Injury and Poison Prevention reviewed the evidence regarding children 
and ATVs and reaffirmed its long-standing recommendation that no child 
under the age of 16 should operate or ride an ATV.\8\
---------------------------------------------------------------------------
    \8\ Committee on Injury and Poison Prevention. All-Terrain Vehicle 
Injury Prevention: Two-, Three-, and Four-Wheeled Unlicensed Motor 
Vehicles. Pediatrics, 2000; 105 (6):1352-1354.
---------------------------------------------------------------------------
    Due to this lack of activity at the appropriate regulatory 
agencies, in 2003 the American Academy of Pediatrics joined a number of 
other groups, including the American College of Emergency Physicians 
and Consumer Federation of America, to petition the CPSC once again to 
ban the use of ATVs by children under the age of 16. This petition 
underwent 2 years of review at the agency. In February 2005, the CPSC 
issued a briefing package recommending that the petition be denied. 
This recommendation was based primarily on two lines of reasoning: 
first, that a sales ban would not necessarily influence riding 
behavior; and second, that major distributors of ATVs already ban the 
sale of full-sized ATVs for use by children. The American Academy of 
Pediatrics considers both of these reasons to be specious. The sale of 
numerous products to children is banned, regardless of how or whether 
children may obtain or use those products otherwise (fireworks, 
lighters, and cigarettes are among the most obvious examples). 
Furthermore, the ban on the sale of ATVs for use by children is 
voluntary, and the CPSC's own surveys show that dealer compliance is 
inconsistent.\9\ In March 2005, I testified before the CPSC to urge the 
commissioners to approve this ban. The American Academy of Pediatrics 
continues to support this ban fully and works toward its adoption.
---------------------------------------------------------------------------
    \9\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p 15.
---------------------------------------------------------------------------
    The CPSC Commissioners have not yet voted upon the petition to ban 
the sale of adult-sized ATVs for use by children under the age of 16. 
Instead, this petition was rolled into a broad review of ATV issues 
directed to be undertaken by the CPSC Chairman. The staff briefing 
package on this issue was released on May 31.
    Like the CPSC, the Senate Commerce Committee has the power to 
reduce ATV-related deaths and injuries among our Nation's children. If 
the Federal Government adopted limitations on ATV use by children, this 
would serve as both a powerful message and a model for states and 
localities. The attention and publicity generated would educate 
parents, who are often unaware of the safety risks of these vehicles. 
Last year, my colleague, Dr. Denise Dowd of Kansas City, Missouri, 
testified before the House Resources Subcommittees on National Parks 
and Forests and Forest Health to urge that restrictions be placed on 
ATV usage by children on public lands.

Policy Recommendations
    The American Academy of Pediatrics has issued specific 
recommendations for all policymakers regarding children and off-road 
motorized vehicles:
    Children under 16 should not operate ATVs. An ATV can weigh in 
excess of 500 pounds and travel at speeds of over 60 miles per hour. 
Children do not possess the physical strength, coordination, or 
judgment necessary to pilot these vehicles safely.\10\ When a child 
crashes on one of these large machines, it often rolls over them or 
traps them beneath it. The result is devastating injuries, including 
crushed internal organs and multiple broken bones.
---------------------------------------------------------------------------
    \10\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 17.
---------------------------------------------------------------------------
    A driver's license should be required to operate an ATV. No state 
or local government allows children to drive cars. Yet an unlicensed 
child is permitted to drive an ATV at high speeds, without a helmet, on 
unpaved surfaces in virtually any area. This situation defies all 
logic. The safe use of ATVs requires the same or greater skill, 
judgment, and experience as needed to operate an automobile. A driver's 
license should be required to operate any motorized vehicle.
    Alcohol use by operators of ATVs should be prohibited, with zero 
tolerance among 16- to 20-year-old operators. Just as alcohol- or drug-
impaired operation of automobiles threatens the lives of drivers, 
passengers, and bystanders and is prohibited, operation of any 
motorized vehicle under the influence of alcohol or drugs should be 
forbidden. Young drivers under the influence of alcohol or drugs are 
particularly dangerous because of their relative inexperience and 
poorer judgment. Alcohol use by those under the age of 21 is already 
banned by Federal and state laws, and zero tolerance policies for 
underage ATV operators would strengthen the prohibition and send a 
strong message to parents and adolescents.
    ATV use should be banned on paved roads. All-terrain vehicles lack 
the features necessary to operate safely on roads and highways. Most 
have few or no lights, mirrors, signals or safety features. A 
significant number of crashes occur on paved roads where cars or trucks 
cannot see the ATV, or where ATV operators make unexpected maneuvers. 
In the CPSC survey on ATV crashes mentioned earlier, the highest number 
of fatalities occurred on paved surfaces.\11\ Use of ATVs should be 
allowed only on designated, well-maintained trails.
---------------------------------------------------------------------------
    \11\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 108
---------------------------------------------------------------------------
    Appropriate protective gear should be required to operate an ATV. 
Research regarding motorcycles and bicycles tells us that helmets save 
lives and that helmet laws result in greater helmet 
use.\12\<SUP>,</SUP> \13\<SUP>,</SUP> \14\ The Federal Government 
should take a leadership role and require operators of ATVs to wear a 
helmet.
---------------------------------------------------------------------------
    \12\ Kraus J.F., Peek C., McArthur D.L., Williams A. The effect of 
the 1992 California motorcycle helmet use law on motorcycle crash 
fatalities and injuries. JAMA. 1994; 272: 1506-1511.
    \13\ Watson G.S., Zador P.H., Wilks A. Helmet use, helmet laws, and 
motorcyclist fatalities. Am J Public Health. 1981; 71: 297-300.
    \14\ Committee on Injury and Poison Prevention. Bike Helmets. 
Pediatrics, 2001; 108(4): 1030-1032.
---------------------------------------------------------------------------
    Carrying passengers on an ATV should be prohibited. The vast 
majority of ATVs are not designed to carry passengers. An ATV's large 
seat is meant to allow a rider to shift his or her weight and maneuver 
adequately. Children can easily be thrown from these vehicles at high 
speeds. The Academy is even aware of cases where parents drive ATVs 
with children strapped onto the rear in a car seat, in the tragically 
mistaken perception that this is somehow safe. In a recent CPSC 
analysis of 184 child deaths involving ATVs, the agency concluded that, 
``CPSC has long recommended against the carrying of passengers on ATVs, 
and yet 24 percent of the deceased children were riding as passengers, 
and 45 percent of the fatalities occurred in multiple rider situations. 
Certainly, if CPSC's recommendations had been followed, the deaths of 
at least 45 child passengers would not have occurred.'' \15\
---------------------------------------------------------------------------
    \15\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p. 110.
---------------------------------------------------------------------------
    ATVs should not be operated before sunrise or after sunset. ATVs 
are challenging to operate safely even under ideal conditions. Darkness 
adds an unacceptable degree of additional risk, due to both unseen 
hazards and the difficulty of being seen by other vehicles. The use of 
ATVs in low light or darkness should be prohibited.
    Manufacturers should redesign ATVs to improve safety. Some of the 
hazards arising from ATVs can be attributed the design of the products 
themselves. Seat belts should be standard, and ATVs should have a roll 
bar to prevent the driver from being crushed by the weight of the 
vehicle in the event of a rollover. Headlights that automatically turn 
on when the engine is started should be installed on all ATVs to 
improve visibility by other vehicles. Speed Governors (devices that 
limit maximum speed) should be installed on ATVs used by inexperienced 
operators (such as teenagers or renters). Efforts should be made to 
design ATVs so that they cannot carry passengers.

Conclusion
    In conclusion, the American Academy of Pediatrics urges you to 
support meaningful restrictions on children riding or operating ATVs. 
Clearly, ATVs pose a significant hazard to children who ride them. This 
fact is indisputable. The cost to society is also high, not only in 
regard to loss of life and health but in actual dollars. In March 2005, 
the journal Pediatrics published a study in which my colleagues and I 
estimated that total hospital charges for children's ATV injuries over 
a two-year period exceeded $74 million.\16\ If no further action occurs 
this year, we can expect over 100 children to die and over 40,000 to be 
treated in emergency rooms again next year due to ATV-related incidents 
alone.
---------------------------------------------------------------------------
    \16\ Killingsworth, Jeffrey, et al., ``National Hospitalization 
Impact of Pediatric All-Terrain Vehicle Injuries,'' Pediatrics, 2005; 
115(3): e316-e321.
---------------------------------------------------------------------------
    The present state of affairs has been entirely ineffective in 
keeping children safe. I hope this Committee will take a leadership 
role on this issue and ensure the safety of children by supporting the 
common-sense measures recommended by the American Academy of 
Pediatrics. Again, I thank you for the opportunity to testify about the 
dangers of all-terrain vehicles for children, and the AAP looks forward 
to working with you on ATV safety issues.

    Senator Allen. Thank you, Dr. Aitken, for your testimony.
    Now we'd like to hear from Ms. Halbert, with the 4-H.

                STATEMENT OF SUSAN W. HALBERT, 
          SENIOR VICE PRESIDENT, NATIONAL 4-H COUNCIL

    Ms. Halbert. Thank you for the opportunity to testify about 
ATV safety this morning and about the complex issues that are 
related to ATV safety.
    I'm a little disappointed that Senator Stevens isn't here, 
because I started with this issue when it became a major 
concern in the State of Alaska, about 1981. I had people from 
all parts of the state reporting to me that kids were trying to 
see how far they could slide sideways down the dirt roads in 
the villages. And, needless to say, Alaska still uses the 
vehicles like you and I would use our cars and trucks today. 
So, it's a very different situation that started us off.
    There is likely to be a continued increase in the number of 
ATV safety--riders in the future. If you look at our population 
statistics in this country, there's a big bulge around that 13-
16 age range. We know that injuries will potentially increase, 
because the current surge of imported ATVs focuses on young 
riders, as well as on first-time purchasers who don't have any 
background and experience and training in riding, and the 
safety education in the main risk factors that affect them.
    We also know that many young people regularly ride ATVs 
that are much too big for them, in spite of our many years of 
focusing on trying to help them understand how to fit the rider 
to the appropriate-size vehicle. My experience, however, 
suggests that youth probably won't respond by just hearing 
someone say, ``You shouldn't ride this vehicle. It's too big 
for you. It's not right.'' Just saying no to teenagers, or 
having an official ban that says something like that probably 
isn't going to change their behavior. To date, it hasn't had 
much effect on changing the behavior of their parents either, 
or any other adult that's responsible for them.
    The 4-H Community ATV Safety Program was created more than 
20 years ago to address the reality that youth will continue to 
ride and take risks. It started as a collaboration between 
industry, the University of Alaska Cooperative Extension's 4-H 
Youth Program, as well as the CPSC and our public health 
officials in the State of Alaska. It has continued to this day 
as a major collaboration at the national level as well as in 
the many states where we operate local programs.
    The focus of our program has continued to be on 
understanding the key risk factors--they've been mentioned by 
just about everyone testifying this morning--around the use of 
the ATV protective gear, staying off roads, off the places 
alongside the roads, not riding on pavement, and making sure 
that young people have training and understand how they can 
ride a particular vehicle based on their maturity level, as 
well as their physical size and ability, physically.
    4-H, in this time, has reached more than 18 million youths 
and adults through courses, workshops, exhibits, classroom 
activities, and regular 4-H club meetings. We are supported by 
small grants from--largely from the industry. We've created 
many grant programs, where people in local communities apply to 
us for funding as a pass-through, to help them get the money 
together, and the resources so that they can do local ATV 
safety programs in their communities.
    We also have created specialized curriculum that focus on 
those risk factors and make it a fun, exciting, enjoyable way 
for young people to learn. We believe that hands-on training, 
such as the SVIA offers, is extremely important, but that we 
need to reach young people at an earlier age and in places that 
are more local and more community friendly where they can not 
only learn those messages, but then take part, as teenagers, in 
sharing those messages with other people.
    We've conducted ongoing evaluation research of our efforts, 
and documented clearly, in a document that we've provided to 
you, that those efforts are successful in changing the 
behaviors of young people. Many parents have told us that they 
didn't even understand the risk that their young people were 
placed in when it comes to not wearing protective gear, not 
having the experiential training. So, as they've learned those 
things, they've begun to take more attention to paying--making 
sure their young people have helmets and other protective gear.
    And we also emphasize youth/adult partnerships. We enable 
young people to take on meaningful roles from the beginning in 
helping design and market and deliver the safety messages to 
their peers. It's--often, as you might guess, they are listened 
to a lot more by young people than any of us would be, as 
adults.
    In short, our focus is on young people--not on products. 
However, minimum product standards were established many years 
ago, and I still call--get calls from around the country from 
people who are asking me why those products that they see 
available don't have basic information on them, why they don't 
offer training. I've actually approached--a few years ago, I 
worked a little bit with Wal-Mart to try to help them use our 
safety tips brochures, at least, at the minimum, to make them 
available when they're selling these new machines.
    In conclusion, I have several specific recommendations or 
suggestions I'd like to offer.
    One of them is, we have a very limited effort in our 
ability to offer safety training and safety education and 
awareness, because we don't have the funds, as a nonprofit, to 
do that as widely as we could. So, if we could increase that 
kind of support, I think we could do a lot more, at the most 
local level.
    I'd also like to recommend that we--public agencies promote 
modeling the behaviors we're talking about. There are a lot of 
law enforcement agencies using all-terrain vehicles. Young 
people see them all the time, and they--the law enforcement 
officials sometimes are not wearing helmets. Youth, in 1998, 
recommended that we ask the manufacturers to create a machine, 
whatever the engine size is, that everyone agrees is 
appropriate. The frame size is not appropriate for most 
teenagers. Teenage wrestlers just don't fit on these machines 
very well. And so, they're not going to ride them. They are 
going to look for something that's bigger, that's more 
appropriate, that's not demeaning, from their perspective, at 
their place in life, in high peer pressure.
    We'd also like to see more attention focused on parents, 
the people who give the young people the keys, allow them 
access to ride.
    And, last, I think all of us could really provide attention 
to giving young people opportunities to partner with us as we 
try to find ways to address the issues that we're all talking 
about here today.
    Thank you, again, for the opportunity to speak this 
morning, and I welcome your questions.
    [The prepared statement of Ms. Halbert follows:]

    Prepared Statement of Susan W. Halbert, Senior Vice President, 
                          National 4-H Council

    Thank you for this opportunity to testify about ATV safety. I share 
your deep concern about this issue. Every year, far too many people are 
injured or killed while driving ATVs. But I speak to you today 
convinced there is a viable way to dramatically reduce this problem. 
Youth-focused training programs based on sound educational principles 
have proven effective in improving attitudes and behaviors relating to 
ATV safety.
    We need these types of programs now more than ever. Since 1985, 
children under the age of 16 have consistently represented the largest 
category of people injured while using ATVs according to the Consumer 
Product Safety Commission's (CPSC) research. And there is likely to be 
an increase in the number of young ATV riders in the near future. 
According to the U.S. Census Bureau, our Nation's population pyramid 
currently bulges at the ages of 13-20.
    Clearly, we must address the main risk factors, which include 
riding without a helmet and without training, while carrying 
passengers, driving on paved roads, and under the influence of alcohol 
and/or illicit drugs. In addition, many young people regularly ride 
ATVs that are simply too big for them. Consequently, the 4-H movement 
fully supports the CPSC stance that youth under the age of 16 should 
not operate adult-size ATVs.
    While rules and regulations play a vital role in mitigating these 
risks, they are very hard to enforce. That is one reason why I advocate 
that all youth should have to complete safety training before they ride 
independently.
    I'm proud to say that the 4-H Community ATV Safety Program has been 
committed to this goal for more than 20 years. With the Commission's 
support, we've reached more than eighteen (18) million youth and adults 
through courses, workshops, exhibits, classroom activities, and regular 
4-H club meetings. These experiences are supported by small grants and 
specialized curriculum funded by private donors.
    And the results have been excellent. For example, a 2002 study 
conducted by Halley Research demonstrated that our program helped 
increase the number of youth who always wear helmets by nearly 10 
percent. I was also impressed with the report's qualitative findings. 
One participant said, ``I shared with my sister, my little brother, and 
my friends how it's important to follow the safety tips that we learned 
in the ATV school.''
    What a powerful statement! It underscores the importance of placing 
ATV safety in the larger context of positive youth development--a 
movement that provides young people with the support, the 
relationships, and the research-based experiential learning 
opportunities they need to become competent and contributing citizens.
    This philosophy is the backbone of 4-H ATV safety initiatives. For 
instance, we emphasize youth-adult partnerships, which enable young 
participants to take on meaningful roles, from preparing and marketing 
events to actually presenting safety information. It's really no 
surprise that this emphasis has played a critical role in our program's 
success--most youth are more receptive to messages about safety when 
their peers deliver them.
    I believe the youth development field is uniquely suited to deliver 
ATV safety training to young people. A 2001 national survey revealed 
that 85 percent of 4-H'ers agree or strongly agree that experience in 
4-H helps them improve their decisionmaking capabilities.
    Simple bans on the sale of such vehicles will not achieve the 
safety and education programs, the wise and careful use of the 
vehicles, and the reduction in injuries and fatalities we all seek. 
Rather, a comprehensive education and safety training program designed 
for the appropriate needs and the unique population of each area holds 
the best hope for results. Such programs will be even more effective if 
we continue to emphasize engaging youth as full advisors in the design, 
marketing, and implementation of such programs to their peers. By 
engaging young ATV users through such a ``youth-in-governance'' 
process, we experience increased enthusiasm, use, and effectiveness in 
the safety education programs local 4-H professional staff and 
volunteers administer. And we continue to find new--and more 
effective--ways for government agencies such as the CPSC to conduct 
their work in matters related to our Nation's young people.
    I encourage you to encourage the importance of education, and the 
effectiveness of local grass roots activities. One size does not fit 
all, and the changes we all seek will not come from either Washington, 
or our state capitals. Rather, a program designed for and relevant to 
the needs and interests of today's youth holds the best hope for 
progress in the Nation's 3,067 counties. The 4-H history in ATV safety 
training is remarkable for its ability to reach both youth, and their 
parents--advocating wise and safety-conscious decisions by both groups. 
I hope all of us will seek ways to enhance these efforts as the most 
effective way to accomplish the goals of safe and proper use of ATVs.
    To conclude, while regulations and legislation may be able to 
improve safety, they simply do not provide enough protection for our 
young people. Therefore, I urge the Commission to continue supporting 
ATV training programs based on sound youth development practices.
    Senator Allen, members of the Committee, thank you again for 
holding this important meeting. I'll be more than happy to answer any 
questions, either today or at a later date.

                               Appendix A

The 4-H History in ATV Safety Training
    In 1981, thanks to the initiative of a local 4-H agent, America's 
4-H movement created an ATV Safety Program. Six months of research into 
the injuries and fatalities among youth riding these vehicles revealed 
there was no organization with curriculum or programs available to 
address the problem. In 1989, National 4-H Council with support 
provided by the Consumer Product Safety Commission and American Honda 
Motor Company developed a program of safety education. Four regional 
workshops, with representatives from 37 states, developed a nationwide 
network of state safety programs. Each program recognized the unique 
diversity of their state, the typical use of such vehicles within their 
state, and the appropriate safety education program. They also 
structured such programs to reflect the unique 4-H mission and the 
teaching of life skills. (4-H has always made youth/adult partnerships, 
and the active participation of youth key cornerstones of their 
programs and curricula.)

Program Description
    The purpose of The National 4-H's Community ATV Safety Program is 
to positively influence the behavior of young people in four areas 
shown to increase their risk of ATV-related injuries and fatalities. 
These factors include:

  <bullet> The use of helmets and other protective gear.
  <bullet> Carrying passengers.
  <bullet> Riding on pavement.
  <bullet> Riding on or alongside the road.

    The 4-H program consists of a series of multi-state ATV safety 
workshops to train youth-adult teams on the principles of ATV safety, 
use of an experiential curriculum specifically designed for the youth 
age range of most concern and how to plan and implement safety programs 
at the local level. Teams usually consist of an equal number of both 
youth and adults. At the conclusion of these workshops, teams are 
encouraged to apply for grants from National 4-H Council to implement 
ATV safety training programs in their area. As a nonprofit 
organization, National 4-H Council has consistently depended on private 
donors to support training, curriculum development, mini-grants to 
communities and ongoing research.

Research
    The 4-H Community ATV Safety Program has conducted ongoing research 
and evaluation of the program since its inception in Alaska in 1982. We 
have consistently been able to document an increase in the use of 
helmets and other protective gear and decreases in all risk behaviors 
identified by the CPSC. The most recent study, conducted by Halley 
Research, LLC, in cooperation with National 4-H Council between January 
2001 and January 2003, revealed both the success of their present 
program and suggestions for further improvement in the future. In 
summary, as a result of the 4-H Community ATV Safety Program:

  <bullet> Youth increased how often they wear helmets while operating 
        ATVs.

  <bullet> Youth decreased how often they carry passengers while 
        operating ATVs.

  <bullet> Youth decreased how often they ride on pavement when 
        operating ATVs.

  <bullet> Youth decreased how often they ride on or alongside the road 
        when operating ATVs.

  <bullet> Youth reduced ATV-related injuries or accidents.

The 4-H Community ATV Safety Program Provides Community-Based Grants 
        Through Funding from the Specialty Vehicle Institute of 
        America

     2005 4-H Community ATV Safety Grant Program--Financial Summary
------------------------------------------------------------------------
                Statistics
------------------------------------------------------------------------
Number of Grants Issued                    22
Geographic Impact (States)                 20
Extensions Granted                         6
Total Grant Funds Distributed              $135,000
In-kind and Other Contributions            $78,865
Number of Youth Involved                   16,120
Number of Adults Involved                  15,149
Number of Youth in Leadership Roles        115
Age of Youth Involved (range)              7-18
Number of Newspaper Articles               48
Number of Radio Presentations              13
Number of people reached with media        498,114
 efforts
Number of Speeches, Presentations and      68
 Exhibits
Projects primarily located                 Small towns and rural areas
------------------------------------------------------------------------


     2006 4-H Community ATV Safety Grant Program--Financial Summary
  [Total Grant Funds Requested and Granted as of May 31, 2006: $99,643]
------------------------------------------------------------------------
                Statistics
------------------------------------------------------------------------
Number of Grants Issued                                              18
Geographic Impact (States)                                           16
Extensions Granted
Total Grant Funds Distributed                                   $99,643
Projected In-kind and Other Contributions                   $175,588.40
Number of Youth Involved
Number of Adults Involved
Number of Youth in Leadership Roles
Age of Youth Involved (range)                                      7-18
Number of Newspaper Articles
Number of Radio Presentations
Number of people reached with media
 efforts
Number of Speeches, Presentations and
 Exhibits
Projects primarily located
------------------------------------------------------------------------


    Senator Allen. Thank you, Ms. Halbert, for your testimony 
and your efforts--not just yours, but that of the 4-H, as well.
    Let me go with, say, 10 minutes, or 7--what do you want to 
go with?
    Senator Pryor. Either one.
    Senator Allen. All right. I'll ask some questions. Senator 
Pryor will ask some questions. We'll see if there'll be a 
second round or not.
    Let me first address these questions mostly to you, Mr. 
Buche. Mr. Williams, if you so desire, you may want to--I'm 
going to be asking about sales and compliance issues.
    Can you describe, Mr. Buche, some of the state-level 
programs that you and your members undertake? There are two 
different--several different levels here. Number one is just 
the vehicle standards, the safety-standards aspects. Mr. 
Williams explained, oh, about half a dozen different dangers in 
a less-safe vehicle than those complying with the current 
standards. The other noncomplying vehicles have: feet getting 
caught, the chain wrapping up in a cuff or the variety of 
different problems. Then you get the enforcement aspects of 
this, which, generally speaking, motor vehicles are--as far as 
things such as helmets, helmet laws--it's not a--that's not a 
Federal--you could have a Federal law, but my general view is 
that it should be left to the states to determine such laws. 
The Federal standard is more of one of the design, the 
engineering, the safety of the product sold, no matter whether 
it's in Arkansas, Virginia, Alaska, or any other state in the 
United States. Then you get the aspect of the dealers and the 
different responsibilities of someone who is actually 
distributing one of these products, and what requirements are 
there of them? In most cases, the dealers or distributorships 
are a contract between the manufacturer and whomever the 
distributor is; and those laws for distributors, for the most 
part, are state laws.
    Now, to actually get this effective, it would seem to me 
that the programs are going to have to be as localized as 
possible. The major relationship that you would have would be 
with the states. So that's what I'd like you to share with us. 
What state-level efforts are you all making to make sure that 
your members are undertaking it? And how much do you all spend, 
as an association, on safety issues? Do you recommend--Mr. 
Williams, you went through some of the training, and they don't 
have to go to a 4-H center, they can do it on their own lots, 
but do you recommend a helmet being purchased and so forth? So, 
I'd just like to hear, just operationally, how this works in 
the real world and what sort of compliance do you have in 
working at the state or local level?
    Mr. Buche. Thank you, Mr. Chairman.
    Important to note that, still, there's the Federal role--
the vehicle, as you say, is best addressed federally. To have a 
vehicle standard nationally is important. We think that the 
sales practices can also be embraced federally. And we'd also 
like to see the free training offer with purchase for all 
eligible-age family members for that vehicle that is purchased 
extended to every single buyer.
    When we move to the state----
    Senator Allen. Do you agree with that, Mr. Williams? Let me 
interrupt. Seeing how you're going to be one that would have to 
comply with such an assertion.
    Mr. Williams. I do. At that level--if offering it to the 
consumer, yes, I think every consumer should be offered--every 
buyer, every family member should be offered----
    Senator Allen. OK.
    Mr. Williams.--that training.
    Senator Allen. Thank you.
    Carry on, Mr. Buche.
    Mr. Buche. OK, thank you.
    Senator Allen. I just want to adduce testimony here 
logically.
    Mr. Buche. OK, very good.
    To look at, then, the state, we really look to the use 
issues. And just to do a quick recap, there are 5 states with 
currently no ATV legislation whatsoever. There are 20 states 
with fairly comprehensive--25 states with fairly comprehensive 
legislation, and 20 that have parts of our model state 
legislation. The quick recap of the model state legislation: 
protective gear is required--eye protection and approved 
helmet; prohibiting single--no passengers on a single-rider 
ATV--so passenger----
    Senator Allen. Some--you say that's model state 
legislation?
    Mr. Buche. This is our proposed legislation that we're 
trying to enact in every state.
    Senator Allen. You would actually propose a prohibition on 
two-seaters?
    Mr. Buche. No, the prohibition would be for a passenger on 
a single-operator ATV. Tandem ATVs, one passenger. And they're 
designed----
    Senator Allen. Oh.
    Mr. Buche.--accordingly. Next, no one under 16 operating an 
adult-sized ATV. Again, 92 percent of the fatalities with youth 
are youth using an adult-sized ATV, the terrible story we heard 
of Kyle and a 500-pound ATV. Had he been on the appropriate-
sized vehicle, that would have been 150 pounds and limited to 
15 miles per hour. So, again, it comes to use. And that's a----
    Senator Allen. Would you make that a Federal law? I 
understand the other aspects. Would you actually make that a 
Federal law?
    Mr. Buche. Well, I'm talking now specifically about----
    Senator Allen. A model.
    Mr. Buche.--state legislation.
    Senator Allen. OK, this would be what you would like to see 
the states----
    Mr. Buche. At the state level, because we're dealing with 
youths----
    Senator Allen. Right.
    Mr. Buche.--and we feel that the states have the ability to 
enforce safety provisions and certainly the youth age limits 
are critical to that. Adult supervision that--we require 
parental supervision--that's active supervision, not knowing 
that someone is out riding in the field, but watching them 
ride, to be active. It's important to remember that 16 million 
people use these products. Many are families, and they are 
riding together. The tragedies we hear of are when we see a 
youth off in a field on his own, no experience, no helmet. The 
warned-against behaviors that we've really tried to incorporate 
and address through state legislation are key. Education, in 
our model state legislation we'd like to see mandatory training 
for those under 16--not just the offer, but mandatory training. 
And some states now require proof of an ATV-course completion, 
a certificate, to show that if you're on public lands, you've 
been trained. So, certainly that is key to the model state 
legislation. We know that the product is----
    Senator Allen. Who enforces that? Game wardens?
    Mr. Buche. It depends.
    Senator Allen. But how do--on public lands, most----
    Mr. Buche. Sure.
    Senator Allen.--most--I suppose if you are in and they 
allow vehicles in the national forest--they're not going to 
allow them in too many of the national parks, but they may--
most, at least in Virginia, are on private land.
    Mr. Buche. Sure.
    Senator Allen. And so, you know, even game wardens have a 
heck of a job trying to keep track of folks, and most of these 
folks are not on roads. They may be on a road to cross a road 
to get over to some other piece of property, but mostly on 
private land. It seems to me that the states could pass such 
laws. You do have to recognize how difficult this is to 
actually enforce. And to expect a parent, who's going to let 
their kids go out, and they're going to be going into the 
woods, they'll be in the mountains, they'll be exploring 
around, they'll be going through creeks and all the rest, and 
to be watching--it's one thing if they're out in a field and 
you have 10 acres there and you can watch them in some flat 
lands, there are no trees, and it's plowed-up, you know, 
soybean field or something like that, but most of the time 
they're not in a place where parents can watch them. So, you do 
recognize, just practically that--to make a law that says a 
parent has to be supervising all the time is not likely to 
occur. It may be a desirable sort of thing, out in the real 
world, kids like to go off and explore and see things. And, 
granted, they're going to do different things.
    I think your best idea that I would emphasize is the way 
that you have these so-called ``governors'' on ATVs and having 
parents being able to figure out what sort of horsepower it can 
get--I know you have those on some of the jet skis, for 
example. And if you have those sort of controls, I think that's 
a really important safety matter, regardless of the size of--
the cc's of the engine, that parents could control that when 
the kids are out of sight.
    Mr. Buche. I would point out that, more and more, you're 
seeing ATV riding parks, states that are setting aside land.
    Senator Allen. Right.
    Mr. Buche. In California, we have the State Vehicular 
Recreational Areas. And the good thing with enforcement there 
is that the riders are riding in a specific area, enforcement 
becomes much easier. Other states are enacting that.
    Senator Allen. I see.
    Mr. Buche. I think the key is that it's a solid deterrent 
when people know the rules. The laws are communicated through 
the dealerships. And it's why the new entrant poses a 
particular challenge when they're not supporting the safety 
programs, because those people don't hear of training. If a new 
entrant purchaser comes to Mr. Williams' store, he's able to 
offer our training, the ATV Safety Institute training offered 
by SVIA, to those new purchasers. There's no----
    Senator Allen. How much do you all spend on such training, 
as an association?
    Mr. Buche. Collectively, the membership spends in excess of 
$8 million per year, and then each company spends millions in 
supporting direct training costs, advertising, communication, 
public information, education, Secret Shopper programs, which 
are conducted both by the manufacturers and the CPSC. Important 
to note that compliance issues--because that has been brought 
up--important to note there is that the offer to sell does not 
mean that that person would have made it out of the dealership 
with the vehicle. There are a number of disclosures along the 
way, other people involved in the sale, and catching someone at 
the parts counter or a salesman that may say, ``Yes, we'd sell 
you that,'' doesn't mean that delivery would take place. And 
it's key that we have responsible sales practices. We think 
Federal legislation can embrace that, as well.
    Senator Allen. All right. Now, you heard the differences in 
these--some of the ATVs that were manufactured and sold that 
the former CPSC engineers bought and tested and found 
defective, you consider that a problem, is that correct?
    Mr. Buche. It's a serious----
    Senator Allen. All right. Now, what, specifically, would 
you have us do about that? Because this is important testimony 
as to what we might consider as legislation here.
    Mr. Buche. I think one of the good opportunities is the 
ANSI standard. SVIA is the ANSI standards developer. We have 
just conducted our pre-canvas mailing. That's to notify all 
substantially interested parties that the process is in place. 
And later this year, all interested parties will be able to 
comment on that standard. That standard could be embraced, 
then, through CPSC, or even Federal legislation, to set an ATV 
safety standard. If you start with a safe vehicle, then you're 
really left to address only the use issues, but with unsafe 
vehicles in the marketplace, particularly sold to new entrants 
who are attracted by, you know, a low price, a good value, 
until they determine the safety issues--the examples we have 
before us here, this 80cc--it's a 79cc Yamaha that complies 
with the ANSI standard, the ``Ride Safe, Ride Smart'' video, 
three workbooks, speed limiters in that model--that would be 
set up for 15 miles an hour at point of delivery. The unit to 
the left, though slightly smaller in physical size, is 110cc's, 
with inappropriate--we have a list of about 14 safety 
violations.
    Senator Allen. Why don't you list them for us.
    Mr. Buche. Let's--to go through those--no front brakes--I'm 
sorry, no parking brake, no mechanical suspension, the flagpole 
bracket for conspicuity not present, it has a headlight, it 
lacks spark arrester----
    Senator Allen. What's wrong with it--what's wrong with the 
headlight?
    Mr. Buche. Well, this youth model should not have a 
headlight. That could encourage nighttime use. That's against 
the standard. That's against CPSC recommendations.
    Senator Allen. So, you agree with--I think it was Ms. 
Weintraub, or maybe it was Dr. Aitken, who said that you ought 
to have--they shouldn't be able to drive these things at night?
    Mr. Buche. Well, we're anxious to discuss that, and we 
think the CPSC rulemaking process will allow industry and other 
interested parties to comment on without the light and riding 
at night, whether you're in more danger. So, I think that's yet 
to be determined. But as this----
    Senator Allen. Carry on with the other----
    Mr. Buche. As the current----
    Senator Allen.--violations.
    Mr. Buche.--standard would allow, this is an inappropriate 
vehicle. The brake performance was key. And, important to note 
here, in particular, this vehicle went almost 30 miles an hour, 
an arithmetic average of 29.1 miles per hour, as set up and 
delivered in a crate to the home of one of the experts who 
tested it. So, there are a number of failures here. There was a 
flat tire. Three of the tires were overinflated, which also is 
against the standard. It's important that these are low-
pressure tires for best traction and compatibility in an off-
road environment. The delivery failed, in that it was delivered 
without proper setup. The speed-limiting device, I mentioned. 
The performance requirements, does not have an ATV parking 
brake. And it started in gear, so that as you start it, you 
could go in motion right then. There's an interlock on 
compliant products. So, there were a number of failings, 
including the delivery, including the lack of safety support 
programs; and, of course, no offer of free training with 
purchase.
    So, this is a very serious matter. This market is growing. 
The chart over here is from one of the trade publications. We 
would put the volume at about 20,000 more units each year, but 
a similar trend. So, this will only exacerbate the problem. 
Again, if you start with unsafe vehicles and factor in the use 
issues, we've got a serious complication here that we think 
Federal legislation could address with an ANSI safety standard.
    Senator Allen. Thank you, Mr. Buche.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start, if I may, with Dr. Aitken. I'm curious about 
the types of injuries you've seen in your practice, in the 
emergency room, et cetera, there at Arkansas Children's 
Hospital. You mentioned face lacerations, and you also 
mentioned head injuries. On the head injuries, would helmets 
have made a significant difference there?
    Dr. Aitken. Unfortunately, helmet use is not very 
widespread at all. I did--I can give you one anecdote, though, 
where I'm sure the helmet saved the life of a child. I was 
seeing, actually, the boy's sister in the clinic, and noticed 
that this 11-year-old had an incredible amount of abrasions and 
lacerations and an arm in a cast, and he told me that he had 
come off his ATV. He was riding with another child and suffered 
a concussion, despite the use of a helmet. He later sent me his 
helmet, which had a crack in it. So, I'm convinced that that 
had a significant role in his survival. And--but, 
unfortunately, in the ER and in the in-patient setting, we see 
very few helmeted patients at all at Arkansas Children's 
Hospital.
    Senator Pryor. I assume you see a lot of broken bones?
    Dr. Aitken. Yes, there are a lot of broken bones.
    Senator Pryor. And what about neck and spinal injuries?
    Dr. Aitken. We definitely see those. And those are amongst 
the most serious injuries we see. Again, the head injuries are 
most common, and they can range from concussions to very 
serious injuries that can kill a child and certainly have 
lifelong disability. The orthopedic injuries can be very 
complicated--pelvic fractures or femur fractures that can 
sometimes require multiple surgeries. We also see, as I 
mentioned, some--we've seen several recently--very dirty wounds 
that require surgery every couple of days until they're fully 
stabilized.
    Senator Pryor. And I assume some of the complex injuries--
complicated injuries you're talking about are the result of 
crushing, where the ATV falls on the person?
    Dr. Aitken. Right. One of the most common mechanisms for 
injury that we see--and, again, 60 percent of the injuries we 
see occur on roadways, not in--not on unpaved surfaces--are 
when the child is either hit by another motor vehicle, usually 
a car, or the vehicle flips onto the child and causes severe 
injury.
    Senator Pryor. That's interesting. So, you estimate about 
60 percent of the ones you see are on roadways.
    Dr. Aitken. That's what we see.
    Senator Pryor. Is that also may be due to the fact that 
they get on a roadway, and it's flat, and they can really open 
up?
    Dr. Aitken. I think that's part of it. And the visibility 
issues. And--I mean, if a car interacts with an ATV, the car 
will win. And, unfortunately, we see that frequently.
    Senator Pryor. OK. Let me ask about the parents of these 
children. When you talk to parents, are they surprised that 
their children have been hurt? Did they go through the safety 
training? Were they aware how fast the vehicle could go, or how 
dangerous it was? Give us your general impressions.
    Dr. Aitken. Many of the parents express surprise at the 
severity of the injuries their children have sustained, really 
didn't seem to understand the inherent instability of the 
vehicles in the hands, especially, of the younger children. And 
they--most of the folks--we've done focus groups with adult and 
youth ATV riders to try to frame our safety campaigns that 
we're doing, and, of the 50 or so people we interviewed, only 
one had undergone the training, and she was a middle-aged 
woman, who was probably not the riskiest driver that we 
interviewed. So, it is--many of the parents have not received 
any of the training, and the children have not, at all.
    Senator Pryor. And I know you've been involved in trying to 
raise awareness of ATV safety in Arkansas. Tell us some of the 
things that you've done in Arkansas to try to prevent ATV 
injuries.
    Dr. Aitken. There have been several things. We've had an 
active workgroup at Children's Hospital since about 2001, when 
we became aware in the late 1990s, of the doubling in the 
number we see at the hospital. And, as I said, we have not just 
medical people, we do have some industry representatives that 
have been very, very helpful in making sure that we're aware of 
the practical issues involved. We have done public service 
announcements and educational campaigns that have been 
statewide, but also focused on a couple of high-risk counties 
in the mountainous parts of the state to make sure we engage 
with hometown health improvement committees and other groups 
that can begin to really inform parents better.
    Senator Pryor. By the way, Mr. Chairman, just so you know, 
Arkansas Children's Hospital doesn't just focus on ATV safety. 
They have a lot of carseat safety and a lot of other safety 
programs where they try to educate the public.
    Also--and this may be a little bit beyond your area of 
expertise, Dr. Aitken, but I know the American Academy of 
Pediatrics is very concerned about this--does the AAP have a 
set of recommendations where they'd like to see alterations in 
the design of ATVs? In other words, do they have a list of 
things, like weight limits and governors and brakes and 
headlights and all those? Do they have a set of agreed-to 
things you'd like to see in design?
    Dr. Aitken. Yes, there is a policy recommendation that was 
published in the 1980s, and then renewed in 2001, which has 
some general recommendations about safety equipment. We 
certainly would encourage, if possible, the further study of 
roll bars and safety belts so that if the children--if the 
vehicle does roll, there will be some protection against the 
crushing injuries; some of the factors to make them more 
visible. But, again, the main message that we have promoted is 
that children are sometimes physically too small to ride these 
vehicles. And, even if they're physically large enough, they 
may not have the maturity or judgment to really ride them 
properly.
    Senator Pryor. Does AAP recommend that there be a ban on 
people under 16 operating ATVs?
    Dr. Aitken. That has been the recommendation, that children 
under 16 be discouraged from riding the vehicles.
    Senator Pryor. OK. In my time remaining, Mr. Buche, I want 
to ask a follow-up on one of the Chairman's questions, just so 
I'm clear in my mind. There's a so-called 2-Up ATV, which is 
apparently an ATV that's actually designed for two people. If I 
understand what you're saying, you think that single-rider ATVs 
should only have one rider; but, if you have one that is 
designed for two people, do you think that's OK for them to 
ride that way?
    Mr. Buche. Yes, we do.
    Senator Pryor. And----
    Mr. Buche. In fact----
    Senator Pryor. Go ahead.
    Mr. Buche. Yes, we do. In fact, there are a couple of 
iterations, the fore/aft--in other words, front/back--seating. 
And there are newer products coming that are side-by-side. So, 
they are designed for two, and they work quite well. And we 
conduct the training for those vehicles, as well.
    Senator Pryor. Do you prefer legislation or regulation?
    Mr. Buche. We truly believe that we're here to ask for 
legislation. We believe that the Federal Government could act 
to make sure safe vehicles are available and only safe vehicles 
are available, to the U.S. consumer. We'd take that even a step 
further to say that sales practices could be embraced and a 
requirement, federally, that the offer of free training for the 
purchaser of the vehicle, and all eligible-aged family members, 
so that the people have the best chance to get training.
    I might also note that we offer training before the 
purchase. If someone's thinking of an ATV, we want to determine 
if it's right for them, we charge $75 for youth, and $125 for 
those 16-and-over. For those under 10, we require that the 
parent stay for the entire class, and we actually teach the 
parent how to be a good, active supervisor. So, there should be 
no excuse for not getting the training. In our view, the only 
constraint to training is demand. There is a lack of demand, 
and we make numerous calls to every purchaser of our member-
company products enticing them to take the training, and, in 
fact, offering cash incentives or gift certificates back to the 
retailer as an incentive.
    Senator Pryor. Do you believe that the training should be 
mandatory? In other words, before the sale can be completed, 
they should complete the training?
    Mr. Buche. We think, federally, if you could act to 
encourage the offer of free training by the manufacturers and 
distributors; and, at the state level, we encourage mandatory 
training for those under 16, and we think that's where the 
state could get involved, in that they would be able to enforce 
that.
    Senator Pryor. As I look at the possibility of legislation, 
or even regulation, I see a couple of goals. One, obviously, is 
safety. Clearly, that's a huge goal of what legislation or 
rulemaking could accomplish. But, also, I do think there is a 
level-playing-field argument here, that certainly you can bring 
to market much cheaper vehicles that don't have all the safety 
equipment on it, and it would entice consumers to buy that. So, 
as a matter of fairness, I think that we ought to consider 
leveling that playing field so everybody's playing by the same 
rules.
    Ms. Weintraub, let me ask you, if I may, is it your belief 
that the U.S. ATV industry has been voluntarily complying with 
the standards put forth in the 1988-1998 consent decree? Do you 
think they are continuing to comply with that?
    Ms. Weintraub. No. In fact, we think there's not only 
widespread noncompliance, a lack of enforcement, as well as an 
inadequacy of the standards as they exist now. Our concern with 
the import issue is that it would be requiring a level playing 
field for a playing field that's inadequate, basically. So, we 
think there is a lot of work to do to improve the ANSI 
standard, make the ATV action plans enforceable, have the 
Consumer Product Safety Commission actually release the 
compliance numbers, which were redacted from the 2005 briefing 
package. We still don't know what actual compliance is with the 
voluntary action plans.
    Senator Pryor. OK.
    Mr. Chairman, I have a few more questions, but I'll wait 
until the second round.
    Senator Allen. No, no.
    Senator Pryor. Are you sure?
    Senator Allen. Well----
    Senator Pryor. Why don't you go, and I'll wait for the 
second round.
    Senator Allen. All right. Thank you.
    Mr. Buche, let me bring this up with here again. Ms. 
Weintraub, I believe, was talking about how many ATVs were 
recalled, for a variety of reasons. There were two or three 
significant reasons with it. These recalls are voluntary 
recalls, I think Ms. Weintraub said. Do your companies initiate 
these voluntary recalls?
    Mr. Buche. Yes. The matter of recalls, I think--the matter 
of recalls, in fact, points out that the system works. These 
are voluntary recalls by the manufacturers. They are made 
immediately upon any opportunity to improve the product or make 
an adjustment. They're done at no expense to the consumer. And 
it's important to note that there's a reliable reputable 
dealer, much like Mr. Williams, about 7,000 dealers nationally, 
where that product may be taken back to a dealership of that 
brand to correct any problem that was found with the vehicle.
    Senator Allen. Do you--I know you're looking at the ATV 
industry--do you know of any other product that has that level 
of recalls for repairs or defects?
    Mr. Buche. I really couldn't compare to other industries, 
but I am very proud of our member companies and the 
responsibility they take to make sure that consumers have good 
and safe product, and they support that after the sale.
    Senator Allen. Now, you heard Mr. Williams and what Coleman 
PowerSports does, as far as the training onsite. Is that fairly 
unique? And, if it is unique, do you partner with any other 
agencies? Do you work, for example, with 4-H in any places? 
Because I'm not sure every one of your hundreds and hundreds of 
dealerships are all the same as Coleman PowerSports in having 
those capabilities, especially if they're in city areas, having 
a lot of land around there. It costs a lot of money. So, how do 
your other dealerships or your members handle training?
    Mr. Buche. Great. The ASI, the ATV Safety Institute, is a 
division of the SVIA, and it offers the free training on behalf 
of all of our participating member companies, every single SVIA 
member. We do make the Try Before You Buy Program available. 
That's available to all. And many----
    Senator Allen. What--the what program?
    Mr. Buche. The Try Before You Buy. In other words take the 
training course----
    Senator Allen. Oh, Try Before You----
    Mr. Buche.--before you buy the vehicle. That may help you 
determine if ATVing's right for you or your family. Many 
dealers--I think it's important to remember, these are small, 
independent businesses in the community. They are active 
enthusiasts, often riding with their customers. And they take 
safety and their responsibility in the community very 
seriously. The Secret Shopper Program exists to offer an 
additional incentive to do the right thing all the time. I'll, 
again, reiterate that, though the relationship between the 
dealer and the manufacturer is between them, and the 
association is not involved, we are aware that dealers have, 
when acting improperly, lost the ability to sell that product. 
Again, testimony to how seriously these member companies take 
their responsibility to the American consumer.
    Senator Allen. Well, let me ask you this, then. Again, Mr. 
Williams, I'm going to pull you into this. You mentioned 
another company that is selling these less safe, more dangerous 
ATVs, or those with fewer safety devices on them, and they're 
selling everything from--they're not in motor sports. And I 
don't want to repeat the name of the company, because it's--you 
did.
    [Laughter.]
    Senator Allen. And I--you know, I'm just listening to your 
testimony. It doesn't need to come out of my mouth. As a 
practical matter, you're dealing with an inherently--a 
product--it's not as dangerous as a chainsaw, but it is--just 
like any other motor vehicle, there's a risk to operating any 
motor vehicle. In the event--just--this is in a very litigious 
society--would those who are selling, number one, a vehicle 
that, at the outset, is not meeting these voluntary standards--
would that cause added liability for whomever the manufacturer 
is, but what they're going to go to first is not some company 
in China, which will probably be very hard to get after, unless 
they have some assets here, but they're going to go after that 
person who actually sold that product that is less safe than 
the voluntary--they're--granted, let's say, right now, they're 
voluntary; let's assume, then, they're mandatory standards--
would they not incur liability on the part of a parent if--or 
any purchaser by engaging in the sale of, one, a less safe 
product; two, a product that does have certain risk to it, and 
being neglectful--I'm just thinking of the creativity of 
lawyers--but selling a product, and it did not offer any 
training, no questioning as to who's going to operate this, and 
any instruction on how that product would operate--do they 
not--maybe you could--Mr.--I'm going to ask Mr. Williams that, 
but, Mr. Buche, you may know what kind of lawsuits might have 
been filed across the country in these sort of situations. But, 
go ahead, Mr. Williams.
    Mr. Williams. Well, I would just say the simple point of 
fact, yes, it would leave them very open to that kind of 
litigation, you know, against them, where--every manufacturer 
we have has continuing liability clauses in our dealer 
agreements, so if something does go wrong with a product, or 
somebody is injured, Yamaha will also, you know, defend its 
product and speak on behalf of the dealer. If there was a 
product defect, there's that continuing liability, moving up a 
chain with a major distributor and people that can step forward 
if something did go wrong. Where, with these, there are none. 
If there is a distributor at all, it's often a distributor of, 
you know, many other kinds of products, canoes and kayaks. They 
might just be a private, kind of, road-rep, road-warrior kind 
of guy that sells these things out of a trailer, and if they--
you know, they'll--you'll see these makes, kind of, change 
their name of make with the--this one being the Longchang, and 
then there are Pandas and things, and they'll all look the 
same. And the name changes about every 6 to 8 months. And we've 
wondered how many times that has come because of a lawsuit of 
some form or another, so that manufacturer just goes away, and 
now it has been rebadged as something else, and it's a new 
manufacturer with the exact same unit.
    Senator Allen. What are your experiences with such 
litigation, Mr. Buche----
    Mr. Buche. While I'm----
    Senator Allen.--what you're seeing across the country?
    Mr. Buche. While I'm not aware of litigation, specifically, 
I think we look to marketing practices and, as Mr. Williams 
said, the change in company names. We've identified over 400 
companies in China and Taiwan that say they manufacture and 
distribute ATVs. We don't know how many of those are truly 
independent, distinct manufacturers. But I think we look to a 
couple of things. We look to their claims. And they claim they 
send hundreds of thousands of vehicles to the U.S. And we look 
to their marketing practices, their lack of support, and the 
lack of offer of training. And I think this one example, here 
to my right, just points out, on the top, how our member 
companies promote their product, and the listing of free 
training promotion of the adult supervision, proper riding gear 
complying with ATV size recommendations for ATVs for youth, 
speed restrictions, and the educational safety programs, and, 
on the bottom, one of the new entrants--this is pulled from a 
website, similar pictures in owners' manuals--I'm not great at 
guessing age, but I would put this child at 3-4, maybe, at 
best--an owner's manual that shows a barefoot rider in a 
swimsuit on a large vehicle. So, we look to their marketing 
practices, and we look to the lack of support, the lack of a 
resident address for the corporation in the U.S., a number of 
product names, and then we compare to those complying products 
and these leading companies.
    Some have worried that this could smell of protectionism. 
We would say, ``Absolutely, the protection of the U.S. 
consumer.'' And we're proud of our member companies. We want to 
level the playing field, but we want to level it at our level, 
and we're proud of that.
    Senator Allen. Well, your member companies are not just 
U.S. companies. I guess Polaris is American, but Bombardier is 
Canadian, and obviously Yamaha and--what--many of them are 
Japan-based companies. I don't know if----
    Mr. Buche. Right.
    Senator Allen.--there's any other--I don't know if Brazil 
or Germany or France makes these, but----
    Mr. Buche. Japan-based. But, I think, also important to 
note that most adult-sized ATVs are manufactured here in the 
United States, with plants by Japanese-owned companies, but 
American subsidiaries. So, again, these are, in all intents and 
purposes, American companies distributing safe and responsible 
products, marketing responsibly to our fellow U.S. consumers 
and riders.
    Senator Allen. All right. One other thing. On the 3-
wheelers, are they being manufactured any longer?
    Mr. Buche. Not by the responsible companies. We have yet to 
actually acquire from a new entrant, but we understand that 
there are plans, or rumors, of 3-wheel product coming in from 
new entrants. The manufacturers--the leading manufacturers 
voluntarily agreed, in the late 1980s, to discontinue sale of 
3-wheelers, and they have done that, with no manufacturing or 
marketing. But, again, concern with a new entrant which will 
bring anything that they think might sell. Some of these 
companies--in our research, we've found ATV companies whose 
other line of business is to manufacture lawn and garden patio 
furniture, a number of industries where they----
    Senator Allen. Well, you can----
    Mr. Buche.--simply put an engine on a frame.
    Senator Allen. Yes, but I wouldn't criticize the company 
because they do a lot of different things. John Deere has 
tractors, or lawn tractors, and they may be good at motorized 
vehicles, as well.
    Mr. Buche. We're just concerned about their commitment to 
the market and the U.S. consumer.
    Senator Allen. Now, Ms. Weintraub said that those 3-
wheelers that are presently, however many 3-wheelers may be out 
there still, ought to be recalled. Ms. Weintraub, who is to pay 
or compensate the owners of these 3-wheelers? And how many of 
them are out there? I----
    Ms. Weintraub. Well----
    Senator Allen.--the industry has recognized that 3-wheelers 
are inherently more dangerous than a 4-wheeler. It's just a 
matter of----
    Ms. Weintraub. Which----
    Senator Allen.--physics and balance. But how many are there 
out there, and who would compensate the owners for the taking 
of that 3-wheeler?
    Ms. Weintraub. Well, I know that according to the most 
recent data from CPSC, in terms of injuries, 3-wheel ATVs are 
responsible for about 10 percent of injuries. So, they're still 
on the market, through the used market, which is rather 
substantial in the ATV industry. Many of the--my understanding 
is that the manufacturers of the 3-wheelers in--before new 
production was banned--remained the same manufacturers who are 
now manufacturing 4-wheel ATVs. So, I think it's those 
manufacturers, to the extent that they do exist, which I 
believe they do, in large numbers, they would ultimately be 
responsible for the cost of the recall.
    Senator Allen. I would guess that the folks at Coleman 
PowerSports, and the industry, generally, would not want to be 
buying used 3-wheelers.
    Mr. Williams. Let's be really selfish. As a dealer, I would 
sell a lot of 4-wheelers that way, if Yamaha has to buy it 
back. I just think it's a really bad idea, in general, but--the 
same with these, on selfish note. There's nothing stopping us 
from becoming retailers of the off-brand kind. So, 
protectionism at the dealer level almost doesn't exist. If I 
want to sell these, I can. You know, they don't have franchise 
agreements, so I could call Panda and have, you know, 300 of 
them delivered, and put them together, and start selling them 
as such--there's no--as a matter of fact, there would probably 
be some economic plus to selling them, because of their low 
cost and their lack of an established MSRP. Dealers can really 
sell these for whatever they wanted to, because there's no 
market--you know, you don't know the off brand, you don't know 
what its market is, you don't know what it would sell for. But, 
in the end, you know, unless you wanted to start reducing your 
customer base by selling something like this, it's just not a 
good idea.
    Ms. Weintraub. Chairman Allen, if I may.
    Senator Allen. Yes, Ms. Weintraub.
    Ms. Weintraub. I mean, if the issue that we're all working 
on here is safety, I think it makes sense to get a vehicle that 
people agree--which is--really is universal among all different 
stakeholders--that the 3-wheelers are hazardous. Whether 
they're more hazardous than 4-wheelers is another story.
    Senator Allen. Well, they are more hazardous than 4-
wheelers. I think that's understood, just a matter of physics 
and--the difference in driving--I don't know if you've ever 
driven these things, but a 3-wheeler doesn't operate like any 
other vehicle you drive. It doesn't operate like a motorcycle 
or a bicycle. And a 4-wheeler is like a wide-track motorcycle, 
in many respects.
    Ms. Weintraub. In terms of stability, I completely agree; 
however, in terms of looking at the data, the death and injury 
numbers are almost what they--with 4-wheelers are almost what 
they were with 3-wheelers in the late 1980s. So, in terms of 
pervasiveness of an impact on American consumers, the 4-
wheelers seem to be at the same level as 3-wheelers. But I 
think, going back to recalling, I mean, we advocated for a 
recall at the time the consent decree was put into effect, and 
we thought that made a lot of sense. If, you know, CPSC felt, 
at that time, that these ATVs were so dangerous that they 
should be considered an inherently dangerous substantial 
product hazard, then banning them from new production was a 
very important step, but it didn't solve the problem of all the 
vehicles on the market. And, as time has shown, it has been 20 
years, and these vehicles are still having an impact on death 
and injuries across the country. So, I think, to close the 
loophole----
    Senator Allen. Did you find--do you know of any analogy 
that--of where--for example, I'm going to use chainsaws again. 
Chainsaws are much safer than they were 20 years ago, but a lot 
of chainsaws are still working--you keep them oiled, sharpen 
the chains, you know, repair the parts, if you can find them--
and so, does that mean--but where--has a product, like a 3-
wheeler, not--even a Pinto--they had the lawsuit on the Pinto. 
They didn't--Ford wasn't forced to, ``Here, we're going to go 
and buy all these Pintos,'' or the Chevy Novas, way before your 
time. I just vaguely remember, as a young pup, myself. Where 
else has a government commanded a private company that sold a 
legal product to actually then buy them back and compensate 
that owner? Maybe there is an analogy. You may know. I'm just--
seeing if there's any precedent for such a command.
    Ms. Weintraub. Well, the vast majority of the recalls at 
the Consumer Product Safety Commission are actually voluntary, 
so it doesn't have to be a mandatory action. In fact, the ATV 
manufacturers who produced the 3-wheelers could voluntarily 
say, you know, ``In our interest to protect the safety of 
American consumers, we want to voluntarily recall these 
products.''
    Senator Allen. Fair enough. That's not the government 
commanding them, and they----
    Ms. Weintraub. Right.
    Senator Allen.--could do it, if they so desire.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Weintraub, let me ask, on the 2-Ups, does the Consumer 
Federation of America believe that they should be included in 
the definition of ATV?
    Ms. Weintraub. It's a complicated question. Ultimately----
    Senator Pryor. That's why I asked it.
    Ms. Weintraub. Yes.
    [Laughter.]
    Ms. Weintraub. Ultimately, you know, we--with this whole 
discussion, we have some philosophical concerns about the 
existing standards, about whether they are adequate. We also 
have concerns that ATVs inherently, because of their wide 
seat--or long seat--seem to encourage dual passengers, even 
though they're not designed for dual passengers. So, our 
concern is that having a vehicle specifically designed for two 
passengers may impact the occurrence of more than one passenger 
on a 1-Up, on a machine designed for one person.
    So, that's sort of our philosophical concern. However, if 
there are going to be 2-Up machines on the market, we would 
hope that they would, you know, at least be required to meet 
the same standards, even though we think there needs to be more 
effective standards. So----
    Senator Pryor. So, if they're going to be in the 
marketplace, you'd like them to be regulated or covered by a 
rule or statute.
    Ms. Weintraub. Yes. I mean, they're virtually not 
regulated. The system is voluntary. But, yes, we would want the 
voluntary standards. So, the existing safety regime, voluntary 
as it is, inadequate as it may be, to at least cover tandems, 
if they're going to be on the market, yes.
    Senator Pryor. Mr. Buche and Mr. Williams, I just have an 
observation for you. I have a popular magazine, which says it's 
the number-one sport-quad magazine, which I take their word for 
it that it is, called ATV Sport.
    [Laughter.]
    Senator Pryor. As you notice, there are all kinds of 
pictures of people having lots of fun on ATVs. One thing I 
notice is, a major manufacturer has in their ad, racing and 
fun. In fact, there are two ads, back to back. And, there is a 
lot of fun, a lot of great stuff going on here. But then, when 
you read the fine print, that's where the safety stuff comes, 
and it's so small that you just don't notice it unless you're 
really looking for it. But one thing I noticed in here is, it 
does give you some basic safety information. It says, ``ATVs 
can be hazardous to operate. For your safety, always wear a 
helmet, eye protection, and protective clothing,'' and all of 
that's good, ``always avoid paved surfaces,'' which we talked 
about a few moments ago, ``never ride on public roads, never 
carry passengers or engage in stunt riding.'' You know, all 
that's good. But the problem is that even though it says, 
``don't engage in stunt riding,'' almost every picture in this 
magazine has them jumping over things and popping wheelies on 
the cover and--you know, so, it's just an observation that it's 
a balance that I think the manufacturers and the promoters of 
the sport need to strike, in terms of pushing safety out there. 
These things can be dangerous, and, obviously, there are lots 
of injuries that occur. And I would just, sort of, caution the 
industry to think about, you know, how the industry is 
presented.
    Mr. Williams, I do have a couple of questions for you. And 
we have these two models here on the floor today. And I assume, 
given these two models, you like the Yamaha. Is that right?
    Mr. Williams. Yes. Yes, of these two.
    Senator Pryor. And I think that you've mentioned, just 
briefly, some of the things you don't like about the Longchang 
model, and some of them are safety, but let me ask about some 
of the less expensive imports you see. You mentioned, in your 
testimony--what do you see--when these less expensive imports 
come into your shop, you know, some on a trade-in or some 
people want to get them fixed or whatever--what do you see? In 
my limited experienced with them, and hearing what some of the 
witnesses have said today, it sounds like there might be some 
design problems with them, some craftsmanship problems, just 
inconsistency in engineering? What do you see----
    Mr. Williams. Sure.
    Senator Pryor.--when you see them in your shop?
    Mr. Williams. It really does run the gamut. I would say 
that the biggest portion would be electrical, ignition 
systems--the little CDI box, or the computer that tells the 
unit how to run--failing, and then not being able to get that 
part again. A lot of ignition systems going out, lighting 
systems that don't work properly. I actually have a 
disagreement with some of the industry about headlights, 
because if you've ever ridden on, you know, a pathway, whether 
it's real dusty and things like that, headlights really let you 
know somebody else is coming at you. They don't necessarily 
promote nighttime riding. I think they're a safety, to have 
lights on both sides. But they often don't work on these. And, 
when they don't, you know, it's hard to take the hard stance 
and tell somebody you can't work on their unit, but, at the 
same time, it's hard to put a technician on a 3-hour diagnosis 
to find some mystery electrical problem, where he bought the 
unit for $900, and I'm going to charge him $700 to fix it. 
That's just not going to fly. So, we really try hard to trade 
them out of those and onto one of the more reliable 
manufacturers that we can then service.
    Senator Pryor. So, it sounds to me like there are a variety 
of problems with them, safety being one, but other mechanical 
problems as well.
    Mr. Williams. Broken parts, bolts that break off, things 
like that, a lot of it's pot metal instead of steel.
    Senator Pryor. OK. So, it sounds like you would not want 
your family on one of those.
    Mr. Williams. Absolutely not.
    Senator Pryor. Is that fair to say?
    Mr. Williams. Yes.
    Senator Pryor. The other thing I was going to ask is, I 
hope you didn't find it offensive a few moments ago when I 
called that the ``El Cheapo.''
    Mr. Williams. No, it is, I guess. You know, I mean--and the 
hard part is telling consumers that they don't have that 
option, you know, if somebody does want to--you know, it's hard 
to say it when a youth model is involved. You know, if an adult 
wants to go and buy a substandard unit to go ride on, because 
he's--he doesn't care as much about safety, or thinks he's 
going to ride it less or something, I don't care. It's when a 
parent says, ``Well, you know, my son really doesn't ride it 
that much,'' or, ``It's not that big a deal,'' you know, and I 
start thinking, ``Well, it's not that a big a deal until he 
kills himself on it,'' you know, and then it'll be a very big 
deal. So, yes, I do become concerned when it's out there for--
you know, the youth isn't the one that's going to buy that 
unit. He's not making the decision as to what's safe or what's 
not.
    Senator Pryor. And your company does not sell these cheaper 
imports, but is it your understanding that other dealers may be 
starting to sell those?
    Mr. Williams. Many dealers have, kind of, caved to picking 
up the lesser expensive brands, just to at least have them 
available.
    Senator Pryor. Because they want something in that price 
point?
    Mr. Williams. Yes, absolutely.
    Senator Pryor. OK.
    Mr. Chairman, that's really all I have. I actually have a 
few other questions, if I can submit those for the record, to 
save everybody some time.
    But one thing I would say to the panel here, to all the 
panelists, is, if we are going to push legislation, it would be 
very, very helpful for the members of the panel to really sit 
down and work through some legislation, so there might be some 
consensus on what that might look like. And I know that we have 
a range of views here, but it would be awfully helpful to us, 
here in the Senate and in the Congress, if we could find 
something that we could all support and could feel good about.
    So, with that, I just want to thank the panel for being 
here; and thank you, Mr. Chairman, for doing this.
    Senator Allen. Well, thank you, Senator Pryor. And I, also, 
thank all our witnesses, Ms. Leland and this panel, as well, 
for your interest and work in attempting to address this issue 
in a proper way, in a proper jurisdictional way, dealing with 
ATV safety.
    One thing that is clear from this is, you don't have to 
wait around for Congress or any state to act. Parents need to 
be responsible. There is a value in having this hearing, the 
fact that it's covered, and it'll be covered in the media, that 
parents may actually pay greater attention. Hopefully, they'll 
buy from responsible dealers, but also recognize that their 
most cherished loved ones, their young children, or others who 
may be driving on these vehicles, need to have safety training. 
They can be dangerous. They're a lot of fun. And, again, I 
don't want to outlaw fun. And nor should any government outlaw 
fun. But people do need to be personally responsible. And it's 
hard to say, ``Well, gosh, if 15, 16, or younger kid ought to 
be responsible,'' sure, he or she should be, but, ultimately, 
it's the parents purchasing these ATVs.
    And so, the one thing that I think we've discerned from 
this is that, at a bare minimum, there ought to--where there is 
a consensus on what the safety standards ought to be on these 
vehicles, ought to be uniform throughout this country, because 
it seems to me that's just--it may be not enough for Ms. 
Weintraub or Dr. Aitken in it; however, it is something that 
does make some sense, because there shouldn't be an 
unreasonable risk to injury or even death. I think we've heard 
some good, reasoned analysis today on ways that the Federal 
Government may, along with the states, assist in educating 
parents. The dealerships are going to be involved in this, as 
well, in your responsibilities on proper ATV safety 
precautions. And I'm glad to hear there's at least somewhat of 
an agreement here as to compliance, insofar as the ATV market 
here in the United States. It does make sense, if you're going 
to sell an ATV here in this country, to have certain safety 
requirements.
    And as far as the practices and the rules and regulations, 
a lot of those, where appropriate, ought to be at the state 
level. There will be some at the national level.
    But, again, I think this hearing has increased public 
awareness. And that, in itself, is the most important aspect of 
it. It is a shame that you'd have to have Federal--I'm one who 
generally does not like more regulations. I don't like more 
laws. The Consumer Product Safety Commission is moving in this 
regard, but sometimes agencies have limited ability to make it 
enforceable. And so, we're going to work with the good research 
from the Consumer Product Safety Commission. I think Ms. 
Leland's very knowledgeable and could be helpful to us, as 
well, Senator Pryor, as--in the event that we decide to move 
forward with legislation, we want to do it in a considered and 
measured way, with, in my view, minimal intrusion, but also 
making sure that there is that--I don't call it so much a level 
playing field, but minimum standards, safety standard, insofar 
as the manufacture of these vehicles that are being sold here 
in the United States.
    So, I thank, again, you, Senator Pryor, for your interest, 
your leadership, and also our witnesses, for your testimony and 
the time you took to prepare your testimony. And we look 
forward to working with you in the months and years to come. 
This hearing is adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

       Prepared Statement of Edward J. Heiden, Ph.D., President, 
                           Heiden Associates

ATV Recall Analysis
    At the June 6, 2006 hearing of the Senate Commerce Subcommittee on 
Consumer Affairs, Product Safety, and Insurance, a representative of 
the Consumer Federation of America presented testimony regarding all-
terrain vehicle (ATV) recalls between June 2000 and November 2005. 
Following your testimony on behalf of SVIA at the hearing, the 
Subcommittee Chairman, Senator George Allen, asked how these ATV 
recalls compared to recalls of other products. You indicated you would 
provide a response for the hearing record.
    At your request, Heiden Associates has conducted an analysis of the 
number of units, incidents and injuries involved in ATV recalls during 
the specified time period. Attached are three exhibits summarizing our 
analysis of how ATV recalls compare to other consumer product recalls 
announced by CPSC press release or recall alert between June 2000 and 
November 2005.
    Table 1 one provides summary information on recalls for the 31 
product categories in which there were three or more recalls announced 
that collectively involved at least one million products. ATVs, with 
1.21 million recalled products, ranked 27th on this list of 31 product 
categories.
    Table 2 ranks the recalled product categories by the number of 
reported incidents per 10,000 products recalled. The list was confined 
to product groups with recalls of 5,000 products or more. ATVs ranked 
24th out of the 42 product categories with incident rates of 10 or more 
per 10,000 affected products.
    Table 3 ranks categories of products in terms of the number of 
injuries per 10,000 products recalled. The list is also restricted to 
product groups with recalls of 5,000 products or more. There were 72 
categories of products with injury rates of 0.5 or higher per 10,000 
affected products (or one per 20,000 affected units). ATVs ranked 59th 
out of the 72 product groups on this list.
    This analysis indicates the ATV recalls from June 2000 to November 
2005 involved fewer units collectively, and are characterized by lower 
incident and injury rates per 10,000 affected products, than is the 
case for recall programs involving many other significant categories of 
consumer products during the same time period. These results, 
especially those in Table 3, support the view that the ATV recall 
activity was largely preventive and precautionary. In fact, there were 
no injuries reported in 31 of the 47 ATV recall notices for which this 
information was available, and no product incidents were reported in 18 
of the ATV recall notices.
    We also extracted and reviewed recall announcements from the NHTSA 
vehicle recall database for the same time period of June 2000 to 
November 2005. It is not possible to separate these recalls into those 
involving cars or trucks specifically without reviewing and coding the 
individual program descriptions. However, there were 944 car and truck 
recalls reported in the NHTSA database which involved 10,000 or more 
units in the recall. The total number of affected vehicles included in 
these recalls was nearly 115 million. In comparison, the 1.2 million 
ATVs included in the 48 recalls conducted during the same time period 
seems very small.

         Table 1--Product Recalls by Number of Recalled Products
  [Recalls Announced June 2000-November 2005 w/ Press Release or Recall
                                 Alert]
------------------------------------------------------------------------
          Product            Recalls    Products    Incidents   Injuries
------------------------------------------------------------------------
cigarette lighters                12    14,938,400          5          1
lamps/lights                      32     8,480,010        989         46
slow cookers                       6     7,885,000      5,439         53
baby carriers                      6     7,542,135      2,969        301
air guns                           4     7,525,800        172        171
chairs                            21     6,226,454        185         58
candles                           36     6,138,036        164         20
stuffed animals                    4     4,346,500         33          0
exercise equipment                14     3,266,039        894        172
notebook computers                14     3,083,282         60          0
juice extractors                   4     2,746,058         68         45
printers                           4     2,656,431          5          0
coffeemakers                       6     2,546,160        282         12
battery chargers                   4     2,525,660          6          2
fans                               7     2,416,800         39          1
cut-off wheels                     3     2,186,400        172          0
high chairs                        3     2,185,000        327        164
portable heaters                  11     2,153,800        211          5
strollers                          8     1,958,730      1,391        538
fireworks                          8     1,901,000          7          5
basketball                         3     1,778,600         28          1
food processors                    4     1,759,300         30         21
dehumidifiers                      3     1,502,500         20          0
scooters                          11     1,497,772        564         47
toys                              12     1,383,490          8          1
drills                             7     1,275,000         87          7
all-terrain vehicles              48     1,207,538      2,247         80
cell phone batteries               3     1,190,000         36          3
baby jumpers                       3     1,082,300        211         47
pacifiers/teethers                13     1,018,907          8          0
extension cords                    5     1,001,200          5          1
------------------------------------------------------------------------
Note: List includes all product groups with 3+ recalls of 1,000,000
  products or more.


   Table 2--Product Recalls by Number of Incidents per 10,000 Recalled
                                Products
  [Recalls Announced June 2000-November 2005 w/Press Release or Recall
                                 Alert]
------------------------------------------------------------------------
                                      Number of                Inc. Rate
              Product                  Products    Incidents  per 10,000
------------------------------------------------------------------------
deck/railing materials                    11,000         370       336.4
leaf blowers/vacuums                      11,191         285       254.7
thermos bottles                           45,000         654       145.3
spinning ride toys                       103,000       1,427       138.5
steam cleaners                            30,100         347       115.3
pressure cookers                           7,400          63        85.1
spas                                      26,050         206        79.1
riding mowers                            218,814       1,592        72.8
tables                                     7,000          33        47.1
playpens                                 102,000         421        41.3
table saws                                59,900         241        40.2
snowboard bindings                        17,000          63        37.1
water disinfection systems                12,500          40        32.0
refrigerators                             26,000          82        31.5
fireplaces                                 8,334          22        26.4
camping stoves                            32,986          74        22.4
handheld vacuum AC adapters               10,000          22        22.0
mugs                                       6,500          14        21.5
cribs                                    472,773         980        20.7
gasoline stove fuel                        9,700          20        20.6
toaster ovens                              7,000          14        20.0
hair straightening irons                  20,000          38        19.0
hikers                                     7,500          14        18.7
all-terrain vehicles                   1,207,538       2,247        18.6
wet/dry vacuums                            6,500          12        18.5
pans                                       8,700          16        18.4
water coolers                             12,000          20        16.7
baby table toys                           20,000          32        16.0
baby changing tables                       5,000           8        16.0
lawn mowers                              507,000         760        15.0
battery for GPS                           10,300          15        14.6
grills                                   917,374       1,256        13.7
cordless sweepers                         59,400          80        13.5
fire alarm control panels                  6,000           8        13.3
baby toys                                 21,000          27        12.9
deep fryer baskets                        50,000          63        12.6
weather radios                            10,000          12        12.0
cotton candy machines                    188,000         225        12.0
miter saws                                 6,400           7        10.9
air conditioners                          61,060          63        10.3
steel kettles                             13,000          13        10.0
wax/candle melting pots                    9,000           9        10.0
------------------------------------------------------------------------
Note: List includes product groups with recalls of 5,000 products or
  more.


   Table 3--Product Recalls by Number of Injuries per 10,000 Recalled
                                Products
  [Recalls Announced June 2000-November 2005 w/Press Release or Recall
                                 Alert]
------------------------------------------------------------------------
                                      Number of                Inj. Rate
              Product                  Products    Injuries   per 10,000
------------------------------------------------------------------------
steam cleaners                            30,100         222       73.75
pressure cookers                           7,400          53       71.62
wet/dry vacuums                            6,500          12       18.46
miter saws                                 6,400           7       10.94
wax/candle melting pots                    9,000           6        6.67
goalie masks                               5,000           3        6.00
thermos bottles                           45,000          23        5.11
fireplaces                                 8,334           4        4.80
furniture                                 31,849          14        4.40
baby toys                                 21,000           9        4.29
cowboy hats                                5,200           2        3.85
propane cylinders                          6,400           2        3.13
strollers                              1,958,730         538        2.75
baby walkers                             537,200         143        2.66
toy battery packs                          7,900           2        2.53
steel kettles                             13,000           3        2.31
pans                                       8,700           2        2.30
baby changing tables                       5,000           1        2.00
deep fryer baskets                        50,000          10        2.00
minibikes                                  5,000           1        2.00
jackets and vests                          5,100           1        1.96
wooden baby gates                         20,500           4        1.95
climbing gear                             42,539           8        1.88
human transporters                         6,000           1        1.67
push toys                                 54,900           9        1.64
sprayers                                   6,100           1        1.64
baby strollers                           300,000          48        1.60
mugs                                       6,500           1        1.54
bicycles                                 993,565         151        1.52
crib mobiles                              47,000           7        1.49
choral risers with guard rails             7,000           1        1.43
ball toys                                 43,000           6        1.40
glove compartment organizers              15,000           2        1.33
bicycle parts                              7,720           1        1.30
children's tent sets                      15,700           2        1.27
brushcutters/trimmers                     63,600           8        1.26
gun holster                                8,000           1        1.25
teapots                                   24,257           3        1.24
camping stoves                            32,986           4        1.21
pogo sticks                              154,000          17        1.10
water guns                                38,600           4        1.04
hair straightening irons                  20,000           2        1.00
grout sealer                             300,000          28        0.93
toy stands                               300,000          26        0.87
air powered rockets                      140,000          12        0.86
bicycle accessories                      120,604          10        0.83
riding mowers                            218,814          18        0.82
radial arm saws                        3,700,000         300        0.81
children's tent set                       13,040           1        0.77
grills                                   917,374          69        0.75
high chairs                            2,185,000         164        0.75
toy animal farms                          67,000           5        0.75
weather thermometers                      28,000           2        0.71
infant swings                             57,000           4        0.70
toy chests                                14,400           1        0.69
pencils w/sharpeners                     176,000          12        0.68
air hockey tables                         15,000           1        0.67
water kettles                             15,000           1        0.67
all-terrain vehicles                   1,207,538          80        0.66
defrost heaters                           16,000           1        0.63
hand trucks                               32,000           2        0.63
cribs                                    472,773          29        0.61
outdoor appliance timers                  16,700           1        0.60
playground equipment                     605,636          36        0.59
toddler beds                           1,200,000          69        0.58
toy play rings                            18,000           1        0.56
exercise equipment                     3,266,039         172        0.53
benches                                   19,757           1        0.51
ranges/ovens                             159,630           8        0.50
baseball video games                     140,000           7        0.50
ear guards                                60,000           3        0.50
eyelash curlers                          220,000          11        0.50
------------------------------------------------------------------------
Note: List includes product groups with recalls of 5,000 products or
  more.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
